<html>
<title> - AVIATION AND THE EMERGING USE OF BIOFUELS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                       AVIATION AND THE EMERGING
                            USE OF BIOFUELS
=======================================================================


                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 26, 2009

                               __________

                           Serial No. 111-15

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
48-004                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

                HON. GABRIELLE GIFFORDS, Arizona, Chair
DAVID WU, Oregon                     PETE OLSON, Texas
DONNA F. EDWARDS, Maryland           F. JAMES SENSENBRENNER JR., 
MARCIA L. FUDGE, Ohio                    Wisconsin
PARKER GRIFFITH, Alabama             DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        FRANK D. LUCAS, Oklahoma
BARON P. HILL, Indiana               MICHAEL T. MCCAUL, Texas
CHARLES A. WILSON, Ohio                  
ALAN GRAYSON, Florida                    
SUZANNE M. KOSMAS, Florida               
BART GORDON, Tennessee               RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
             ALLEN LI Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant


                            C O N T E N T S

                             March 26, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Gabrielle Giffords, Chairwoman, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    13
    Written Statement............................................    14

Statement by Representative Pete Olson, Ranking Minority Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    15
    Written Statement............................................    15

                               Witnesses:

Dr. Jaiwon Shin, Associate Administrator, Aeronautics Research 
  Mission Directorate, National Aeronautics and Space 
  Administration (NASA)
    Oral Statement...............................................    16
    Written Statement............................................    18
    Biography....................................................    21

Dr. Lourdes Q. Maurice, Chief Scientific and Technical Advisor, 
  Office of Environment and Energy, Federal Aviation 
  Administration
    Oral Statement...............................................    22
    Written Statement............................................    23
    Biography....................................................    40

Dr. Alan H. Epstein, Vice President, Technology and Environment, 
  Pratt & Whitney, United Technologies Corporation
    Oral Statement...............................................    40
    Written Statement............................................    41
    Biography....................................................    45

Mr. Billy M. Glover, Managing Director of Environment Strategy, 
  Boeing Commercial Airplanes
    Oral Statement...............................................    45
    Written Statement............................................    46

Mr. Holden E. Shannon, Senior Vice President, Global Real Estate 
  and Security, Continental Airlines
    Oral Statement...............................................    52
    Written Statement............................................    54
    Biography....................................................    66

Discussion
  Quantifying Priority Levels for Biofuels in the Aviation 
    Industry.....................................................    66
  Biofuels Carbon Emission Reductions............................    69
  Cap-and-Trade Is the Wrong Route...............................    70
  Incentives to Encourage Alternative Fuels in the Aviation 
    Industry.....................................................    71
  Reducing Aviation Particulates to Curb Pollution...............    72
  Reducing Real Carbon Emissions.................................    74
  Subsizing Algae as a Biofuel...................................    75
  Executive Branch Coordination of Biofuels R&D..................    76
  Possible Unintended Consequences of Biofuels Production........    77
  Where Is the U.S. in Comparison to Europe on Biofuels?.........    78

             Appendix 1: Answers to Post-Hearing Questions

Dr. Jaiwon Shin, Associate Administrator, Aeronautics Research 
  Mission Directorate, National Aeronautics and Space 
  Administration (NASA)..........................................    82

Dr. Lourdes Q. Maurice, Chief Scientific and Technical Advisor, 
  Office of Environment and Energy, Federal Aviation 
  Administration.................................................    85

Dr. Alan H. Epstein, Vice President, Technology and Environment, 
  Pratt & Whitney, United Technologies Corporation...............    90

Mr. Billy M. Glover, Managing Director of Environment Strategy, 
  Boeing Commercial Airplanes....................................    93

Mr. Holden E. Shannon, Senior Vice President, Global Real Estate 
  and Security, Continental Airlines.............................    95

             Appendix 2: Additional Material for the Record

Global Warming Quotes submitted by Representative Dana 
  Rohrabacher....................................................   100


               AVIATION AND THE EMERGING USE OF BIOFUELS

                              ----------                              


                        THURSDAY, MARCH 26, 2009

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Gabrielle 
Giffords [Chairwoman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                       Aviation and the Emerging

                            Use of Biofuels

                        thursday, march 26, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

I. Purpose

    The House Committee on Science and Technology's Subcommittee on 
Space and Aeronautics is convening a hearing to review the status of 
federal and industry research and development (R&D) efforts to develop 
and demonstrate the safe and cost-effective use of biofuels in civil 
aviation. The hearing will focus on the following questions and issues:

        <bullet>  What research is needed to determine the optimal 
        characteristics of both aircraft engine technologies and 
        biofuels to minimize harmful emissions while maintaining 
        aircraft safety and reliability and maximizing performance?

        <bullet>  What are the most realistic aviation biofuel options 
        over the long-term, and what will be required to achieve 
        widespread use of biofuels in aviation?

        <bullet>  What steps, if any, is the Federal Government taking 
        to assess the viability of biofuels for aviation or to 
        facilitate their widespread use in aviation?

        <bullet>  What are the results of the recently completed 
        aviation biofuels demonstrations?

II. Witnesses

Dr. Jaiwon Shin
Associate Administrator
Aeronautics Research Mission Directorate
National Aeronautics and Space Administration

Dr. Lourdes Q. Maurice
Chief Scientist
Federal Aviation Administration
Environmental Lead for the Commercial Aviation Alternative Fuels 
        Initiative

Dr. Alan H. Epstein
Vice President, Technology and Environment
Pratt & Whitney
United Technologies Corporation

Mr. Billy M. Glover
Managing Director, Environmental Strategy
Boeing Commercial Airplane Company

Mr. Holden E. Shannon
Senior Vice President of Global Real Estate and Security
Continental Airlines

III. Overview

    The convergence of high fuel prices with possible caps on harmful 
aircraft engine emissions has encouraged the aviation community to 
investigate alternatives to petroleum-based jet fuels that would be 
safe and cost-effective--both to use and produce. In 2006, for the 
first time in history, fuel became the single largest component of U.S. 
airline operating cost. According to the Air Transport Association 
(ATA), while consumption by commercial aircraft has stayed steady over 
a seven year period at about 20 billion gallons per year, jet fuel 
expenses have more than doubled over that same period. The aviation 
industry has achieved substantial improvements in fuel efficiency since 
the introduction of commercial jet aircraft in the 1960s through fleet 
modernization, air traffic management improvements and operational 
changes. However, despite such improvements, expectations of increased 
fuel consumption from projected growth in air travel and the 
possibility of higher fuel prices are forcing the aviation industry to 
try to reduce its reliance on fossil fuels and find alternative sources 
of supply.
    So far, alternative fuels being considered for aviation include 
synthetic fuels, such as those produced using a process called Fischer-
Tropsch, and a number of biofuels. While synthetic fuels made from 
coal, natural gas and other hydrocarbon feedstock are attractive 
because they can be easily integrated into existing aircraft systems, 
such fuels do not help address climate issues and as such are viewed by 
some as only near-term alternatives. In contrast, biofuels produced 
from a wide variety of plant material are characterized as ``carbon 
neutral'' and thus may help mitigate the impact of aviation on the 
environment. First-generation biofuels, commonly made from fermented 
sugars from wheat or corn; soy beans; and sunflower seeds are generally 
unsuitable for aviation jet fuel. If biofuels are to become successful 
in commercial aviation use, they will need to be high in energy, safe 
to use, capable of working well in sub-zero temperatures at high 
altitudes, cost-efficient to make, suitable for production in large 
quantities, and capable of burning cleanly.
    Of late, there has been significant activity in the development and 
testing of biofuels for aviation. U.S. research in the application of 
biofuels for aviation is being conducted by the National Aeronautics 
and Space Administration (NASA); the Department of Defense (DOD); a 
consortium of the Federal Aviation Administration (FAA), airlines and 
aircraft manufacturers; and other partnerships. The airline industry 
views the primary benefit of using biofuels as being the enhancement of 
the industry's ability to reduce greenhouse gases throughout the fuels' 
entire life cycle.
    Recent tests using various biofuel blends, including well-
publicized demonstrations by several commercial partnerships, have 
created high expectations, both in this country and abroad. Testimony 
at this hearing should provide the Subcommittee with an assessment of 
what research and tests are being done, who is doing it, what further 
research is needed, and whether a timeframe for the widespread 
availability of biofuel for aviation can be projected.

IV. Potential Hearing Issues

    The following are some of the potential issues that may be raised 
at the hearing:

        <bullet>  What research is being conducted to validate the 
        projected benefits of using biofuels in aviation with regards 
        to their ability to reduce aircraft engine emissions?

        <bullet>  Is there an overall ``roadmap'' for conducting 
        aviation biofuel research? Is the research performed by the 
        Federal Government aligned with that conducted by the private 
        sector? Are research results available to all?

        <bullet>  Can the development readiness of emerging biofuels be 
        commonly characterized and measured using standard metrics?

        <bullet>  What has been learned so far from partnership 
        demonstrations using biofuels? Are additional demonstrations 
        planned?

        <bullet>  What research is being planned or conducted to 
        determine the impact long-term and widespread biofuel use may 
        have on aircraft safety, and engine performance/
        maintainability/reliability? Is more research needed? In what 
        areas?

        <bullet>  Has the recent downturn in fuel prices and in the 
        Nation's economy lessened the urgency of developing biofuels 
        for civil aviation use?

        <bullet>  What key challenges need to be resolved before 
        widespread use of biofuels in civil aviation can occur and what 
        role should the Federal Government play?

V. Background

Issues Associated with Biofuels in Aviation
    Before biofuels can be used in civil aviation, a number of issues 
will need to be addressed. While not exhaustive, the following list of 
R&D tasks identified by NASA is illustrative of the scope of research 
that may be needed before widespread use of biofuels in the aviation 
sector can occur:

        <bullet>  Understanding combustion behavior for the new fuels 
        and demonstrating long-term engine combustor performance and 
        developing predictive models for combustor performance to 
        enable low emission combustor design using biofuels.

        <bullet>  Understanding the emission characteristics of 
        biofuels, in particular understanding the effect of biofuel 
        constituents on the emission characteristics so that the 
        biofuel can be optimized for reducing emissions in gas turbine 
        engines.

        <bullet>  Demonstrating the biofuels' desired thermal stability 
        under a range of temperatures encompassing high temperatures to 
        freezing, lubricity, and no seal leakage.

        <bullet>  Demonstrating long-term performance of engines.

        <bullet>  Demonstrating long-term durability of engine 
        components.

    The setting of fuel specifications is another significant issue 
recognized by the aviation industry. As indicated in an Alternative 
Aviation Fuels Q&A by the Air Transport Association (ATA) on their 
website, all aircraft and engines in the United States must be approved 
(technically, ``certificated'') by the Federal Aviation Administration 
(FAA) for use. To quote the ATA website's Q&A:

         ``FAA approval is specific to the fuel that is used and the 
        particular aircraft and/or engine type. Any deviation from the 
        FAA approval certificate requires extensive FAA re-evaluation 
        and approval.''

    FAA's role is in certifying aircraft, not in the fuel. However, 
FAA's certification has a tie-in to the type of fuel utilized. As 
stated in ATA's Q&A:

         ``The FAA certifies aircraft and engines. An element of this 
        certification is a listing of the operational requirements and 
        limitations for the specific equipment that is being certified, 
        which includes identification of the type of jet fuel approved 
        for use in that equipment. Therefore, the FAA specifies what 
        type of fuel is to be used but does not certify the jet fuel 
        itself. Separately, airline fueling manuals, with which 
        airlines must comply by law, are based upon the jet fuel 
        recognized by the FAA. Before FAA identifies the fuel 
        appropriate for specific equipment, and before airlines can 
        include the fuel requirements in fueling manuals, the fuel 
        already has been determined to meet the specifications 
        necessary to be safely used in the relevant equipment. In the 
        case of jet fuel, the applicable standard (also referred to as 
        a ``specification'') is controlled by ASTM International, an 
        organization devoted to the development and management of 
        standards for a wide range of industrial products and 
        processes. It is this specification that is included in FAA 
        product approvals and required air carrier manuals. 
        Periodically, through ASTM's established procedures, the 
        specification is updated and revised by a specialized committee 
        of experts. Proposed changes to the specification are carefully 
        considered, and a formal balloting process is conducted to 
        secure consensus before any revision is accepted. Fuels 
        produced from alternative sources must complete this rigorous 
        vetting process to establish that they meet the specification 
        requirements to be safely used as jet fuel.''

    Alternative fuels such as biofuels will need to go through this 
vetting process before they can be used in civil aviation. The ATA 
website's Q&A further states:

         ``In light of this regulatory arrangement and the fact that 
        the specification for Jet A and Jet A-1 fuel is identified in 
        the FAA approval certificate, no other type of fuel can be 
        utilized at this time in the United States. Much work needs to 
        be done before alternative fuels can safely be used in 
        commercial aircraft operations with approval from the FAA.''

    The importance of establishing alternative fuel specifications was 
recently highlighted in the Technical Appendix to the National Plan for 
Aeronautics Research and Development and Related Infrastructure. In 
this document, released in December 2008 by the Executive Office of the 
President's National Science and Technology Council, opportunities were 
listed where additional R&D focus may be warranted. One such 
opportunity relates to alternative fuels. Specifically, the document 
states:

         ``Certification in a timely manner could help enable 
        alternative fuels for the civil aviation sector. An area of 
        opportunity identified for potential increased emphasis is R&D 
        efforts appropriate to promote the development of private 
        sector capabilities to produce alternative fuel (including 
        renewable fuels) in the large quantities necessary to conduct 
        tests essential for the certification process. These tests 
        include evaluation of fuel specification and fit for purpose 
        properties, turbine hot section tests, combustor rig tests, and 
        engine and auxiliary power unit endurance tests.''

    A representative of the Commercial Aviation Alternative Fuels 
Initiative (CAAFI), a coalition drawn from all elements of the 
commercial aviation industry, fuel suppliers, universities, and U.S. 
Government agencies, recently highlighted the need for an ASTM 
specification for alternative fuels at a workshop held by the 
International Civil Aviation Organization. Dr. Lourdes Maurice, a 
witness at the hearing who also serves as one of FAA's representatives 
on CAAFI, will be able to provide further details on the challenges 
associated with the setting of alternative fuel specifications for 
aviation.

Recent Activities of Key Aviation-focused Alternative Fuels 
        Stakeholders
    There are a number of stakeholders whose views have helped shape 
the discussion of the technical, operational, and economic issues 
associated with the use of alternative fuels in aviation. Many of these 
stakeholders are involved in research initiatives associated with the 
use of alternative fuels in the aviation sector. They represent 
federal, industry, and global interests.

            National Aeronautics and Space Administration
    NASA's Fundamental Aeronautics Program has been conducting a range 
of research activities related to alternate aviation fuels. For 
example, NASA is:

        <bullet>  Conducting fundamental reaction studies on the 
        Fischer-Tropsch process. Although the process is well-
        established, NASA believes that there is significant potential 
        for process improvement that will increase process yield and 
        reduce cost and reduce energy consumption during the Fischer-
        Tropsch process which should translate to a decrease in carbon 
        dioxide emissions. As a result, NASA research is focusing on 
        investigating Fischer-Tropsch reaction kinetics and developing 
        a nanotechnology based catalyst. The process improvements 
        resulting from NASA laboratory reactor studies will be 
        implemented in the Air Force Research Laboratory's Fischer-
        Tropsch pilot plant. Scientists and researchers from NASA's 
        Glenn Research Center are conducting this research in the 
        Alternative Fuel Research Laboratory. Partners in this effort 
        include the FAA, DOD, the Department of Energy (DOE), General 
        Electric, Pratt and Whitney, Boeing and the University of 
        Kentucky's Center for Applied Research.

        <bullet>  Generating a database of properties for the use of 
        alternate fuels in aviation. The database of key properties 
        such as thermal stability and freezing point is being generated 
        to evaluate various alternate fuels for application to aviation 
        uses and provides an independent assessment of these fuels.

        <bullet>  Modeling growth processes for biofuel feedstock. 
        Under a non-reimbursable Space Act Agreement, NASA is 
        partnering with Seambiotic, Inc. on a project aimed at biomass 
        process cost reduction. The goal of the Space Act Agreement is 
        to make use of NASA's expertise in large scale computational 
        modeling and combine it with Seambiotic's biological process 
        modeling to make significant advances.

        <bullet>  Performing engine and flight testing with alternate 
        fuels in collaboration with Pratt & Whitney, the Air Force 
        Research Laboratory, Aerodyne Research, FAA, and the 
        Environmental Protection Agency (EPA). For example, NASA's DC-8 
        at the Dryden Flight Research Center was recently used to 
        evaluate aircraft performance and emissions using alternate 
        fuels. Fuels used for the ground tests were 100 percent 
        synthetic fuels and 50/50 blends of synthetics and regular jet 
        fuel. NASA believes that synthetic fuels may have fewer 
        particulates and other harmful emissions than standard jet fuel 
        and is attempting to validate that hypothesis. The tests used 
        sampling probes placed downstream from the DC-8's right inboard 
        engine. Researchers are examining the plume chemistry and 
        particle evolution to compare it to that of standard jet fuel.

            Federal Aviation Administration
    In addition to its involvement in the Commercial Aviation 
Alternative Fuels Initiative described later in this section, FAA may 
have some legislative direction related to alternative fuels in pending 
legislation. The agency was directed in the House-passed FAA 
Reauthorization Act of 2007 [H.R. 2881, Sec. 914] to ``establish a 
research program related to developing jet fuel from alternative 
sources (such as coal, natural gas, biomass, ethanol, butanol, and 
hydrogen) through grants or other measures authorized under section 
106(l)(6) of such title, including reimbursable agreements with other 
federal agencies.'' The bill further directed that in conducting the 
program, the Secretary ``provide for participation by educational and 
research institutions that have existing facilities and experience in 
the development and deployment of technology for alternative jet 
fuels.''
    The bill also directed, within the section describing the 
Continuous Lower Energy, Emissions, and Noise (CLEEN) program [Sec. 
505] that the FAA Administrator, in coordination with the NASA 
Administrator, ``enter into a cooperative agreement, using a 
competitive process, with an institution, entity, or consortium to 
carry out a program for the development, maturing, and certification of 
CLEEN engine and airframe technology for aircraft over the next 10 
years.'' Performance objectives for the program, to be achieved by 
September 30, 2015 included the ``determination of the feasibility of 
the use of alternative fuels in aircraft systems, including successful 
demonstration and quantification of the benefits of such fuels.''
    Legislation [H.R. 915] to authorize appropriations for FAA for 
fiscal years 2009 through 2012 was recently marked up by the House 
Committee on Transportation and Infrastructure. The direction to FAA on 
alternative fuels and CLEEN program is maintained [Sections 505 and 
913] in that bill.

            Department of Defense
    Knowledge gained from research on alternative fuels being conducted 
by DOD, the Air Force and the Defense Advanced Research Projects Agency 
(DARPA) in particular, is beneficial to the aviation community since 
test results can be extended to commercial aircraft.
    The Air Force has been investigating synthetic fuels produced using 
the Fischer-Tropsch process, even though it recognizes that synthetic 
fuels will not lead to fewer emissions of carbon dioxide, the 
greenhouse gas primarily responsible for global climate change. 
According to a recent article in Flight International, the Air Force 
``is uninterested in fuels made from feedstocks that compete with food 
supply or require huge amounts of land for production.'' In that same 
article, the Air Force's Alternative Fuels Certification Office 
director was reported as having said that the service is planning to 
apply lessons learned from its Fischer-Tropsch initiative to an 
expanded alternative fuel development program that includes biofuels. 
The Air Force's involvement in alternative fuels is understandable: It 
has been reported that the service uses more aviation fuel than all 
other branches of the U.S. military combined. In 2007, this amounted to 
2.5 billion gallons--about 10 percent of the total used by the entire 
U.S. domestic aviation-fuel market. The Air Force has set a goal of 
running half of its domestic operations on a 50/50 blend of synthetic 
and conventional jet fuel by 2016.
    DARPA has also shown a growing interest in biofuels. Biodiesel 
Magazine has reported that DARPA's BioFuels program recently awarded 
two research contracts aimed at developing a scalable process for the 
cost-effective and large-scale production of algae oil to be processed 
into an alternative to JP-8 jet fuel. In one contract valued at $43 
million, General Atomics will lead a team of 18 university and 
industrial partners in a three-year project. The contract will conclude 
with a pre-pilot-scale demonstration. In the second contract, Science 
Applications International Corp. (SAIC), along with industrial and 
academic organizations from Georgia, Florida, Hawaii and Texas will 
investigate all phases of an algae development program. It has been 
reported that during the first 18 months of the project, the two teams 
will try to get costs of algae-based oil down to $2 a gallon. It was 
also reported that, in the following 18 months, they will attempt to 
drop it to $1 a gallon and build a 30- to 50-acre demonstration 
facility.

            Commercial Aviation Alternative Fuels Initiative
    The Commercial Aviation Alternative Fuels Initiative (CAAFI) is a 
coalition drawn from all elements of the commercial aviation industry, 
fuel suppliers, universities, and U.S. Government agencies, including 
FAA, DOE, NASA, the Air Transport Association of America (ATA), the 
Aerospace Industries Association (AIA), and the Airports Council 
International-North America (ACI-NA). CAAFI staff come from its 
members. For example, Dr. Lourdes Maurice, a witness at this hearing, 
is from FAA and serves as CAAFI's Environmental Lead. The coalition's 
stated goal is to enhance energy security and environmental 
sustainability for aviation by exploring the potential use of 
alternative fuels. CAAFI provides a forum for the U.S. commercial 
aviation community to engage the emerging alternative fuels industry 
and to work together, share and collect needed data, and motivate and 
direct research on aviation alternative fuels.
    CAAFI participants meet annually to give updates on the state of 
alternative fuel developments, identify gaps and hurdles, and decide on 
next steps required in the research, development and deployment 
process. Work to date has included the creation of roadmaps to 
communicate aviation needs and solutions; disseminating flight-test 
information on synthetic fuels and biofuels; supporting R&D on low 
carbon fuels sourced from plant oils, algae and biomass; understanding 
life cycle environmental impacts of production and use of alternative 
fuels; and planning for certification in 2009 of a 50 percent synthetic 
fuel, 2010 for 100 percent synthetic fuel, and 2013 for biofuels. 
CAAFI's Executive Director told Subcommittee staff that the coalition 
is presently executing a major update to its roadmaps as a result of 
the Dayton workshop discussed below and projected that they would be 
available in the near future.
    Two CAAFI initiatives relevant to the focus of this hearing are 
worth noting:

        <bullet>  At CAAFI's request, the Partnership for AiR 
        Transportation Noise and Emissions Reduction (PARTNER), a 
        university, industry, and government collaborative that 
        researches solutions for existing and anticipated aviation-
        related noise and emissions problems, is conducting a study on 
        alternative fuels for commercial aviation. The study, conducted 
        by MIT and the RAND Corporation, compares a set of potential 
        alternative jet fuels on the basis of compatibility with 
        existing aircraft and infrastructure, near-term production 
        potential, near-term production costs, life cycle greenhouse 
        gas emissions, emissions impacting air quality, and relative 
        merit of using the fuel in aviation versus ground 
        transportation. The focus is on alternative jet fuels that 
        could be commercially available in the next decade using North 
        American resources. According to CAAFI, the report documenting 
        PARTNER's research is under internal review and is scheduled to 
        be released in May of this year. PARTNER is an FAA/NASA/
        Transport Canada-sponsored Center of Excellence.

        <bullet>  Last January, CAAFI held a Research & Development 
        Team workshop in Dayton, OH. The workshop's goals were to 
        update ongoing R&D activities and needs; develop an overall R&D 
        roadmap and a renewable fuel feedstock roadmap; and align 
        aviation efforts with broader government and private sector 
        energy initiatives. The workshop was an opportunity for makers 
        of biofuel feedstocks to meet with funding sources. Federal 
        attendees included representatives of the Air Force; 
        Departments of Agriculture and Energy; the National Science 
        Foundation; EPA; FAA; and NASA. In commenting on the progress 
        that the alternative fuels effort had made in a short time, 
        Boeing's representative and R&D team co-lead said:

                 ``We've made great strides in making aviation a 
                central focus of alternative fuels research including 
                four successful flight programs [These flight programs 
                are described later in this section]. Our efforts today 
                will help focus industry and government--suppliers and 
                users on how to move forward to deployment on those 
                fuels that have been tested and how to mature 
                additional technologies.''

           One of the participants at the workshop introduced a new 
        Fuel Readiness Level (FRL) scale to allow a common 
        understanding of fuel development steps from R&D to fuel 
        certification to business development. The new scale 
        incorporates civilian and military Technology Readiness Level 
        (TRL) scales and was advanced as a useful tool and common 
        language for tracking the fuel development, approval and 
        commercialization process.

            Departments of Energy and Agriculture
    The U.S. Departments of Energy (DOE) and Agriculture (USDA) 
announced in January 2009 that they were providing up to $25 million in 
funding for research and development of technologies and processes to 
produce biofuels, bioenergy, and high-value biobased products. USDA and 
DOE issued a joint funding opportunity announcement (FOA) for several 
types of projects aimed at increasing the availability of alternative 
renewable fuels and biobased products. The projects, DOE and USDA said, 
will aim to create a diverse group of economically and environmentally 
sustainable sources of renewable biomass.
    In commenting on the announcement, the Air Transport Association 
said that it was the first step in implementing provisions found in the 
2008 Farm Bill that provide grants for commercial-scale biofuel 
demonstration projects, including those that could ultimately produce 
clean, homegrown, renewable jet fuel.
    ATA's President and CEO added: ``This commitment to the research 
and development of advanced renewable fuels will allow for commercial-
scale demonstration projects and other important activities that will 
move us closer to commercially viable, environmentally friendly 
alternative jet fuel. ATA and its member airlines look forward to 
working with the Federal Government to further promote the rapid 
development of these exciting new fuel sources.''

            European Commission
    In February 2009, the Office National d'Etudes et de Recherches 
Aerospatiales (ONERA) was chosen by the European Commission's 
Directorate-General for Energy and Transport as prime contractor to 
conduct a strategic feasibility and impact study on alternative fuels 
for aviation called Sustainable Way for Alternative Fuel and Energy in 
Aviation (SWAFEA). ONERA is leading a consortium of 19 industry and 
research partners representing aircraft manufacturing, air transport, 
oil industry, research and consulting sectors. ONERA is the French 
national aerospace research center and was originally created by the 
French government in 1946.
    By providing a clearer view of the feasibility of different 
alternative fuel options, the SWAFEA study will also help determine 
research paths to prepare future European programs as well as providing 
a foundation for potential international partnerships extending beyond 
Europe, including the United States.
    According to the ONERA press release announcing the program, the 
SWAFEA study will be carried out over a 26-month period, ``synthesizing 
our current knowledge of the different alternatives to conventional jet 
fuel, and issuing recommendations and a road map for their deployment 
in the medium-term.'' Furthermore, the press release stated that the 
study ``will call on a multi-disciplinary approach to integrate all 
issues involved, spanning technical, organizational, economic, society, 
environmental and geopolitical aspects. This inventory of the ``state 
of the art'' will be backed by experimentation.''

            International Air Transport Association
    The International Air Transport Association (IATA), representing 
230 airlines that account for 93 percent of scheduled international air 
traffic, released a report in December 2008 entitled ``IATA 2008 Report 
on Alternative Fuels.''
    The report's findings were listed as:

        <bullet>  ``The potential for biomass as feedstock supply is 
        high, even though the differences in sources and locations 
        require multiple technologies for conversion.

        <bullet>  The oil price will stay low as long as deep recession 
        causes more demand destruction. However, projects to develop 
        new reserves are being stopped. Once recession ends supply-
        demand pressures are widely expected to take oil prices back up 
        to the $100 a barrel level.

        <bullet>  ``Peak oil'' is not reached yet; the current oil 
        reserves are high enough to supply the world for the next 42 
        years of oil, calculated with current consumption.

        <bullet>  The impact of the European Union emissions trading 
        scheme is estimated to add around five percent to jet kerosene 
        fuel costs for flights in and out of the EU from 2012.

        <bullet>  The current certification process of aviation fuels 
        can take up to four phases in testing: testing on specification 
        properties, fit-for-purpose properties, component testing and 
        engine testing. When all the testing steps have to be performed 
        the amount of fuel is about 1000 m3 (250.000 gallon).

        <bullet>  Some of the technologies, both in biochemical as 
        thermo chemical conversion, are well established and have 
        produced renewable jet fuel for testing.''

    The report's recommendations were stated as:

        <bullet>  ``Applying biomass as a feedstock requires further 
        analysis in sustainability criteria in order to ensure that 
        negative nature changes from historic actions, like 
        deforestation, are not repeated.

        <bullet>  The uncertainty in calculated greenhouse gas 
        emissions needs to be reduced. This can be done by increasing 
        the quality of models and performing measurements at production 
        plants.

        <bullet>  Most of the technologies that are able to produce jet 
        fuel from the currently available feedstock need more research 
        and development to become commercial.

        <bullet>  The technologies that are in the end of the 
        innovation phase require actions that reduce the risk of 
        commercialization.

        <bullet>  Industry stakeholders are taking various diversified 
        actions to promote sustainable alternative fuels for aviation. 
        It is recommended to the industry to collaborate in directly 
        non-competitive issues to reduce the accessibility hurdles of 
        innovators.''

            International Civil Aviation Organization
    The search for alternative fuels for aviation is not limited to the 
U.S. The International Civil Aviation Organization (ICAO), an agency of 
the United Nations, held a workshop in Montreal, Canada on Aviation and 
Alternative Fuels in February 2009 The main goals of the workshop were 
identified by ICAO as stimulating a dynamic exchange of views and 
initiating work on a global roadmap for the effective, and the 
responsible contribution of aviation alternative fuels to protecting 
the environment. The event, ICAO noted, was designed as a preparatory 
event to a world conference in November 2009 that will showcase 
progress and establish a road map for the implementation of alternative 
fuels for aviation.
    In his opening remarks, ICAO's Secretary General said:

         ``Alternative fuels on their own are not, and never will be, 
        the solution. They should, however, be part of a comprehensive 
        energy strategy. There are very few low-carbon energy options 
        for reducing aviation emissions, and alternative fuels may be 
        the only option for large scale use in the short-term. 
        Nevertheless, the decision to develop and use alternative fuels 
        must be an informed and responsible one, taking into account 
        total life cycle costs and carbon footprints.''

    In summarizing the workshop in his closing remarks, ICAO's Director 
of the Air Transport Bureau said:

         ``As we heard over the last three days, much progress has been 
        achieved to date and there are high expectations for the use of 
        more environmentally friendly drop-in alternative fuels for 
        aviation in the short-term. At the same time, research is 
        underway with potential for a globally-available alternative 
        fuel in the mid to long-term. However, concerted international 
        action will be necessary to translate this possibility into a 
        reality.''

         ``It is clear from this workshop that aviation alternative 
        fuels could be a win-win solution in that they will reduce 
        aviation's dependence on climate changing fossil fuels while 
        stabilizing the economic volatility associated with 
        conventional fossil fuels. Now, let us take another look at 
        these alternatives.

         While synthetic fuels are already or soon to be available, 
        their environmental benefit over conventional fuels is unclear. 
        They do however address the issue of energy security and also 
        diversify energy sources. Biofuels, on the other hand, seem to 
        offer environmental benefits but the production scalability 
        issues need to be resolved. Regardless of these challenges, the 
        importance of alternative fuels in the development of balanced 
        and robust strategies to mitigate the impact of aviation on the 
        environment is unquestionable.''

        <bullet>  ``As is so often the case in recent industrial 
        undertakings where the supplier and consumer base is not 
        limited to any one country or region, global cooperation will 
        be essential in ensuring the consistent and standardized use of 
        alternative fuels. This is especially true of aviation which 
        relies on a standard and consistent infrastructure across the 
        world for its efficient operation. However, at present, the 
        international aviation community has not achieved an integrated 
        approach to alternative fuels. While regional and national 
        efforts by airlines, manufacturers, and fuel producers have 
        done an excellent job of bringing together the expertise to 
        consider technical issues, the subject has been addressed in a 
        fragmented way. ICAO can help with better coordination since it 
        is the only globally recognized forum to deal with aviation.''

            Partnerships between Major Carriers and Airframe/Engine 
                    Vendors and Fuel Providers
    Several partnerships have conducted flight demonstrations using 
biofuels in the past year:

        <bullet>  In February 2008, a Virgin Atlantic Boeing 747-400 
        flew from London's Heathrow Airport to Amsterdam's Schiphol 
        Airport partially fueled by a 20 percent mix of biofuel derived 
        from coconut and babassu oil with conventional jet fuel. Other 
        test participants were Boeing, General Electric and Imperium 
        Renewables. Mr. Bill Glover, a witness at the hearing 
        representing the Boeing Commercial Airplane Company, will 
        provide further details about this and other demonstrations 
        involving Boeing aircraft.

        <bullet>  In May 2008, Jet Blue teamed with Airbus, 
        International Aero Engines (IAE) and Honeywell Aerospace to 
        pursue the development of sustainable biofuels derived from 
        algae and other non-food vegetable oils for use in commercial 
        aircraft. In addition to investigating the environmental 
        benefits of biofuels, the partnership plans to conduct research 
        into whether biofuels could potentially be developed that would 
        expand payload-range aircraft performance, reduce fuel burn, 
        and increase engine reliability and durability.

        <bullet>  In July 2008, Rolls-Royce and British Airways 
        announced that they were starting a test program to research 
        alternative fuels for the aviation industry. The companies 
        invited suppliers to offer alternative fuel samples for testing 
        on an engine taken from a British Airways Boeing 747. The tests 
        will be carried out on an indoor engine testbed. After a 
        selection of up to four alternative fuels, these fuels will 
        undergo laboratory testing before being delivered to Rolls-
        Royce for further testing. It was recently reported that the 
        partnership encountered difficulty in securing alternative fuel 
        samples in the desired quantities.

        <bullet>  In December 2008, an Air New Zealand Boeing 747-400 
        powered by Rolls-Royce RB211 engines flew a two-hour 
        demonstration flight using a 50-50 jatropha and conventional 
        jet fuel mix. The jatropha-derived fuel was supplied by Terasol 
        Energy, which is based in India. Other test participants were 
        Boeing, Rolls-Royce, and Honeywell subsidiary UOP.

        <bullet>  In January 2009, a Continental Boeing 737-800 powered 
        by two CFM56-7B engines made a two-hour demonstration flight at 
        Bush International Airport in Houston using a biofuel mixture 
        of jatropha and algae that was provided by Honeywell UOP. The 
        test included powering the right engine with the biofuel mix, 
        turning it off and on as well as rapidly accelerating and 
        slowing down the plane. A borescope inspection was done on the 
        engine using the biofuel mixture; no change in engine condition 
        was found. This followed a November 2008 ground test of the 
        biofuel mixture at which time fuel consumption at different 
        power settings was measured. Among Continental's reasons for 
        conducting a flight demonstration were helping collect needed 
        data to support fuel qualification/certification for use by the 
        aviation industry; showing the public that biofuel is safe and 
        that it works; and stimulating research and development on 
        biofuel use in aviation. Other test participants were Boeing 
        and the engine's manufacturer, CFM. Mr. Shannon Holden, a 
        witness at the hearing representing Continental Airlines, will 
        provide further details on Continental's test and interest in 
        biofuels.

        <bullet>  In January 2009, a Japan Air Lines Boeing 747-300 
        outfitted with Pratt & Whitney JT9D engines made a one hour 
        flight at Tokyo's Haneda Airport using a mixture of camelina, 
        jatropha, and algae. Camelina was sourced from Sustainable 
        Oils, a U.S. based provider. Terasol provided the jatropha oil. 
        Other test participants were Boeing, Pratt & Whitney, and 
        Honeywell UOP. Dr. Alan Epstein, a witness at the hearing 
        representing Pratt & Whitney, will provide further details on 
        the test.

            Sustainable Aviation Fuel Users Group
    Formed in September 2008, the Sustainable Aviation Fuel Users Group 
brings together major airlines, Boeing, and biofuel provider Honeywell 
UOP with the goal of accelerating the development and commercialization 
of sustainable new aviation fuels. The group's charter is to enable the 
commercial use of renewable fuel sources that can reduce greenhouse gas 
emissions, while lessening commercial aviation's exposure to oil price 
volatility and dependence on fossil fuels. The group receives support 
and advice from two environmental organizations, the World Wildlife 
Fund and the Natural Resources Defense Council (NRDC). Airline members 
are Air France, Air New Zealand, All Nippon Airways, Cargolux, Gulf 
Air, Japan Airlines, KLM, Scandinavian Airlines System (SAS), and 
Virgin Atlantic. Collectively, these carriers account for over 15 
percent of annual commercial use of jet fuel.
    According to Honeywell UOP, the group has announced two initial 
sustainability research projects. An Assistant Professor at Yale 
University's School of Forestry & Environmental Studies, through 
funding provided by Boeing, will conduct the first peer-reviewed, 
comprehensive sustainability assessment of jatropha curcas, to include 
life cycle CO<INF>2</INF> emissions and the socioeconomic impacts to 
farmers in developing nations. Similarly, NRDC will conduct an 
assessment of algae to ensure it meets the group's sustainability 
criteria.

            Algal Biomass Organization
    The Algal Biomass Organization (ABO) is a trade association 
dedicated to the advancement of the algal biomass industry. Formed in 
May 2008 out of the 2007 Algae Biomass Summit, ABO's goal is to promote 
the development of viable commercial markets for renewable and 
sustainable commodities derived from algae. The organization is 
composed of companies, some aviation-related such as Boeing, air 
carriers such as Continental, Air New Zealand, Virgin Atlantic, and 
FedEx; along with researchers, entrepreneurs, harvesters, processors 
and end-users of algae. Among the primary purposes of the organization, 
ABO cites:

        <bullet>  Facilitating commercialization and market development 
        of microalgae biomass specifically for biofuels production and 
        greenhouse gas abatement.

        <bullet>  Establishing cutting edge research and 
        commercialization summits and other meeting opportunities.

        <bullet>  Developing quality and measurement best practices for 
        algal biomass, products, systems technology, and econometrics.
    Chairwoman Giffords. Good morning everyone. This hearing 
will now come to order.
    Good morning, it is a pleasure to welcome all of you to 
today's Subcommittee hearing. We have an impressive panel of 
experts appearing before us this morning, and I look forward to 
a good discussion.
    Let me come right to the point. I think that today's 
hearing is one of the most important that this subcommittee is 
going to have all year. And why do I say that? It is no secret 
that this nation is wrestling with twin challenges of achieving 
energy independence and protecting and preserving our 
environment. These are very difficult challenges, but they are 
challenges we have to address and they are challenges that we 
have to meet.
    Every sector of our economy is going to have to play its 
part in helping to reduce our dependence on foreign energy as 
well as combating climate change.
    We all know the importance of aviation to our economy and 
to our quality of life, but that doesn't give us a free pass. 
We only have to look at the recent European moves on aviation 
emissions penalties to realize what is going on.
    This Congress will be focused on finding the best path 
forward as it considers climate and energy legislation in the 
coming months.
    This hearing will be the first opportunity for our 
committee to examine one important option for addressing both 
of those challenges, namely the potential offered by aviation 
biofuels.
    In that regard, we have seen increased attention in recent 
months to the role that biofuels could play as a future 
aviation fuel source. There even have been recent flight 
demonstrations of biofueled aircraft, and we will hear about 
some of those flight tests at today's hearing.
    Yet, the limited experience to date with the latest 
generation of aviation biofuels doesn't provide enough 
information to know what role they will ultimately play in 
aviation, and that is not surprising. As a Nobel prize-winning 
physicist once said, prediction is very difficult, especially 
if it involves the future.
    Now, we also don't yet have enough information on the 
potential unintended consequences of different types of 
aviation biofuels, and in particular, their impacts on land use 
and water use if they would go into widespread production.
    I called today's hearing so that the Subcommittee can start 
to get some real answers on the outstanding questions that will 
have to be addressed if biofuels are to play a significant role 
in aviation in the future. Most importantly, I would like to 
find out what is being done by both the Federal Government and 
the private sector to address these challenges.
    We have first-rate R&D capabilities at NASA, the FAA, DOD, 
and DOE, as well as America's companies, research institutes, 
and universities. However, those capabilities will not suffice 
without clear R&D roadmaps, program plans, and resource 
commitments to guide our efforts.
    I am afraid the odds of success will be reduced without an 
integrated federal/private sector approach to evaluating the 
potential benefits and costs of aviation biofuels, including a 
systematic plan to understand their impacts on both existing 
and future aircraft technologies. We have to quote Yogi Berra. 
I love a committee with good quotes: ``You've got to be very 
careful if you don't know where you're going, because you might 
not end up getting there.''
    So we need to get there as a nation, and I look forward to 
hearing from today's panelists about that productive path 
forward. And again, I want to welcome all of you to this very 
important hearing.
    And now I will yield to Mr. Olson for any opening remarks 
he would like to make.
    [The prepared statement of Chairwoman Giffords follows:]
          Prepared Statement of Chairwoman Gabrielle Giffords
    Good morning, it's a pleasure to welcome you to today's 
Subcommittee hearing.
    We have an impressive panel of experts appearing before us this 
morning, and I look forward to a good discussion.
    Let me come right to the point.
    I think that today's hearing is one of the most important that this 
subcommittee will hold this year.
    Why do I say that?
    It's no secret that this nation is wrestling with the twin 
challenges of achieving energy independence and preserving our 
environment.
    They are tough challenges, but we've got to succeed.
    Every sector of our economy is going to have to play its part in 
helping to reduce our dependence on foreign energy as well as helping 
to combat global warming.
    We all know the importance of aviation to our economy and to our 
quality of life, but that doesn't give it a ``free pass.''
    We only have to look at the recent European moves on aviation 
emissions penalties to realize that.
    This Congress will be focused on finding the best path forward as 
it considers climate and energy legislation in the coming months.
    This hearing will be the first opportunity for our committee to 
examine one important option for addressing both of those challenges--
namely the potential offered by aviation biofuels.
    In that regard, we have seen increased attention in recent months 
to the role that biofuels could play as a future aviation fuel source.
    There even have been recent flight demonstrations of biofueled 
aircraft, and we will hear about some of those flight tests at today's 
hearing.
    Yet, the limited experience to date with the latest generation of 
aviation biofuels doesn't provide enough information to know what role 
they will ultimately play in aviation.
    That's not surprising. As the Nobel prize-winning physicist Niels 
Bohr once said: ``Prediction is very difficult, especially about the 
future.''
    We also don't yet have enough information on the potential 
``unintended consequences'' of different types of aviation biofuels, 
and in particular, their impacts on land use and water use if they 
would go into widespread production.
    I called today's hearing so that the Subcommittee can start to get 
some answers on the outstanding questions that will have to be 
addressed if biofuels are to play a significant role in aviation in the 
future.
    Most importantly, I would like to find out what is being done by 
both the Federal Government and the private sector to address those 
challenges.
    We have first-rate R&D capabilities at NASA, the FAA, DOD, and DOE, 
as well as in America's companies, research institutes, and 
universities.
    However, those capabilities will not suffice without clear R&D 
roadmaps, program plans, and resource commitments to guide our efforts.
    I'm afraid the odds of success will be reduced without an 
integrated federal/private sector approach to evaluating the potential 
benefits and costs of aviation biofuels, including a systematic plan to 
understand their impacts on both existing and future aircraft 
technologies.
    Or to quote another notable person, Yogi Berra: ``You've got to be 
very careful if you don't know where you're going, because you might 
not get there.''
    I think we need to ``get there'' as a nation, and I look forward to 
today's hearing as an important step towards crafting a productive path 
forward.
    With that, I again want to welcome our witnesses, and I now will 
yield to Mr. Olson for any opening remarks he would care to make.

    Mr. Olson. Thank you, Madam Chairwoman, and thank you for 
calling this morning's hearing. My thanks, too, to our 
witnesses for taking the time out of your busy schedules to 
appear before us today. I know that you invested many hours in 
preparation for today's hearing, and I am grateful for all of 
your efforts.
    While aviation is a relatively small contributor of 
greenhouse gas emissions, the marketplace compels the industry 
to continue to invest in technologies that make the system and 
the aircraft that operate within it more efficient and more 
environmentally benign, no matter the vast performance 
improvements that have been achieved over the past couple of 
decades.
    Fuel price spikes that occurred during 2008 were a stark 
signal that if we are to obtain a robust and affordable 
aviation system, we must take aggressive steps to develop 
alternative sources of fuel.
    World demand for petroleum resources and production caps 
imposed by OPEC are again driving fuel prices to higher levels, 
and in doing so, they threaten our economy and our quality of 
life.
    Biofuels present a possible new source of energy that could 
power our aircraft and at the same time greatly diminish the 
amount of carbon emitted into the atmosphere. I am optimistic 
that through cooperative government and industry research and 
development, the marketplace will be able to develop fuels that 
will meet these challenges.
    I commend the work done at NASA, the FAA, and by the 
private companies, some of whom are represented here today. I 
am hopeful that the good work being done is both widely 
communicated and adequately funded. In my mind, this is the 
kind of research our Federal Government should be funding, the 
kind which has practical use for private industry that will 
eventually benefit consumers and in doing so help to end our 
dependence on foreign sources of energy.
    I look forward to hearing your testimony and to our 
discussion, and please don't think I am going to be easy on Mr. 
Shannon just because after only two months as a Member of 
Congress, I have already achieved elite Status on Continental 
Airlines.
    Thank you very much for being here today. Madam Chairwoman, 
I yield back.
    [The prepared statement of Mr. Olson follows:]
            Prepared Statement of Representative Pete Olson
    Madame Chairwoman, thank you for calling this morning's hearing, 
and my thanks too, to our witnesses for taking time out of their busy 
schedules to appear before us today. I know that you have invested many 
hours in preparation for today's hearing, and I am grateful for all of 
your efforts.
    While aviation is a very small contributor of greenhouse gas 
emissions, the marketplace compels industry to continue to invest in 
technologies that make the system--and the aircraft that operate within 
it--more efficient and more environmentally benign, no matter the vast 
performance improvements that have been achieved over the past couple 
of decades.
    Fuel price spikes that occurred during 2008 were a stark signal 
that, if we are to retain a robust and affordable aviation system, we 
must take aggressive steps to develop alternative sources of fuels. 
World demand for petroleum resources, and production caps imposed by 
OPEC, are again driving fuel prices to ever higher levels, and in so 
doing, they threaten our economy and our quality of life.
    Biofuels present a possible new source of energy that could power 
our aircraft, and at the same time, greatly diminish the amount of 
carbon emitted into the atmosphere. I am optimistic that through 
cooperative government and industry research and development, the 
marketplace will be able to develop fuels that will meet these 
challenges.
    I commend the work done at NASA, the FAA, and by the private 
companies, some of whom are represented here today, and am hopeful that 
the good work being done is both widely communicated and adequately 
funded.
    In my mind, this kind of research our Federal Government should be 
funding, the kind which has practical use for private industry that 
will eventually benefit consumers, and in doing so helping to preserve 
our environment and our freeing us on our reliance on foreign sources 
of energy.
    I look forward to hearing your testimony and to our discussion, and 
please do not think that I will be easy on Mr. Shannon just because 
after only two months as a Member of Congress I've already achieved 
Elite Status on Continental Airlines.
    Madame Chairwoman, thank you again.

    Chairwoman Giffords. Thank you, Mr. Olson. If there are 
Members who wish to submit additional opening statements, their 
statements will be added to the record at this point.
    At this time I would like to introduce our witnesses. First 
up we have Dr. Jaiwon Shin who is the Associate Administrator 
for the Aeronautics Research Mission Directorate, NASA. 
Welcome. Dr. Lourdes Maurice who is the Chief Scientific and 
Technical Advisor for Environment in the FAA's Office of 
Environment and Energy and is the Environmental Lead on the 
Commercial Aviation Alternative Fuels Initiatives, or CAAFI. 
Good morning. Dr. Alan Epstein who is Vice President of 
Technology and Environment at Pratt & Whitney. Good morning. We 
have also Mr. Billy Glover who is the Managing Director of 
Environment Strategy at Boeing. And finally, we have Mr. Holden 
Shannon who is the Senior Vice President of Global Real Estate 
and Security at Continental Airlines. Welcome.
    As our witnesses should know, we will each have five 
minutes for your spoken testimony. Your written testimony will 
be included in the record for the hearing, and when you have 
completed your spoken testimony, we will begin with questions. 
Each Member will have five minutes to question the panel, and 
why don't we start with Dr. Shin.

    STATEMENT OF DR. JAIWON SHIN, ASSOCIATE ADMINISTRATOR, 
AERONAUTICS RESEARCH MISSION DIRECTORATE, NATIONAL AERONAUTICS 
                AND SPACE ADMINISTRATION (NASA)

    Dr. Shin. Good morning, and thank you, Chairwoman Giffords, 
Ranking Member Olson, and Members of the Subcommittee. Thank 
you for the opportunity to appear before you today to provide 
NASA's perspective on the emerging use of biofuels for 
aviation, including the agency's current research in this area.
    Growth in the air transportation system is vital to the 
economic well-being of our nation. In order to meet the 
projected growth in aviation, significant challenges must be 
overcome including environmental sustainability. NASA is 
conducting cutting-edge research to dramatically improve 
aircraft efficiency and revolutionize aircraft operations in 
the national airspace system, both of which will reduce the 
environmental impact of aviation. Biofuels offer the potential 
for the significantly reduced carbon footprint over the entire 
life cycle, from fuel production to utilization. Current NASA 
research on increasing aircraft efficiency and operational 
procedures, coupled with the use of biofuels, presents a 
possibility of dramatically reduce the carbon footprint for the 
aviation sector despite the projected growth.
    Recognizing the importance of biofuels for the future of 
aviation, NASA has initiated a modest research effort in 2007 
that builds upon the existing expertise in fuel chemistry and 
processing, combustion, and gas turbine engines to address some 
of the challenges associated with the application of these 
fuels for aviation. However, NASA also recognizes that the 
widespread use of biofuels for aviation will require a 
concerted effort by multiple government agencies, aerospace 
industries, academia, and biofuel producers. The need for a 
coordinated approach to enabling new fuel sources is 
highlighted as one of the goals of the National Plan for 
Aeronautics Research and Development and Related 
Infrastructure.
    While recent successful flight tests has shown the 
feasibility of using blends of jet fuel and different types of 
biofuels under controlled conditions, several technical and 
economic barriers remain for widespread use of biofuels in the 
aviation sector.
    The major question related to the production of biofuels is 
whether they can be made sustainably, economically and at a 
scale sufficient to support the aviation industry. Additional 
basic and applied research will be required to scale up the 
process for producing large quantities of biomass that are 
economically viable and sustainable.
    There are uncertainties related to the application of 
biofuels for aviation because of the extremely limited amount 
of testing conducted to date with these fuels. Most of the NASA 
research is focused on issues related to the application of 
alternative fuels.
    We need to study the combustion process using alternative 
fuels and understand whether the combustor performance is 
different from that achieved when jet fuel is used.
    The impact of the use of alternative fuels on aircraft 
safety is another area that needs further study. Foundational 
research on the effect of alternative fuels on engine 
performance and degradation of engine materials is required to 
identify potential safety issues and develop mitigation 
strategies.
    NASA is conducting long-term foundational research to 
understand the effects of various alternative fuels on aircraft 
engine emissions. Research includes laboratory combustion 
testing under controlled conditions and ground engine testing 
under simulated flight conditions.
    All of NASA's research efforts on alternative fuels to date 
have been focused on the application of synthetic jet fuel 
produced from natural gas and gasification of coal and 
conversion of the gases to liquid fuel by the Fisher-Tropsch, 
or F-T, process. Current research using F-T fuel is providing 
valuable insight into emission characteristics of alternative 
fuels. We are also studying ignition times, flame speeds, and 
chemical kinetics. These are parameters which affect the design 
of new combustors.
    As the second generation of biofuels becomes available, 
there is a need for research to understand these parameters for 
biofuels so that we can effectively design new low-emission 
combustors that are fuel-flexible.
    The effects of biofuels and engine emissions will also be 
determined through a combustion laboratory testing and ground 
engine testing under simulated flight conditions.
    In conclusion, NASA participates in alternative fuel 
related road-mapping and planning activities that are under 
way, most prominently led by CAAFI. We also participate in Air 
Force led efforts to develop rules and tools for use in 
predicting the life cycle greenhouse gas emissions of 
alternative fuels, and we are on the Advisory Board of FAA's 
PARTNER Center of Excellence which conducts alternative fuel 
emissions and life cycle studies. We are willing to participate 
in this alignment of alternative fuels activities along with 
other government agencies, industries, and academia as 
appropriate. These roadmaps are identifying the research, 
development, and demonstration needs, and defining the roles 
and responsibilities for multiple organizations.
    NASA believes its expertise and research capabilities in 
combustion, turbine engine performance, fuel processing, 
materials, and computational modeling can be utilized as part 
of a nationally coordinated research effort to address some of 
the key challenges that must be overcome for widespread use of 
second-generation biofuels in future aviation.
    I would be happy to respond to any questions you or the 
other Members of the Committee may have. Thank you.
    [The prepared statement of Dr. Shin follows:]
                   Prepared Statement of Jaiwon Shin
    Chairwoman Giffords, Ranking Member Olson, and Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to provide a NASA perspective on the emerging use of biofuels for 
aviation, including the Agency's current research in this area.
    Growth in the air transportation system is vital to the economic 
wellbeing of our nation. In order to meet the projected growth in 
aviation, significant challenges must be overcome including 
environmental sustainability. NASA is conducting cutting-edge research 
to dramatically improve aircraft efficiency and revolutionize aircraft 
operations in the national airspace system, both of which will reduce 
the environmental impact of aviation. An emerging technology area that 
has attracted considerable attention recently is the use of renewable 
energy sources such as aviation biofuels. Biofuels offer the potential 
for a significantly reduced carbon footprint over the entire life 
cycle, from fuel production to utilization. Current NASA research on 
increasing aircraft efficiency and operational procedures, coupled with 
the use of biofuels, presents a possibility to dramatically reduce the 
carbon footprint for the aviation sector despite the projected growth.
    The first generation of biofuels, such as those produced from 
soybean and corn, is derived from food products and requires large land 
masses. Second generation biofuels from energy crops such as 
switchgrass and woody feedstocks have higher productivity and smaller 
land use. The second and third generation of biofuels, produced from 
jatropha, camelina, algae, and halophytes, appears to impact much 
smaller land masses and is not derived from food products, which is the 
reason for strong world-wide interest for this class of materials.
    NASA recognizes the importance of biofuels for the future of 
aviation and in 2007 initiated a modest research effort that builds 
upon the existing expertise in fuel chemistry and processing, 
combustion, and gas turbine engines to address some of the challenges 
associated with the application of these fuels for aviation. However, 
NASA also recognizes that the widespread use of biofuels for aviation 
will require a concerted effort by multiple government agencies, 
aerospace industries, academia, and biofuel producers. The need for a 
coordinated approach to enabling new fuel sources is highlighted as one 
of the goals of the National Plan for Aeronautics Research and 
Development and Related Infrastructure. As noted in the plan, the 
Commercial Alternative Aviation Fuels Initiative (CAAFI) is 
coordinating development and commercialization of ``drop-in'' 
alternative aviation fuels and is considering the feasibility, 
production, and environmental footprint--``well to wake''--of these 
fuels.

Challenges

    While recent successful flight tests, including the Air New Zealand 
flight demonstration in December 2008, the Continental airlines flight 
in January 2009, and the JAL flight in January 2009, have shown the 
feasibility of using blends of jet fuel and different types of biofuels 
under controlled conditions, several technical and economic barriers 
remain for widespread use of biofuels in the aviation sector. The 
challenges can be grouped into two categories: biofuel production and 
application of biofuels. Most of the NASA research in this domain 
focuses on issues related to the application of biofuels.
    The major question related to the production of biofuels is whether 
they can be made sustainably, economically and at a scale sufficient to 
support the aviation industry. It is NASA's opinion that additional 
basic and applied research will be required to scale up the process for 
producing large quantities of biomass that are economically viable and 
sustainable. This will require understanding the factors affecting the 
growth of biomass and translating that understanding to increase 
process yield. In addition, production processes that reduce energy use 
during the biomass to biofuel conversion process must be developed 
towards the goal of carbon neutrality, which can be achieved for the 
entire life cycle encompassing production and utilization of biofuels.
    There are uncertainties related to the application of biofuels for 
aviation because of the extremely limited amount of testing conducted 
to date with these fuels. For alternative fuels not produced by the 
Fisher-Tropsch (F-T) process, the knowledge base of the characteristics 
and qualities of these fuels is incomplete, and many of the challenges 
may not be known yet. In order to understand these challenges, 
foundational research is required in many areas. We need to study the 
combustion process using alternative fuels and understand whether the 
combustor performance is different from that achieved when jet fuel is 
used. Of particular concern is the long-term performance of combustors 
and turbine engines burning alternative fuels. Because nitrogen oxide 
(NOX) causes gourd-level smog and contributes to acid rain, the 
compatibility of alternative fuels with advanced, ultra-low NOX 
combustor designs must be addressed as well.
    Research will be needed to understand both gaseous and particulate 
matter emission characteristics from engines so that alternative fuels 
can be optimized for reducing emissions.
    The other unknown is the effect of alternative fuels on the long-
term durability of engine components, including advanced fuels from 
coal and natural gas.
    The impact of the use of alternative fuels on aircraft safety is 
another area that needs further study. Flight tests with a blend of jet 
fuel and biofuels to date have been conducted under controlled 
conditions and have not yet indicated any major safety issues. However, 
one potential safety issue is leaks and degradation of seals in the 
aircraft fuel system because of the lower aromatic content of 
alternative fuels compared to that of jet fuel, which affects the 
expansion coefficient of seals. Any potential, unexpected degradation 
of engine components when alternative fuels are used could pose safety 
issues. Foundational research on the effect of alternative fuels on 
engine performance (including control system) and degradation of engine 
materials is required to identify potential safety issues and develop 
mitigation strategies.

Current NASA Research

    NASA is conducting long-term foundational research to understand 
the effects of various alternative fuels on aircraft engine emissions. 
NASA intends to disseminate the results of its research to the greatest 
extent possible, and enters into collaborative relationships with other 
organizations such that the results will benefit the wider community. 
Research includes laboratory combustion testing under controlled 
conditions and ground engine testing under simulated flight conditions. 
NASA has recently modified several laboratory-scale combustion 
facilities to study combustion performance and emission characteristics 
with different types of alternative fuels and blends of alternative 
fuel with Jet-A. Research conducted in these facilities will provide 
the much needed emission data for alternative fuels as well as improved 
understanding of factors affecting gaseous and particulate emissions 
with the use of alternative fuels. An important feature of NASA's 
research is to understand the effect of alternative fuels on both 
gaseous and particulate emissions for advanced combustor designs that 
are being developed to reduce NOX for future generations of aircraft.
    All of NASA's research efforts on alternative fuels to date have 
been focused on the application of synthetic jet fuel produced from 
natural gas and gasification of coal and conversion of the gases to 
liquid fuel by the F-T process. Current research using F-T fuel is 
providing valuable insight into emission characteristics of alternative 
fuels. We are also studying ignition times, flame speeds, and chemical 
kinetics. These are parameters which affect the design of new 
combustors. As the second generation of biofuels becomes available, 
there is a need for research to understand these parameters for 
biofuels as well so that we can effectively design new low-emission 
combustors that are fuel-flexible. The understanding, coupled with 
improved emission prediction models, will enable the design of 
advanced, ultra-low emission engines with the flexibility to operate 
with a mix of fuels that range from blends of jet fuel with biofuel to 
100 percent biofuel. Several examples of the type of alternative fuels 
testing conducted by NASA are provided below.
    NASA, in partnership with industry, is conducting engine tests with 
alternative fuel to understand the emission characteristics. In 2008, 
NASA partnered with Pratt and Whitney to study emissions from a geared 
turbofan engine that was run with a blend of jet fuel and F-T fuel. The 
tests indicated that there was no significant difference in gaseous 
emissions, while confirming the benefits of F-T fuel in reducing 
particulate emissions. Initial results from these tests were presented 
at the Fundamental Aeronautics Program Second Annual Meeting held in 
Atlanta on October 7-9, 2008, and NASA will hold a workshop later this 
year to widely disseminate the results. In another collaboration with 
Pratt and Whitney, the U.S. Air Force Research Laboratory, Aerodyne, 
United Technologies Research Center, and NASA studied emissions from a 
PW308 turbofan engine run with 100 percent F-T fuel and a blend of jet 
fuel and F-T fuel. This study provided detailed understanding of the 
nature of particulate emissions resulting from the combustion of F-T 
fuel under engine operating conditions.
    Recently, in January 2009, NASA, in partnership with 11 other 
organizations that include the Federal Aviation Administration, U.S. 
Air Force Research Lab (AFRL), Environmental Protection Agency, Boeing, 
GE Aviation, and Pratt & Whitney, conducted ground tests using a NASA-
owned DC-8 plane to study emissions from engines burning alternative 
fuel, which included two 100 percent F-T fuels and blends of jet fuel 
with the two F-T fuels. The test provided data that will improve 
understanding of the evolution of particulate emission and plume 
chemistry for engines burning alternative fuel.
    In addition to extensive experience in testing and analysis, NASA 
has expertise in multi-scale modeling of fluid mechanical processes. 
This is being recognized by the private sector engaged in the 
development of large scale processes for growth of the second 
generation biofuel biomass source material (such as algae and 
halophytes). In order to meet the challenges of large-scale production 
of second generation biofuel biomass economically, the fluid mechanical 
processes which transport nutrients and waste in the bioreactor need to 
be understood and modeled. The models can then be employed to design 
improved bioreactors that can reduce the cost of biomass production. 
NASA is working with industrial partners to develop multi-scale, fluid-
mechanics models that integrate physical and biological processes in a 
bioreactor. NASA has laboratory scale reactors suitable for validating 
multi-scale, fluid-mechanics models to be used for improved bioreactor 
designs.

Need for Collaboration

    NASA believes that long-term, foundational research on 
understanding of fuel processing, combustor and engine performance, 
durability of engine components, and emission characteristics will be 
required for application of second generation biofuels in aviation.
    Realization of the full potential for the application of 
alternative fuels in aviation requires a coordinated effort among 
multiple government agencies, aerospace companies, academia, and fuel 
producers. This is an area of significant national importance and will 
require a strong national effort.
    NASA participates in alternative fuel related road-mapping and 
planning activities that are underway, most prominently led by the 
Commercial Aviation Alternative Fuels Initiative, or CAAFI. We also 
participate in Air Force led efforts to develop rules and tools for use 
in predicting the life cycle greenhouse gas emissions of alternative 
fuels and are on the Advisory Board of FAA's PARTNER Center of 
Excellence which conducts alternative fuel emissions and life cycle 
studies. We are willing to participate in this alignment of alternative 
fuels activities along with other government agencies, industries, and 
academia as appropriate.
    These roadmaps are identifying the research, development, and 
demonstration needs, and defining the roles and responsibilities for 
multiple organizations. Continued participation in these planning 
activities will allow NASA to better coordinate its plans for 
foundational research on aviation biofuels. In addition, NASA will 
continue to work with the Aeronautics Science and Technology 
Subcommittee of the National Science and Technology Council to ensure 
that proper research objectives and goals are coordinated at the 
highest level.

Conclusion

    NASA recognizes the high potential of alternative fuels for the 
aviation industry from the perspectives of protecting the environment 
and ensuring the long-term viability of the fuel supply. The Agency has 
initiated research activities to address some of the major challenges 
of alternative fuels development, fully recognizing that this is an 
emerging technology area that will require collaboration on research 
and development among multiple government agencies, industries, and 
academia to make biofuels a reality. NASA believes its expertise and 
research capabilities in combustion, turbine engine performance, fuel 
processing, materials, and computational modeling can be utilized as 
part of a nationally coordinated research effort to address some of the 
key challenges that must be overcome for widespread use of second 
generation biofuels in future aviation. Such research on biofuels will 
complement a diverse portfolio of technologies that NASA is working on 
to improve the efficiency and reduce the environmental impact of 
aviation in the future.
    I would be happy to respond to any questions you or the other 
Members of the Subcommittee may have.

                       Biography for Jaiwon Shin
    Dr. Jaiwon Shin is the NASA Associate Administrator for the 
Aeronautics Research Mission Directorate. In this position, he manages 
the agency's aeronautics research portfolio and guides its strategic 
direction. This portfolio includes research in the fundamental 
aeronautics of flight, aviation safety and the Nation's airspace 
system.
    Shin co-chairs the National Science & Technology Council's 
Aeronautics Science & Technology Subcommittee. Comprised of federal 
departments and agencies that fund aeronautics-related research, the 
subcommittee wrote the Nation's first presidential policy for 
aeronautics research and development (R&D). The policy was established 
by Executive Order 13419 in December 2006 and will guide U.S. 
aeronautics R&D programs through 2020. The subcommittee finished 
writing the National Aeronautics R&D Plan in December 2007 and is 
currently writing the Research, Development, Test and Evaluation 
(RDT&E) Infrastructure Plan both of which were called for by the 
Executive Order.
    Between May 2004 and January 2008, Shin served as Deputy Associate 
Administrator for the Aeronautics Research Mission Directorate where he 
was instrumental in restructuring NASA's aeronautics program to focus 
on fundamental research and better align with the Nation's Next 
Generation Air Transportation System (NextGen).
    Prior to coming to work at NASA Headquarters, Shin served as Chief 
of the Aeronautics Projects Office at NASA's Glenn Research Center. In 
this position he had management responsibility for all of the Center's 
aeronautics projects. Prior to this he was Glenn's Deputy Director of 
Aeronautics, where he provided executive leadership for the planning 
and implementation of Glenn's aeronautics program, and interfaced with 
NASA Headquarters, other NASA centers, and external customers to 
explore and develop technologies in aeropropulsion, aviation safety and 
security, and airspace systems.
    Between 1998 and 2002, Shin served as Chief of the Aviation Safety 
Program Office, as well as the Deputy Program Manager for NASA's 
Aviation Safety Program and Airspace Systems Program. He assisted both 
Program Directors in planning and research management.
    Dr. Shin received his doctorate in mechanical engineering from the 
Virginia Polytechnic Institute and State University, Blacksburg, 
Virginia. His Bachelor's degree is from Yonsei University in Korea and 
his Master's degree is in mechanical engineering from the California 
State University, Long Beach. His honors include NASA's Outstanding 
Leadership Medal, NASA's Exceptional Service Medal, a NASA Group 
Achievement Award, Lewis Superior Accomplishment Award, three Lewis 
Group Achievement Awards, and an Air Force Team Award. He is a graduate 
of the Senior Executive Fellowship Program at the Kennedy School of 
Government at Harvard University. He has extensive experience in high 
speed research and icing, and has authored or co-authored more than 20 
technical and journal papers.

    Chairwoman Giffords. Thank you, Dr. Shin. Dr. Maurice, 
please.

   STATEMENT OF DR. LOURDES Q. MAURICE, CHIEF SCIENTIFIC AND 
 TECHNICAL ADVISOR, OFFICE OF ENVIRONMENT AND ENERGY, FEDERAL 
                    AVIATION ADMINISTRATION

    Dr. Maurice. Good morning, Madam Chair, Congressman Olson, 
Members of the Subcommittee. I welcome the opportunity to 
testify today about the ongoing work of the FAA and our 
colleagues on renewable jet fuels.
    FAA helped form and is an active participant in Commercial 
Aviation Alternative Fuels Initiative, or CAAFI. I serve as the 
Environmental Lead for the group. Founded in 2006, CAAFI is a 
coalition of airlines, airports, aircraft and engine 
manufacturers, energy producers, researchers, and U.S. 
Government agencies that are leading efforts to develop and 
deploy alternative jet fuels for commercial aviation.
    We know environmental and energy issues will significantly 
influence the ability of our aviation system to grow. Renewable 
jet fuels could be the game changer technology that gets us 
closer to carbon neutrality. These fuels could not only improve 
air quality and reduce life cycle greenhouse gas emissions but 
also enhance energy security and supplies, and renewable jet 
fuels are critical to achieving the environmental goals of the 
next generation air transportation system, or NextGen.
    Today's hearing is well-timed. Aviation has made enormous 
progress in the last three years identifying and testing 
technologies for alternative fuels and in progressing toward 
broad air worthiness certification. We have identified a number 
of options that can replace petroleum jet fuel without the need 
to modify aircraft, often referred to as drop-in fuels.
    CAAFI has taken a comprehensive approach to the 
development, evaluation and deployment of these drop-in 
alternative jet fuels. Efforts are focused in four key areas: 
field certification, research and development, environmental 
impacts and costs and benefits, and the business and economics 
of commercialization. Let me highlight a few key points.
    The CAAFI environmental team has focused on measuring the 
potential to reduce aviation greenhouse gases using renewable 
jet fuels. The FAA and the U.S. Air Force are jointly funding 
the development of a greenhouse gas life cycle analysis 
framework. We refer to the approach as well-to-wake. We are 
also assessing the ability of these fuels to reduce air quality 
impacts. For example, we recently obtained direct measurements 
that showed significant particulate matter reductions. This is 
important because 44 percent of our busiest 50 airports are in 
areas of non-attainment status for particulate matter 
emissions.
    CAAFI uses R&D roadmaps to align and communicate research 
needs for alternative fuels. I should note that CAAFI does not 
sponsor research, per se. Rather, we try to ensure a 
coordinated approach to strengthen each other's efforts and 
avoid duplication. We have submitted copies of the roadmap with 
my written testimony and would welcome your input.
    With regard to how alternative fuels will actually be 
introduced for use, the FAA collaborates with ASTM 
International, the industrial standard-setting organization, to 
perform the technical evaluation of potential alternative jet 
fuels leading to FAA air worthiness certification. The process 
adheres to strict rules and standards to ensure safety. We 
anticipate approval for a generic standard for a range of fuels 
from Fisher-Tropsch processes including biomass-to-liquid fuels 
for use at a 50 percent level this year. Similarly, we forecast 
approval for use by as early as the end of 2010 of 
hydroprocessed renewable jet derived from non-food biomass 
feedstocks. This potential approval relies on recent data but 
may also require additional investment in research.
    A number of significant challenges remain. First and 
foremost is certification. We believe we have a path for 
achieving renewable jet fuel approval. However, approval would 
require significant amounts of alternative fuels and engine 
tests and evaluation. There can be no shortcuts to safety.
    Next is the challenge of accurately quantifying 
environmental impacts. Assessment of both air quality and 
greenhouse gas life cycle emissions must continue to be timely 
and thorough as new options emerge. This will also require 
significant effort and the collaboration of all stakeholders 
involved. Supporting certification and environmental impacts 
assessments are a major focus of FAA's CLEEN program, and we 
appreciate the Subcommittee's support for these efforts.
    The final hurdle is infrastructure and deployment. The 
unique combination of dependence on high-density liquid 
hydrocarbon fuels for the foreseeable future and a very 
condensed infrastructure, about 80 percent of all jet fuel used 
at our 35 busiest airports, makes aviation both difficult and 
attractive for pursuing alternative fuels. We are convinced 
that the public/private partnership that CAAFI represents will 
help commercial aviation be a first mover in the deployment of 
alternative fuels.
    Madam Chair, Members of the Subcommittee, that completes my 
prepared remarks, and I look forward to your questions.
    [The prepared statement of Dr. Maurice follows:]
                Prepared Statement of Lourdes Q. Maurice

Madam Chair, Congressman Olson, and Members of the Subcommittee:

    Thank you for the invitation to testify on ``Aviation and the 
Emerging Use of Biofuels.'' I am the Federal Aviation Administration's 
(FAA) Chief Scientific and Technical Advisor for Environment and 
Energy. In that role I also serve as the environmental team leader for 
the Commercial Aviation Alternative Fuels Initiative (CAAFI). I am 
pleased to be able to speak to the Subcommittee today about biofuel 
(hereinafter referred to as ``renewable jet fuel'') activities of 
CAAFI.
    Today's hearing is well timed. Aviation has made enormous progress 
in the last three years identifying and testing technologies for 
renewable jet fuels, and progressing toward broad airworthiness 
certification for the most mature of these technologies. As you may 
know, the FAA has the responsibility to make sure that any aircraft, 
aircraft engine or part, or fuel that is used in aviation is safe and 
performs to set standards. We have identified a number of alternative 
jet fuels (including renewable jet fuels) that can replace petroleum 
jet fuel without the need to modify aircraft, engines and fueling 
infrastructure (often referred to as ``drop-in'' fuels). Compared to 
the other transportation sectors, aviation is, in fact, well positioned 
to adopt renewable jet fuels. Moreover, this effort is critical to 
achieving the environmental goals of the Next Generation Air 
Transportation System (NextGen).
    In order to spur deployment of fuels with clear environmental 
benefits we are aggressively pursuing robust and reliable environmental 
life cycle analysis to quantify environmental impacts of renewable jet 
fuels, including air quality and greenhouse (GHG) impacts from direct 
and indirect land use change, feedstock production, fuel processing, 
transport and use in aircraft. We are coordinating this aviation effort 
with the Environmental Protection Agency's (EPA) life cycle analysis 
through an interagency working group. Airlines and multiple fuel 
suppliers are developing a range of opportunities to deploy renewable 
jet fuels and are pursuing deployment options via incentives available 
from U.S. Department of Energy (DOE) and U.S. Department of Agriculture 
(USDA) programs on, for the first time, an equal basis with ground 
transportation users. And because safety is crucial to this effort, FAA 
is taking the certification process step-by-step to ensure that any 
fuels developed will meet or exceed the safety performance of today's 
jet fuels. FAA will also ensure, in collaboration with EPA, that any 
new fuels will meet or exceed emissions standards for aircraft engines.
    While the aviation community has made significant strides, we have 
learned as we have worked on this effort, as is the case with most new 
technical initiatives. There are ongoing efforts now that we did not 
imagine at the outset. One example is the rapid pace of development and 
flight testing of hydroprocessed renewable jet fuels. However, it is 
clear there is no one ``silver bullet'' global process or feedstock 
solution. Rather there are multiple solutions, which we can pursue in 
an environmentally and economically viable and safe manner via regional 
development and deployment.
    Founded in 2006, CAAFI\1\ is a coalition of airlines, airports, 
aircraft and engine manufacturers, energy producers, researchers and 
U.S. Government agencies (including FAA, EPA, USAF, NASA, DOE and USDA) 
that are leading efforts to develop and deploy alternative jet fuels 
for commercial aviation. Jointly sponsored by the FAA, the Air 
Transport Association of America, the Aerospace Industries Association 
and Airports Council International-North America, CAAFI has taken a 
comprehensive approach to the development, evaluation and deployment of 
alternative jet fuels. CAAFI focuses its stakeholder efforts in four 
key areas: fuel certification, research and development (R&D) needs, 
environmental impacts and costs and benefits, and the business and 
economics of commercialization. The goal is to promote the development 
of renewable jet fuels for use with today's aircraft fleet that offer 
equivalent or better cost compared to petroleum based jet fuel, with 
equivalent safety. Further, the goals are also to provide environmental 
improvement, energy supply security and economic development. Promising 
renewable jet fuel feedstocks options may include biomass, corn-stover, 
and inedible crops such as jatropha and camellina, and algal oils.
---------------------------------------------------------------------------
    \1\ The CAAFI coalition includes 300 domestic and international 
stakeholder representatives: U.S. Government agencies, aircraft and 
engine manufacturers, over 40 energy producers, many of the world's 
airlines, and numerous Universities.
---------------------------------------------------------------------------
    In your invitation to testify, the Subcommittee asked me to 
specifically address the following five questions regarding emerging 
aviation renewable jet fuels:

1.  What research is CAAFI sponsoring or coordinating to validate the 
projected benefits of using biofuel in civil aviation in terms of their 
ability to reduce engine emissions?

    First I should clarify that CAAFI does not sponsor research per se. 
Rather we are a coalition of stakeholders that individually and 
collectively sponsor and coordinate research to meet CAAFI's goals. 
This ensures we strengthen each other's efforts and avoid duplication. 
One of the goals of CAAFI's environmental team is quantifying the 
potential for renewable jet fuels and renewable jet fuel blends to 
improve air quality and reduce life cycle GHG emissions. An improved 
environmental footprint is a critical objective of alternative jet 
fuels (including renewable jet fuels) for both the FAA and other CAAFI 
sponsors. Largely funded by FAA, the CAAFI environmental team's efforts 
in air quality include both the measurement of engine exhaust emissions 
such as particulate matter and sulfur oxides and calculating the cost 
and benefits of reducing these emissions with alternative fuels. The 
FAA funded efforts totaling $1 million in fiscal\2\ year 2008 through 
the Partnership for AiR Transportation Noise and Emission Reduction 
(PARTNER) Center of Excellence focused on assessing select air quality 
emissions for alternative fuels including renewable jet fuels: 
Emissions Characteristics of Alternative Aviation Fuels and Ultra Low 
Sulfur (ULS) Jet Fuel Environmental Cost Benefit Analysis.\3\
---------------------------------------------------------------------------
    \2\ In fiscal year 2009, we expect to invest approximately $2 
million in alternative jet fuels (including renewable jet fuels).
    \3\ More information about PARTNER is available at http://
web.mit.edu/aeroastro/partner/projects/index.html
---------------------------------------------------------------------------
    The U.S. has National Ambient Air Quality Standards for particulate 
matter emissions and 44 percent of our 50 largest airports in terms of 
enplanements are in areas of non-attainment status for these emissions. 
Common to all alternative fuels under consideration is their potential 
to reduce particulate matter emissions. We have obtained direct 
measurements in in-service aircraft engines that clearly validate these 
benefits.\4\ Additionally, with CAAFI's support, the FAA-sponsored 
Transportation Research Board's Airport Cooperative Research Program 
(ACRP) will complete in May 2009 a handbook enabling possible 
investors, airlines and airports to quantify environmental and/or 
financial gains for alternative jet fuel (including renewable jet fuel) 
use at their specific airports.\5\
---------------------------------------------------------------------------
    \4\ Hileman, J., Ortiz, D., Brown, N., Maurice, L., and Rumizen, 
R., ``The Feasibility and Potential Environmental Benefits of 
Alternative Fuels for Commercial Aviation,'' International Congress of 
Aeronautical Sciences, Anchorage, Alaska, September 2008.
    \5\ See ACRP Project 02-07: Handbook for Analyzing the Costs and 
Benefits of Alternative Turbine Engine Fuels at Airports. See http://
www.trb.org/TRBNet/ProjectDisplay. asp?ProjectID=1585
---------------------------------------------------------------------------
    The consideration of the life cycle emissions from alternative fuel 
production and transportation must be considered when calculating 
environmental impacts and the CAAFI environmental team has also focused 
on measuring the potential to reduce aviation GHG emissions by using 
renewable jet fuels. For example, the FAA and the U.S. Air Force are 
jointly funding the development of a GHG life cycle analysis (LCA) 
framework through the FAA's PARTNER Center of Excellence.\6\ We refer 
to the approach as ``well-to-wake.'' The CAAFI environmental team 
endorsed the intent to develop a consistent framework in October 2008. 
The Intergovernmental Panel on Climate Change (IPCC)-endorsed global 
aviation emissions modeling tools anchor the framework on the aircraft 
exhaust end. To measure GHG emissions from the production end, CAAFI 
researchers are part of a working group (including FAA, U.S. Air Force, 
DOE, EPA, and university experts) that is developing best practice 
tools to capture the many variables associated with GHG life cycle 
calculation. At the present time a half dozen domestic and 
international alternative jet fuel producers are participating with 
CAAFI and can evaluate the outcomes of their specific projects using 
this framework.
---------------------------------------------------------------------------
    \6\ For work to develop alternative jet fuel life cycle analyses, 
see PARTNER Center of Excellence Project 17: Alternative Jet Fuels and 
Project 28: Alternative Jet Fuel Environmental Cost Benefit Analysis at 
http://web.mit.edu/aeroastro/partner/projects/index.html
---------------------------------------------------------------------------
    Once completed, we will rigorously peer review the LCA framework to 
ensure it is based on the best science and accurately captures GHG life 
cycle emissions to inform the aviation industry and potential fuel 
producers.

2.  What is the status of CAAFI's roadmap? How does CAAFI ensure that 
federal and private sector biofuel research is aligned?

    CAAFI uses R&D roadmaps to align and communicate research needs 
that will define both process and feedstock maturity up to 
certification and subsequently through deployment. On January 27 
CAAFI's R&D team, hosted by the U.S. Air Force in Dayton, OH, updated 
the R&D roadmaps. Participants contributing to this process included 
government technology investors such as the National Aeronautics and 
Space Administration (NASA), DOE's National Renewable Energy Labs and 
Energy Efficiency and Renewable Energy office, and USDA, as well as 
private sector investors. The resulting roadmaps define the work done 
to date, and what's planned or needed to support deployment of 
alternative aviation fuels. These updated roadmaps include milestones 
for maturing feedstock and production processes for renewable jet 
fuels. The roadmaps are currently available in draft form; stakeholders 
as well as government, and any other entities concerned about aviation 
alternative fuels, can use the roadmaps in their final form to guide 
investment decisions. CAAFI welcomes the Subcommittee's participation 
in both using and contributing to these roadmaps (see Appendix A).

3.  Can the development readiness of various biofuels be commonly 
characterized and measured?

    As a complement to communicating research needs, we also need a 
common definition of alternative fuels among all fuel investors and 
aviation consumers to determine the maturity of the variety of 
alternative options that are under considerations. Such a system helps 
to differentiate candidates in the research phase (such as those being 
pursued by NASA and the Defense Advanced Research Projects Agency 
(DARPA) ), candidates ready for certification, and candidates in the 
deployment phase and worthy of support by private investors and public 
funding such as that by the USDA Rural Development program. On January 
27, 2009, CAAFI introduced a risk management measuring system for 
alternative fuels named Fuel Readiness Level (FRL). The basis of FRL is 
the Technology Readiness Level (TRL) used by the U.S. Air Force, NASA 
and CAAFI's manufacturing sector to classify systems development 
maturity. FRL combines TRL with critical manufacturing readiness level 
(MRL) steps to characterize the readiness of alternative fuel 
candidates. As is the case with CAAFI's roadmaps, FRL protocols are 
available to the Subcommittee (see Appendix B).

4.  What research is CAAFI sponsoring or coordinating to determine the 
impact that long-term and widespread biofuel use may have on aircraft 
safety, and engine performance/maintainability/reliability? Is more 
research needed? In what areas?

    The FAA (through CAAFI) collaborates with ASTM International, the 
industrial standards-setting organization, to perform the technical 
evaluation of potential alternative jet fuels leading to FAA 
airworthiness certification. The process adheres to strict rules and 
standards to ensure safety. The CAAFI certification team comprises core 
members of that body representing equipment manufacturer, fuel 
producer, and fuel consumer sectors. My colleague Mark Rumizen of the 
FAA's Airworthiness division chairs the CAAFI certification team. The 
certification team's goal is to facilitate fuel certification for 
alternative jet fuels by coordinating the fuel evaluation and 
specification development process with airworthiness authorities and 
industry stakeholders. The team is initially focused on, as noted 
above, ``drop-in'' fuels. These fuels are essentially identical to 
conventional Jet A and transparent to the aircraft system and aviation 
fuel infrastructure. Equivalent operating performance and maintenance 
characteristics are inherent in the definition of ``drop-in'' fuel.
    Simply meeting top-level specification requirements for 
airworthiness (for example freeze point, flash point and energy 
content) is not sufficient for fuel approval. ASTM uses testing 
protocols developed by a special ASTM task force to ensure no changes 
in operating and maintenance characteristics. For example the ``fit for 
purpose'' testing puts bounds on lubricity requirements that will 
influence fuel system wear. Testing identifies a minimum aromatic 
content to ensure elastomer seals perform properly. Limits on 
electrical conductivity of the fuel ensure that there is no 
interference with cockpit instrumentation.\7\
---------------------------------------------------------------------------
    \7\ Much of the fit for purpose testing is being done by the U.S. 
Air Force and then shared with CAAFI.
---------------------------------------------------------------------------
    Presently CAAFI's certification team and ASTM are completing a 
framework specification for synthetic alternatives to complement the 
petroleum-based specification. ASTM members are currently reviewing 
this new specification approach for approval. With the new 
specification, we expect a generic approval of the full range of fuels 
from Fischer-Tropsch (F-T) processes\8\--including biomass to liquid 
fuels--for use at a 50 percent blend level.\9\ Similarly, we forecast 
approval for use by as early as the end of 2010 of hydroprocessed 
renewable jet (HRJ) fuel--from non-food biomass feedstocks such as corn 
stover, jatropha, camelina, halophytes and algae. This probable 
approval relies on recent data but may also require additional 
investment in research. The FAA's Continuous Low Emissions, Noise and 
Energy (CLEEN) program is one source for this investment. Flight tests 
sponsored by industry will also support the certification efforts.
---------------------------------------------------------------------------
    \8\ The Fischer-Tropsch or F-T synthetic fuel production process is 
a catalyzed chemical reaction in which synthesis gas, a mixture of 
carbon monoxide and hydrogen, is converted into liquid hydrocarbons of 
various forms. This output produces synthetic petroleum replacements 
such as diesel and jet fuel from coal, natural gas or biomass.
    \9\ One F-T fuel made by SASOL of South Africa is already approved 
for global aviation use at a 50 percent and 100 percent blend. However 
this approval is for one specific manufacturer, with one specific 
feedstock and one specific facility. CAAFI is targeting a generic 
specification that will enable approval of many different 
manufacturers, feedstocks and facilities that use this process.

5.  In CAAFI's view, what are the main challenges facing widespread use 
of biofuels in civil aviation? What issues need to be resolved before 
---------------------------------------------------------------------------
CAAFI can project when widespread aviation use of biofuels may occur?

    Speaking as a member of CAAFI, we view three areas as hurdles, as 
well as opportunities for future focus:
    First and foremost is certification. We believe we have a path for 
achieving biofuel approvals at a 50 percent blend level over the next 
two years. However, approval of the blend and eventual approval of 100 
percent renewable jet fuels may require full combustor rig and or 
engine tests under approval protocols. We can leverage U.S. Air Force 
investment in biofuel testing to cover the performance of in-use 
commercial engines such as on the C-17 aircraft. However, we will 
likely need additional testing to cover advanced low emissions 
combustors such as those on new commercial engines or advanced cycles 
such as those NASA is exploring. Full combustor rig and engine tests 
require as much as 250,000 gallons of fuel, which may be a significant 
challenge for some candidate alternative fuel producers, as well as 
requiring substantial research investment.
    The next hurdle is accurately quantifying environmental impacts. 
Assessments of both air quality and GHG life cycle emissions impacts 
must continue to be timely and thorough as new fuel options emerge. For 
example, we, in collaboration with EPA, need to populate emissions 
prediction models with measured emissions data for emerging renewable 
jet fuels. Acquiring such data is empirical in nature and requires 
significant testing and investment. Reducing the uncertainties 
associated with land use changes, fertilizer use, and impacts on the 
quality and quantity of water resources, GHG inherent in-life cycle 
analyses from harvest to processing to transport and use of the 
renewable jet fuels, will also require significant effort and 
investment, and the collaboration of all stakeholders involved to 
ensure an agreeable and accurate framework.
    The FAA's CLEEN program, noted above, as well as its NextGen 
investments in environment and energy research, are vehicles available 
to CAAFI sponsors and other stakeholders to address the certification 
and environmental issues. We appreciate the Subcommittee's support for 
these efforts.
    The final hurdles are infrastructure and deployment. Aviation's 
dependence on high-density liquid hydrocarbon fuels for the foreseeable 
future is perhaps unique, unlike surface transportation modes which 
have other options such as electric power and lower-density ethanol 
fuel. Another unique characteristic of U.S. commercial aviation is that 
the fueling infrastructure can serve over 80 percent of all jet fuel 
used in about 35 locations, i.e., at our busiest airports. These 
realities of dependence and concentrated infrastructure should lead to 
aviation becoming a ``first mover'' in the deployment of alternative 
fuels. Aviation's circumstances are critical to its attractiveness to 
biofuel producers despite aviation's small market for transportation 
fuels relative to cars and trucks.
    The recent economic slowdown has somewhat diminished the ability of 
conventional investment sources to quickly respond to the opportunities 
that aviation uniquely provides. However, FAA believes there is a need 
for investments in biofuel production infrastructure specific to 
aviation. With relatively modest investment at locations near airports 
which combine feedstock availability, existing biofuel infrastructure, 
need for air quality gains, and U.S. airlines eager to use renewable 
jet fuels, we believe successful production facilities can be built. 
Focusing sufficient investment on developing a number of success 
models, rather than a target percentage of fuel supply from renewable 
jet fuels, is likely the key to producers deploying these fuels for 
both the aviation industry and perhaps the Nation as a whole.
    The Nation has often counted upon the skills of the aerospace 
industry to lead the way in technical innovation. Renewable jet fuels 
offer the opportunity to team the aerospace science and technology 
efforts with those of agriculture, energy, and sustainability to 
address the three challenges I outlined above.
    Madam Chair and Members of the Subcommittee, thank you again for 
the opportunity to testify on how the aviation community is leading the 
way to develop and realize the potential of emerging aviation renewable 
jet fuels. That completes my prepared remarks and I welcome any 
questions that you may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                  Supplement to CAAFI R&D Team Roadmap

                Feedstock Roadmap Milestone Description

    The following text provides descriptions for each of the milestones 
listed on the Commercial Aviation Alternative Fuel Initiative (CAAFI) 
R&D Feedstock Roadmap.

Swimlane #1: OIL SEED PLANTS.

(Plants whose seeds contain oil that is suitable for biofuel)

Optimized Castor Study (In Work): A modified Castor plant with about 2X 
the oil yield of present Castor plants has been developed in the lab 
and will be tested in large scale plots in Brazil (see below). This 
could provide biofuel for near-term applications.

Camelina Assessment (Unfunded): This feedstock appears promising for 
present biofuel applications using fallow farmland in North America. A 
Life Cycle Assessment needs to be performed.

Jatropha Harvesting Prototype (Unfunded): Jatropha appears promising 
for near-term oil production without competing for farmland or 
irrigated fresh water. However, the plant's oil seed currently needs to 
be harvested by hand, and an automated process needs to be developed to 
reduce production costs and reduce human contact with the poisonous 
plant.

Optimized Castor Plot (Funded): The resulting modified optimized castor 
plant (see above) will be planted in a large scale test plot in Brazil 
to validate productivity.

Oilseed Inventory Study (Unfunded): The USDA is wishing to perform a 
study that accurately describes the various oil seed crops, their 
performance, and the rate at which such plants could be scaled up for 
commercial production.

Large Scale ``Regional Solution'' Farms Developed (Unfunded): It is 
anticipated that there will not be one bio-feedstock for world-wide 
production of biofuel, but there will be multiple solutions, depending 
on the political-techno and geographic location. Large scale farms are 
thought to be developed that are suitable for each region of the world.

Swimlane #2: HALOPHYTES

(Salt water tolerant plants that could also yield oil.)

Euphorbia Analysis (In Work): Research into the plant Euphorbia 
Tirucalli (commonly known as the petroleum plant) for possible 
development as a feedstock for biofuels. The plant is undergoing 
preliminary evaluation for its salt water tolerance and is being grown 
in desert areas.

Salicornia Analysis (In Work): A life cycle analysis of the Salicornia 
plant, which produces both food and fuel. Development work is primarily 
being conducted by Global Seawater Foundation.

Seashore Mallow Analysis (In Work): Seashore mallow could fill a niche 
as a biofuel feedstock as the plant's architecture and oil yield are 
similar to soybeans. Perhaps even more appealing, is that the plant 
thrives in salty soils where nothing else will grow. In fact, the plant 
can be irrigated with saltwater. Limited research is under way to 
evaluate this crop for North American applications.

Halophyte Assessment (In Work): An analysis of various halophytes for 
their potential to produce bio-oils in various parts of the world and 
the scale up potential. Various research organizations are conducting 
work on specific varieties, but a coordinated assessment effort is 
needed to bring all the results together for analysis.

Euphorbia Prototype Plots (Unfunded): Larger scale test plots of 
various plants to verify the yield per acre under various growing 
conditions.

Optimized Halophytes (Unfunded): Plants that have undergone high 
throughput nursery breeding techniques to increase their oil level as 
well as other desirable growing characteristics.

Modified Halophyte Prototype Plots (Unfunded): Larger scale test plots 
of the above plants to verify growth rates and oil yield.

Large Scale Halophyte Farms Developed (Unfunded): Commercialization of 
the above modified Halophyte plants.

GMO Halophyte test plot (Unfunded): Genetically modified versions of 
the above halophyte plants to specifically further improve its oil 
yield.

8 Tons Salicornia Oil (Unfunded): Expected bio-oil output of large 
scale test farms, such as Global Seawater Foundation.

Swimlane #3: ALGAE

(Macro & Micro salt and fresh water organisms having oil content)

Cyanobacteria Study (In Work): A study to evaluate if cyanobacteria, 
which are faster growing and hardier than algae, can be genetically 
modified to produce oil and grown in photobioreactors to economically 
produce biofuel.

Dewater Study (In Work): Several researcher are evaluating how to 
economically separate the small amount of algal biomass (typically < 
0.1 percent) contained in the large amount of water (>99.9 percent) 
used for growing.

Oil Extraction (In Work): Research into how to break down the algae 
cell walls and economically extract oil from various algae strains in a 
production type setting.

Heavy Metal Removal (In Work): Ways to economically remove the heavy 
metals that can be found in algae grown in waster water and/or with 
coal flue gas. These metals would poison the fuel processing catalysts 
used at fuel refineries.

DOE Algae Roadmap (In Work): DOE is developing an algae biofuels 
roadmap. Draft expected to be completed for intra-government review in 
Fall 2009.

Algae Strain Study (In Work): Of the 40,000 different algal strains 
that are believed to exist in the world, research the additional 
strains (beyond the 3,000 varieties) that were studied in the Aquatic 
Species Program.

Algae Demo Plants (In Work): Numerous scaled algae demonstration plants 
are claimed to be in development around the world. Seambiotic, in 
Israel, is one such prototype plant known to be currently producing 
algae using flue gas.

Cost of Algae Study (Unfunded): A detailed economic study to assess the 
economic viability of algae to compete with fossil fuels. It is believe 
that an integrated production approach, that also utilizes valuable 
algae co-products, will be required.

Light & CO<INF>2</INF> level study (Unfunded): Some previous work has 
been performed on limited algal strains to assess their growth 
characteristics under varying light and CO<INF>2</INF> levels, but more 
studies would be required for the optimal algae strains yet to be 
discovered.

GMO Cyanobacteria Study (Unfunded): A more in-depth study (from above) 
to evaluate the probability and cost of developing a genetically 
modified cyanobacteria that has oil producing characteristics.

Results from DARPA project (In Work): The goal of this multi-million 
dollar program (BAA 08-07) is to develop the technical capability and 
commercial experience to produce an affordable JP-8 (i.e., military 
version of commercial Jet-A fuel) surrogate fuel from algae.

USDA algae funding report (Unfunded): A report summarizing the R&D 
taking place for algae.

New Algae Techs Ready (Unfunded): The assumed breakthrough technologies 
are developed to address the: optimal algal strains, dewatering, 
harvesting and oil extraction challenges that remain for this 
technology to become economically competitive with fossil fuels.

Cyanobacteria Scaled Demo (Unfunded): A scaled demonstration version of 
the GMO cyanobacteria that was developed (see above).

GMO Algae (Unfunded): Genetically modified algae organisms are 
developed that have: much higher oil content, resistance to invading 
algae species and grazers, higher productivity, high culture stability 
and auto-bioflocculation tendencies.

Large Scale Algae Plants Developed (Unfunded): After the technical and 
economic breakthroughs are achieved, it is envisioned that vary large 
scale algal farms will be developed to start commercial operation of 
algae oil for biofuel.

Cyanobacteria Plant Developed (Unfunded): If the GMO cyanobacteria can 
be developed, economically produced and is socially acceptable, it is 
envisioned that this hardier and higher productivity organism may 
displace algae as the main oil producing biofeedstock.

Swimlane #4: CELLULOSE FEEDSTOCKS

Billion Ton Study (Completed): Report conducted by DOE's Oak Ridge 
National Lab (ORNL) on ``Biomass as Feedstock for a Bioenergy and 
Bioproducts Industry: The Technical Feasibility of a Billion-Ton Annual 
Supply.'' It showed that 1.3B tons/year of biomass could be harvested 
to meet one-third of U.S. fuel needs by 2030.

BCIWG Report (In Work): The Biomass R&D Board Biomass Conversion 
Interagency Working Group (BCIWG). The Biomass Research and Development 
Board established an interagency working group to guide the exploration 
of cost effective commercially viable processes for converting 
cullulosic and other biomass to biofuels (ethanol, higher alcohols, and 
green gasoline, diesel, and aviation fuels). The group is comprised of 
NSF, DOE, USDA, EPA and DOD and other agencies. The BCIWG is authoring 
a 10-year Federal RD&D biomass conversion plan report.

Cellulose to biojet flight demo (Not Funded): A flight demonstration of 
a biojet fuel made from cellulose via enzymatic deconstruction and 
synthetic biology buildup of pure hydrocarbon molecules (alkanes).

Cellulosic Ethanol becomes cost competitive (Funded): A (hoped for) 
milestone where sufficient R&D has overcome the cost hurdles in making 
commercial ethanol production less expensive when using a cellulosic 
conversion processes versus the conventional corn starch method.

Cellulose to biojet demo plant via pyrolysis (Not Funded): A small 
demonstration plant that more efficiently converts cellulosic material 
into a bio-crude oil that can then be fed into conventional oil 
refineries for processing.

Cellulose/Sugar/Algae Prototype Demo (Not Funded): Sugars that are 
derived from hemicellulose from woody plants can be used as nutrients 
to rapidly grow algae in non-sunlight reactors (i.e., heterotrophic 
conditions). Heterotrophic growth of algae on pentose sugars from 
hemicellulose may be a promising approach for algae production as it 
would not compete with either food sugar or ethanol sugars, which are 
all hexose sugars.

Large scale cellulose farms (Not Funded): Initial commercialization of 
prairie grasslands that are (no till) seeded with switchgrass and 
harvested with no environmental damage.

GMO plants for easy sugar conversion (In Work): Genetically modified 
plants, such as poplar trees, that have enhanced growth characteristics 
such that processing enzymes may more easily break down the lignin for 
conversion into sugars.

Swimlane #5: OTHER FEEDSTOCKS

(All other plants not covered above.)

DOE's CBTL study done (In Work): A Coal & Biomass To Liquid (CBTL) 
study where biomass is used to offset CO<INF>2</INF> emissions that 
would normally be environmentally prohibitive in a conventional Coal To 
Liquid (CTL) fuel production plant.

Revise EISA to include biomass credit (In Work): The present Energy 
Independence Security Act (EISA) presently does give environmental 
credit for using some types of biofeedstocks in certain fuel processing 
methodologies (e.g., bio-oil used in an oil refinery to make a biofuel/
fossil fuel mixture).

Overall Feedstock Assessment (Unfunded): A study to evaluate all other 
known types of bio-feedstocks (e.g., switchgrass to alkane hydrocarbons 
through synthetic biology) that could be used to produce biofuel for 
aviation.

Various Scaled Test Plots (Unfunded): The growing of emerging bio-
feedstocks (see above) that could be used for biojet fuel.

Terra Preta Test Plot for CBTL (Unfunded): A scaled agricultural 
project where the excess solid carbon from the CBTL process is buried 
in farm plots to evaluate the effect on crop production.

DOE's CBTL & Algae Demos Done (Unfunded): A NETL demonstration project 
with APS (Arizona Public Supply) where coal is gasified for power 
generation and algae are grown with flue gas effluent to capture and 
utilize the CO<INF>2</INF>.

Large Scale Cellulose Farms for synthetic biofuel & CBTL (Unfunded): 
After the fuel processing technologies are developed that can 
economically convert cellulose into biofuels, it is envisioned that 
large scale (prairie?) farms will be developed to grow cellulose (e.g., 
switchgrass, etc.).

Swimlane #5: OTHER

(Primarily activities to coordinate with.)

CAAFI biofeedstock roadmap (Done): This roadmap which was developed on 
January 27th in Dayton, Ohio by 80 representatives from the aviation, 
biofuel and feedstock industries.

USDA Feedstock Roadmap (Unknown): It is thought that the USDA should 
develop its own feedstock R&D roadmap, which would include 
recommendations from this feedstock roadmap.

USDA Feedstock Rankings and R&D Plan (Unknown): Once the roadmap is 
developed, funding should be secured for future projects that are 
underfunded or unfunded, based on their ranked importance to provide 
biofuel feedstocks for aviation as well as ground transportation. The 
R&D plan will lay out a formula to achieve U.S. energy independence 
with help from carbon neutral biofuels.

USDA Advanced Biofuel Summary (Unfunded): A final summary report 
published by the USDA reviewing all of the next generation feedstocks 
that could be used for making biofuel and making recommendations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    Biography for Lourdes Q. Maurice
    DR. LOURDES Q. MAURICE is the Chief Scientific and Technical 
Advisor for Environment in the Federal Aviation Administration's Office 
of Environment and Energy. She serves as the agency technical expert 
for basic and exploratory research, and advanced technology development 
focused on aircraft environmental impacts and its application to noise 
and emissions certification and policy, and the application of 
alternative fuels to mitigate environmental impacts and enhance energy 
security. Lourdes manages and provides agency technical leadership for 
the Partnership for AiR Transportation Noise and Emissions Reduction 
(PARTNER) Center of Excellence. She previously served as the Air Force 
Deputy, Basic Research Sciences and Propulsion Science and Technology 
in the office of the Deputy Associate Secretary of the Air Force for 
Science and Technology. She also worked at the Air Force Research 
Laboratory's Propulsion and Power Directorate from 1983 to 1999 
planning and executing basic, exploratory, and advanced development 
propulsion science and technology programs, focusing on state-of-the-
art aviation fuels and propulsion systems. Her areas of expertise 
include pollutant formation chemistry, combustion kinetics, hypersonic 
propulsion, and aviation fuels. She received her B.Sc. in Chemical 
Engineering and M.Sc. in Aerospace Engineering from the University of 
Dayton in Dayton, Ohio and her Ph.D. in Mechanical Engineering from the 
University of London's Imperial College at London, United Kingdom. She 
is also a Distinguished Graduate of National Defense University's 
Industrial College of the Armed Forces, where she earned a M.Sc. in 
National Resource Strategy. Lourdes has served as a Lead Author for the 
Nobel-Prize winning United Nation's Intergovernmental Panel on Climate 
Change and the National Academies of Science National Research Council. 
She is an Associate Editor for American Institute of Aeronautics and 
Astronautics' (AIAA) Journal of Propulsion and Power and serves on the 
Editorial Board of the International Journal of Aeroacoustics. She has 
authored over 100 publications and is a 2003 Fellow of AIAA. Lourdes is 
a native of Havana, Cuba and grew up in Madrid, Spain and Dayton, Ohio. 
She became a U.S. citizen at 16. She is married to Dr. Mark S. Maurice 
and has one son, Anthony.

    Chairwoman Giffords. Thank you. Dr. Epstein.

 STATEMENT OF DR. ALAN H. EPSTEIN, VICE PRESIDENT, TECHNOLOGY 
     AND ENVIRONMENT, PRATT & WHITNEY, UNITED TECHNOLOGIES 
                          CORPORATION

    Dr. Epstein. Madam Chairwoman and Members of the 
Subcommittee, thank you for inviting me. Fifty years ago this 
January a Boeing 707 powered by Pratt & Whitney engines, flew 
the first transcontinental commercial jet flight in the United 
States. Since then, our jet engines have improved dramatically 
to the point where the most modern pure power engines consume 
only about half as much fuel as those on a 707. However, no 
progress has been made on civilian fuels. We use the same fuel 
today as we did in 1959.
    First, let me address why biojet fuel is important to 
aviation. We expect commercial aviation to grow at an annual 
rate of four to five percent averaged over the next 40 years. 
Given a renewal of the public/private partnership in 
aeronautical research, engine and aircraft designers continue 
the two to two and a half percent per year improvement in fuel 
economy we have demonstrated over the last 50 years. However, 
without further action, aviation CO<INF>2</INF> would still 
grow two to three percent per year. The only solution is to 
move to a low-carbon fuel such as a sustainable biojet.
    Simply put, biojet converts aircraft to solar power with 
the fuel simply serving as a chemical battery recharged by the 
sun. The many practical considerations of capital, 
manufacturing, logistics, combined with the imperative for 
near-term action on climate change means that a new fuel should 
be a drop-in fuel. Drop-in means a fuel that can be distributed 
and used without modification to delivery channels, aircraft or 
engines, and my comments are offered in the context of drop-in 
sustainable biofuels.
    At Pratt & Whitney, we have been testing biofuels in the 
lab and engines. While lab testing is very useful, I cannot 
overemphasize the importance of full-scale tests. Pratt & 
Whitney has tested biojet blends in a variety of engine sizes 
ranging from those powering small business jets up to the 
Boeing 747. These tests revealed no negative effects on engine 
operation. Actually, pure biojet was better in that it reduced 
the particulates emissions important to local air quality.
    This January, a Pratt & Whitney powered Japan Airlines 
Boeing 747 flew with a mix of conventional and second-
generation biojet fuel. We saw no impact on performance or 
engine life. The test is noteworthy because of the varied 
feedstock used, camelina, jatropha and algae which shows that 
aviation need not bet on a single approach. We are planning an 
additional test flight next year. Each flight builds 
confidence.
    Pratt & Whitney is also leading an international consortium 
looking at sustainable biofuels as applied to small gas 
turbines that power general aviation business and commuter 
aircraft. One thing we have learned is that an engine can be 
designed to reduce fuel consumption if we can be assured that 
all aircraft fuel was largely biojet. Unfortunately, no such 
gain can be had from current engines. While we do not expect 
these fuels to affect the economic life of the 70,000 Pratt & 
Whitney engines in the field, additional work, such as 
endurance testing, is a wise idea. Funding for such tests have 
yet to be identified.
    The aviation community is sharing knowledge to certify 
biojet. This builds on our experience from the recent Air Force 
program which certified alternative fuels for energy 
independence.
    So where do we go from here? Industry is working together 
to define appropriate standards, and I expect that biojet can 
be produced to meet these standards. So biojet can move into 
service with a few more tests, documentation, and action by the 
approving bodies which can be done in the next two to three 
years at which point all you need is commercial quantities of 
biojet.
    So the challenges remaining are not in the realm of the 
propulsion engineer. They belong to the business community, to 
bio and chemical engineers, to ecologists, and to lawmakers.
    The growth of the biojet market will depend upon cost and 
on capital. The cost of the fuel must reflect the value it 
brings to the purchaser, and capital is needed for biojet 
production facilities. This is where biojet research can help 
by reducing both the carbon and the capital needed to produce 
fuel.
    Pratt & Whitney is bullish on biojet for aviation. Drop-in 
sustainable aviation biojet fuels are an excellent idea for the 
aviation industry, for the Nation and for the planet.
    Thank you for permitting me to address this important 
topic.
    [The prepared statement of Dr. Epstein follows:]
                 Prepared Statement of Alan H. Epstein
    Mr. Chairman and Members of the Subcommittee, I am Alan Epstein, 
Vice President of Technology and Environment at Pratt & Whitney, this 
country's foremost manufacturer of aircraft and rocket engines with 
over 70,000 engines in the field. Pratt & Whitney is part of United 
Technologies Corporation, a global technology corporation with a long 
history of pioneering innovation in aviation, space, climate control, 
elevators, and fuel cells. Because we power many of the world's 
airplanes and rockets, control climate in and move people around 
buildings in every corner of the globe, we are dedicated to reducing 
mankind's impact on climate change.
    I am here to speak on sustainable aviation biojet fuels from the 
point of view of a manufacturer and maintainer of aircraft engines. I 
appreciate the opportunity to participate in this hearing which 
addresses one of the most promising avenues for aviation to reduce its 
impact on climate change.
    This January was the 50th anniversary of the first commercial jet 
flight in the United States, a Boeing 707 powered by Pratt & Whitney 
engines. Since then, our jet engines have improved dramatically. The 
most modern engines, such as the new P&W PurePower Geared Turbo Fan 
engine family consumes only half as much fuel as those on the B707. 
However, no progress has been made on civil aviation fuels over these 
50 years; today we still use the same fuel as we did in 1959.

Introduction to Biojet Fuels for Aviation

    I am here to discuss how concerted action can move civil aviation 
toward new fuels; fuels which are benign to the environment and promote 
energy independence for the Nation. The reason why this is an important 
topic is that civil aviation is both a generator of national wealth and 
a reflection of it. Aerospace is this nation's largest manufacturing 
export and provides over half a million jobs in the U.S. We expect the 
world's commercial aviation to grow at an annual rate of four to five 
percent averaged over the next 40 years, reflecting an increase in 
global wealth. The CO<INF>2</INF> emissions from aviation are simply 
proportional to amount of fuel burned, so unless we take action, they 
will increase as well. We anticipate that a public-private partnership 
in aeronautical research can continue the two to two and a half percent 
per year improvement in fuel economy we have worked so hard to achieve 
over the last 50 years. Replacement of old airplanes with new, much 
more fuel efficient models is the mechanism by which this new 
technology reduces environmental impact. Of course, airlines need cash 
and credit to purchase new aircraft. Therefore, care must be taken that 
proposed economic measures such as carbon trading or taxes do not drain 
funds from aviation that are needed to renew airline fleets with fuel 
efficient, climate friendly new aircraft.
    Even if all new aircraft and engines were introduced into the 
world's fleets, it would still result in a two to three percent average 
annual growth in aviation CO<INF>2</INF>. To stem this CO<INF>2</INF> 
growth over the next 40 years the world must move to a new aviation 
fuel. It is important to note that all of the biofuels under 
consideration result in the same amount of CO<INF>2</INF> exiting a jet 
engine's tailpipe, an amount no different than that of today's 
petroleum based fuel. The difference important to the climate is the 
source of the carbon in the exhaust. In the case of petroleum, natural 
gas, and coal based fuels, this is fossil carbon, which was removed 
from the atmosphere eons before the advent of humankind. The large 
scale release of this fossil carbon is a major factor in the current 
climate change concerns. In the case of biofuels, the carbon has been 
recently extracted by plants and is then returned to the atmosphere by 
the engine. This extraction-addition cycle can be repeated indefinitely 
without disturbing our climate. The energy for the process comes, of 
course, from the sun. Thus in a very real sense, biojet fuels let us 
convert our aircraft to solar power. The biojet fuel simply serves as a 
chemical battery charged by the sun.
    However, there is carbon release overhead in the process. 
Currently, fossil fuels are used in the cultivation, transport, and 
processing of the bio material. This is an area ripe for improvement 
and innovation, so I expect this carbon overhead will decrease 
dramatically as, for example, we learn to increase the efficiency of 
sustainable biojet fuel cultivation and processing. Even at its current 
state, biojet fuels add much less total carbon to the atmosphere than 
do petroleum based jet fuels.
    There are many practical considerations of capital requirements, 
manufacturing capacity, and logistics, which when combined with the 
imperative for relatively near-term action on climate change mean that 
any new fuel should be a drop-in fuel. By drop-in we mean a fuel we can 
distribute and use without modification either to fuel distribution 
channels such as the pipelines and the tank farms or to airplanes and 
engines. For many of the same reasons, the biojet fuels must also be 
mixable with current jet fuels in arbitrary ratios. We now know that 
all these requirements are technically feasible. My following comments 
are offered in the context of drop-in biojet fuels.
    With this as background, I will discuss what we have learned about 
biojet fuels for aviation and where we hope to go. Specifically I will 
touch on lessons learned in our research, ground, and flight testing.

What We Have Learned From Recent Flight Tests

    While laboratory testing is very useful, since safety is our 
primary concern in aviation, I cannot overemphasize the importance of 
full scale ground and flight testing. Pratt & Whitney has tested 
biofuel blends in a variety of engine sizes ranging from those powering 
small business jets up to the Boeing 747. These tests revealed no 
negative effects on engine operations or their performance 
characteristics. Indeed, emissions measurements with pure biojet fuels 
showed that emissions of regulated particulates in the exhaust were 
reduced compared to those from conventional fuels. However, those gains 
were largely eliminated when we diluted biojet fuel with appreciable 
amounts of conventional fuel.
    Preliminary results from the recent January 2009 flight tests on a 
Pratt & Whitney powered Japan Airlines Boeing 747 are that the mix of 
second generation biojet fuel and conventional fuel performed as 
expected, with no impact on performance and nothing of note observed in 
the post flight engine inspection. This result is another encouraging 
step toward approving biojet fuels for aviation applications. This 
flight test is particularly noteworthy because of the heterogeneous 
composition of the biojet fuel feedstock used--including camelina, 
jatropha, and algae. This shows that that biojet fuel can be processed 
properly from a variety of feedstocks; that such fuels can be mixed 
with each other and conventional fuel; and that aviation need not bet 
on a single source of fuel. Together this implies that biojet fuels can 
be a robust technical and commercial solution to aviation's CO<INF>2</INF> 
challenge.
    Pratt & Whitney is working closely with the engine/airframe/
equipment/fuel supplier community to harness the lessons learned in 
recent flight and ground tests of commercial aircraft and engines to 
establish the understanding and data base necessary to support the 
certification of biojet fuels for civil and military operations. We are 
sharing this information as needed under the auspices of DOD and the 
American Society of Testing and Materials (ASTM), which define the 
specifications for aviation fuels in this country. The community is 
benefiting greatly by the experience gained in recent years from the 
USAF sponsored efforts to certify alternative fuels made with the 
decades-old Fischer-Tropsch process. The primary motivation was DOD's 
desire for diversification of the U.S. energy supply to foster energy 
independence. Last year, Pratt and Whitney approved the use of these 
fuels in all non-after-burning P&W military engines (some of which are 
variants of commercial engines) and we expect to approve them for 
after-burning fighter aircraft by the end of this year. The climatic 
impact of these fuels can be significantly reduced if carbon 
sequestration or biomass is used in their production. Fischer-Tropsch 
fuels made with only biomass feedstock is one class of biojet fuel. The 
experience of certifying these fuels, the first all new fuel in 
decades, has taught the aviation community how to streamline the 
approval process such that it is now feasible to certify a biojet fuel 
within the next two to three years.
    The next flight test demonstration with P&W involvement is the Jet 
Blue/Airbus/IAE (International Aero Engines)\1\ flight test scheduled 
for next year using a blend of third generation biojet fuel feedstocks. 
To our knowledge this will be the first flight test using only third 
generation feedstock. In addition to generating data on an advanced 
type of biojet fuel, this demonstration will add value by broadening 
the experience base to include aircraft-engine types which have yet to 
fly with biojet fuels. This helps the industry to evaluate if there are 
less obvious or overlooked elements in the complex fuel systems of 
modern airplanes which might be affected. Also, the total flight time 
on biojet fuels is quite limited at the moment, so that each additional 
test flight helps to build confidence. Since safety is the predominate 
concern for aviation, the value of test data and flight experience 
cannot be underestimated.
---------------------------------------------------------------------------
    \1\ International Aero Engines (IAE) is a collaboration of Pratt & 
Whitney/Rolls-Royce/MTU/Japan Aerospace Corp which supplies the V2500 
series of engines for Airbus A320 family aircraft.

Other activities

    Pratt & Whitney is leading an international consortium which 
includes universities, government researchers, and biojet fuel 
suppliers looking at sustainable biofuels, specifically as applied to 
small gas turbine engines that power general aviation, business, and 
commuter aircraft.
    One result of research at Pratt & Whitney is the realization that 
an advanced engine can be designed for improved performance if we could 
be assured that all aircraft fuel consisted in large measure of biojet 
fuel. By improved performance, we mean better fuel efficiency and lower 
engine weight. For example, the improved heat capacity of the biofuel 
lets us reduce or eliminate radiators and their attendant weight and 
drag penalties. (The irony of increasingly efficient aircraft engines 
is that it becomes more difficult to reject waste heat.) There are two 
major constraints on realizing such improved performance. First, the 
engine must be expressly designed for biojet fuel or a biojet-
conventional fuel mix. There is no performance gain from biofuels 
burned in current engines. Second, biofuel must be a substantial 
fraction of the fuel in the airplane, 25 percent or more. However, it 
may be several decades before biojet fuels are available in the tens of 
billions of gallons per year this implies, so that we are a ways off 
from being able to exploit some superior biofuel properties in our 
engine designs.
    Our confidence as an industry in defining appropriate, formal 
standards for a drop-in biojet fuel is quite high and tests to date 
indicate that biofuels can be produced to meet appropriate standards. 
While we do not expect such fuels to affect engines' economic life, 
additional testing would be wise. Endurance tests are part of the 
normal development process for new engines and materials and would be 
recommended in this process. Also, once biojet fuels are deployed into 
commercial service, it would be prudent to institute in-service 
evaluations which periodically examine engines as they age. This is 
typically done when designs are changed or new materials are 
introduced. Funding for such tests and evaluations has yet to be 
identified.
    It is important to note that the activities outlined above are not 
what we regard as research. The research required to introduce biofuels 
to civil aviation has been done, there are no unanswered scientific 
questions. What is required is a modest amount of straightforward 
engineering development. From the propulsion provider's point of view, 
all that is needed to move biojet fuel into civil service are a few 
more tests, documentation, and action by the approving bodies. Of 
course, you also need commercial quantities of certified, sustainable 
biojet fuel.

What Else Is Needed

    Given concerted action, approval and certification of biojet fuels 
for civil aviation can be completed with the next two to three years. 
Then, biofuels meeting the approved specifications can be legally used 
in civil aviation. At that point, all you need is commercial quantities 
of biofuel. Therefore, the challenges remaining are not in the realm of 
the aeronautical or propulsion engineer. Once the aviation supplier 
community completes its approval of biojet fuel, the remaining 
questions and challenges belong to the business community, to bio and 
chemical engineers, to ecologists, and to lawmakers. The growth of the 
civil aviation biofuel market will depend on such factors as:

        <bullet>  The cost of the biojet fuel must reflect the value it 
        brings to the purchaser, the airlines in the case of commercial 
        aviation. In other words, biojet fuel must be cost competitive 
        with petroleum based fuels, all things considered. Passing on 
        increased airlines costs to consumers has not worked well in 
        the past.

        <bullet>  Capital must be invested in the biojet fuel 
        production chain. At the moment capital is in short supply, but 
        we all hope that this is only a short-term challenge. The near-
        term formal certification of a biojet fuel standard should help 
        to encourage investment.

        <bullet>  Authoritative, peer-reviewed quantitative research is 
        needed to establish the carbon footprint of various biofuels 
        and document their sustainable nature. This will be an ongoing 
        process and should be supported by governments in independent 
        organizations such as universities.

    Innovation has been a mainstay of the long-term increase in U.S. 
productivity. Aviation biojet fuel is an area ripe for innovation, in 
technology and in business. We see significant opportunities for 
technical advancements in such areas as feedstock production to 
increase crop yields and decrease freshwater requirements in order to 
reduce cost and improve sustainability. Also, there is synergy with 
military fuel requirements and markets to foster U.S. energy 
independence.
    All things considered, it is reasonable to anticipate that several 
percent of the world's civil aviation fuel may be supplied by 
biological sources by the end of the next decade.
    Pratt & Whitney is bullish on biojet fuel for aviation. Simply put, 
drop-in, sustainable aviation biojet fuels are an excellent idea. They 
will reduce aviation's CO<INF>2</INF>, while diversifying our fuel 
supply and promoting energy independence. Combined with continuing 
technical innovation in aircraft and engines, we see sustainable biojet 
fuels as enabling the growth in civil aviation that is critical to the 
Nation's and the world's economic growth.
    Thank you for permitting me to address this important topic.

                     Biography for Alan H. Epstein
    Alan Epstein is responsible for Pratt & Whitney's long-term 
technology and environmental strategy. Alan joined the company in 
August 2007, after a distinguished 30-year career with Massachusetts 
Institute of Technology (MIT), where he was R.C. Maclaurin Professor of 
Aeronautics and Astronautics, and Director of the Gas Turbine 
Laboratory.
    Alan is leading Pratt & Whitney's efforts to identify and evaluate 
new methods to improve engine fuel efficiency and reduce noise and 
combustion emissions for all new Pratt & Whitney engines. Alan will 
also provide strategic leadership in the investment, development and 
incorporation of technologies that reduce the environmental impact of 
Pratt & Whitney products and services. In addition, Alan will also be 
responsible for validating Pratt & Whitney's technology and 
environmental strategy with customers, industry representatives and 
government agencies.
    For more than 30 years, Alan has served on numerous government 
advisory committees and was an active consultant and advisor to 
industry and government on topics ranging from gas turbine engineering, 
power and energy, to strategic planning.
    He was an author of the Intergovernmental Panel on Climate Change 
(IPCC) report on aviation and the environment, has been published in 
more than 120 technical publications, and has given more than 90 
plenary, keynote and invited lectures around the world. He is a member 
of the U.S. National Academy of Engineering and a fellow of the 
American Institute of Aeronautics and Astronautics and of the American 
Society of Mechanical Engineers.
    Alan received his Ph.D., M.S. and B.S. degrees from the 
Massachusetts Institute of Technology in Aeronautics and Astronautics.

    Chairwoman Giffords. Thank you. Mr. Glover.

    STATEMENT OF MR. BILLY M. GLOVER, MANAGING DIRECTOR OF 
       ENVIRONMENT STRATEGY, BOEING COMMERCIAL AIRPLANES

    Mr. Glover. Good morning. Madam Chairwoman and Members of 
the Committee, thank you for this opportunity to testify. The 
Boeing Company designs and manufactures a range of commercial, 
military and space products. We are the largest aerospace 
company in the world, employing over 160,000 people, 155,000 
here in the United States.
    Today, Boeing produces a family of commercial aircraft, all 
quieter and more fuel efficient than earlier generations. We 
believe that sustainable biofuels for aviation have the 
potential for reduced life cycle greenhouse gas emissions and 
also the potential to increase fuel supply. Both important.
    We have identified four plant-derived oils that have very 
strong potential: jatropha, camelina, halophytes and those 
things are available in the near-term, and algae in the longer-
term. Aviation-quality biofuels derived from these sustainable 
energy crop sources show significant improvements when compared 
to traditional sources.
    This is not your father's ethanol or biodiesel. It is 
chemically different. Overall, jatropha and camelina studies 
show greenhouse gas reductions 60 percent or more as compared 
to petroleum-derived jet fuel.
    Let me make one thing abundantly clear. Boeing has no 
interest in becoming a biofuel producer. Our goal is to 
facilitate rapid commercialization of this new industry and 
capture this opportunity. We are very confident that 
sustainable sources of plant-derived oils and processing 
methods can efficiently produce a high-quality jet fuel. We 
have demonstrated that synthetic paraffinic kerosene made from 
plant oils can be blended up to 50 percent with normal jet fuel 
and operated in a commercial jetliner without modifications.
    Over the last year, Boeing has conducted four successful 
flight demonstrations with Virgin Atlantic, Air New Zealand, 
Japan Airlines, and Continental Airlines. During each flight, a 
single engine was fueled by a blend of traditional Jet A and 
biofuels. The biofuels were produced by Imperium Renewables and 
Honeywell UOP.
    While we have not completed all of our evaluations from 
these test flights, we found these new biofuels can actually 
perform better. They have a lower freeze point, better energy 
density, and no abnormal wear or engine deterioration.
    Safety has always been and will continue to be the top 
priority of Boeing. The three biofuel blends used for the most 
recent flights and engine tests met all ASTM D 1655 performance 
specifications.
    So what is the path forward? We believe the principal 
challenges are commercialization, growth and supply of viable 
feedstocks, and standard life cycle assessment. Our current 
projections are that with appropriate incentives, market 
viability could be achieved as early as 2015. Without such 
attention, market viability will be delayed.
    As you know, aviation has few options to reduce greenhouse 
gas emissions. Other forms of transportation can use batteries 
and electrical power, for instance. We can't. Aviation must 
rely on three key strategies: continue to produce more 
efficient aircraft; number two, fly aircraft more efficiently 
by realizing the promise of NextGen and improved air traffic 
management systems; and finally, use sustainable biofuels.
    Boeing urges governments to support commercialization and 
development of aviation biofuels by creating incentives for 
energy crop growers and producers of sustainable biofuels, by 
ensuring greenhouse gas legislation encourages the development 
of sustainable biofuels for aviation, by creating predictable 
demand incentives for aviation biofuel and assisting airlines 
to invest in these new supply chains, by implementing a refund 
of the aviation domestic fuel tax when biofuel blends are used, 
and finally by funding rapid development of standard methods 
for measuring life cycle carbon emissions and sustainability. 
It is foundational.
    Boeing is fully committed to working with fuel producers, 
engine manufacturers, airlines, and government to ensure the 
earliest development of commercially viable markets for 
sustainable aviation biofuels. Thank you again for this 
opportunity.
    [The prepared statement of Mr. Glover follows:]
                 Prepared Statement of Billy M. Glover
    Madam Chairwoman and Members of the Committee, thank you for the 
opportunity to offer The Boeing Company's views on sustainable biofuels 
for aviation.
    As many of you know, The Boeing Company (``Boeing'') designs and 
manufactures a range of commercial, military and space products. We are 
the largest aerospace company in the world, employing over 160,000 
people.
    Today The Boeing Company produces a family of 18 different 
commercial aircraft--all quieter and more fuel efficient than earlier 
generations of aircraft. In fact, today's jet aircraft are 70 percent 
more fuel-efficient than jet aircraft produced only 50 years ago.
    Despite the current global economic downturn, the demand for newer, 
more fuel efficient aircraft remains strong. In fact, we have almost 
900 orders for our newest product, the 787 Dreamliner which should 
generate approximately a 20 percent reduction in fuel usage and 
emissions. We recognize, however, the aviation sector, as a key 
contributor to global GDP, must continually strive to improve its 
environmental performance to the extent possible and in line with 
industry growth. To be effective we must continue to make improvements 
on a global basis.\1\
---------------------------------------------------------------------------
    \1\ Boeing is an active participant in the International Civil 
Aviation Organization (ICAO), the UN body that governs all aspects of 
international aviation. Through the ICAO Committee on Aviation 
Environmental Protection (CAEP) the industry has driven down aircraft 
specific emissions--CO<INF>2</INF>, soot, and NOXx--on a global basis.
---------------------------------------------------------------------------
    Over the next 20 years, Boeing forecasts a demand for over 29,000 
new large commercial aircraft worth approximately $3.2 trillion. We are 
concerned that demand for air travel and thus for commercial airplanes 
could be affected by future limits on CO<INF>2</INF> emissions. We 
therefore are committed to looking for environmentally-friendly 
solutions and alternatives to the way air travel is conducted today.
    We believe that sustainable biofuels for aviation have the 
potential to provide greatly reduced life cycle greenhouse gas 
(``GHG'') emissions and greater economic benefits associated with 
increased fuel availability.
    When we use the term ``sustainable biofuel'' we mean a biofuel 
that, at a minimum, meets the following criteria:

        1.  Utilization of plants that do not compete with food, do not 
        significantly impact biodiversity and do not jeopardize 
        supplies of drinking water;

        2.  Total GHG emissions from plant growth, harvesting, 
        processing and end-use are significantly lower than GHG 
        emissions from fossil fuel extraction, production and end-use;

        3.  In developing economies, development projects include 
        provisions or outcomes that improve socioeconomic conditions 
        for small-scale farmers who rely on agriculture to feed their 
        families, and do not require the involuntary displacement of 
        local populations; and

        4.  High conservation value areas and native eco-systems are 
        not cleared for aviation plant source development.

    We have identified four plant-derived oils that have very strong 
potential to meet our sustainability criteria: jatropha, camelina and 
halophytes in the near-term, and algae in the longer-term. Biofuels 
derived from these sustainable energy crop sources show significant 
improvements in terms of yield and environmental impacts when compared 
to traditional food crop sources currently being used to make ethanol 
and biodiesel fuels.\2\ Overall, jatropha and camelina studies show GHG 
reductions of 60 percent or more, as compared to petroleum-derived jet 
fuel.
---------------------------------------------------------------------------
    \2\ Preliminary well-to-wake life cycle assessments were carried 
out by Michigan Technological University for jatropha and camelina oil 
based SPK (see Appendix). A similar algal oil study is currently 
underway.

  The basis for these studies is from recently available data on crop 
yields, oil content, and cultivation requirements1. Both camelina and 
jatropha show great promise for increased energy oil productivity 
without negatively impacting land and water use. The results of these 
studies indicate that more than 60-65 percent reduction in GHG 
emissions can be achieved by hydrotreated jet fuel relative to 
petroleum-derived jet fuel.
    It should be made abundantly clear that Boeing has no interest in 
becoming a biofuel producer. Instead, we are using our expertise and 
reputation as an innovator to draw attention to the opportunities for a 
clean, renewable fuel source in hopes of spurring and accelerating 
commercial development. In addition, we are using our technical 
capabilities to assure any new aviation biofuel meets all safety and 
performance requirements for our airplanes.
    We are very confident that sustainable sources of plant-derived 
oils and processing methods can efficiently produce a high quality jet 
fuel. We have demonstrated that synthetic paraffinic kerosene (``SPK'') 
made from plant oils can be blended up to 50 percent with normal jet 
fuel (Jet A or A-1) and operated in a commercial jetliner without any 
modification to the aircraft or engine.
    When Boeing was asked to testify at this hearing, the Subcommittee 
posed a number of questions they would like us to address. Let me now 
turn to the Committee's questions.

Flight Demonstrations

    Over the last year, Boeing has conducted four successful flight 
demonstrations with blends of biofuels. During each flight, a single 
engine was fueled by a mix of traditional Jet-A and biofuels.

        <bullet>  Virgin Atlantic Airways conducted the first test of a 
        Boeing 747-400 with General Electric engines on February 25, 
        2008. That test flight operated between London Heathrow and 
        Amsterdam with an 80120 mixture of biofuel to kerosene.

        <bullet>  An Air New Zealand 747-400 equipped with Rolls-Royce 
        engines was used to test a 50 percent biofuel blend in an 
        engine ground run, and a test flight from Auckland, NZ on 
        December 30, 2008. The flight lasted approximately two hours 
        and consisted of climb, engine windmill restarts, as well as 
        using starter-assists. Acceleration and deceleration checks 
        were also carried out. A simulated approach-and-go-around was 
        conducted at 10,000 ft.

        <bullet>  A Continental 737-800 with CFM engines was used to 
        test a 50 percent jatropha and algae biofuel blend in an engine 
        ground run, and an experimental flight from Houston, TX on Jan 
        7, 2009. The flight lasted approximately two hours, and 
        consisted of a climb, engine accelerations and decelerations, a 
        windmill engine restart, a starter assisted restart, and a 
        simulated go-around maneuver at 10,000 ft.

        <bullet>  A JAL 747-300 with Pratt & Whitney engines was used 
        to test a 50 percent biofuel blend in a ground run, and 
        subsequent flight in Tokyo, Japan on Jan 30, 2009. The flight 
        lasted approximately two hours, and consisted of a climb, 
        engine accelerations and decelerations, and an engine windmill 
        restart.

    While we have not completed our evaluations from these test 
flights, some of the key lessons learned include the following:

        <bullet>  Lower freeze point--In an initial comparison of 
        biomass-based jet fuel and jet fuel from petroleum, we saw 
        better freeze point performance from the biofuel blend. This is 
        extremely important because aviation fuels must be able to 
        perform in the very low temperatures experienced at high 
        altitudes.

        <bullet>  Better energy density--In several instances we 
        observed better energy density in the fuel properties of the 
        individual biofuels and in the biofuel blends when compared to 
        traditional jet fuel. Higher energy density is an important 
        benefit to aviation due to the unique lift needed to carry fuel 
        for flight.

        <bullet>  No abnormal wear or engine deterioration--Post-flight 
        inspections of the aircraft and engines were conducted prior to 
        the aircraft returning to service or entering into regularly 
        scheduled maintenance. No abnormal wear or engine deterioration 
        was observed.

    We have no announced plans for additional flight demonstrations at 
this time. Our efforts are now focused on commercialization and 
certification of these fuels for aviation use.

Research, Development and Testing of Biofuels

    Safety has always been, and will continue to be, the top priority 
of the Boeing Company. Safety is at the forefront of our efforts to 
develop and certify sustainable biofuels. Our most fundamental 
requirement for sustainable biofuels for aviation is also the most 
important requirement for their safest use--sustainable biofuel must 
meet ``drop-in'' requirements--i.e., they must be able to be used in 
existing fuel delivery and supply systems and in existing aircraft 
without modification or special handling. And they must be fully 
compatible to be mixed with other approved fuels.
    As discussed earlier, Boeing is developing a comprehensive report 
on the data collected from the recent flight and ground tests. We will 
be providing this report to the ASTM membership for further review and 
analysis. We are continuing to work closely with the ASTM\3\ and other 
standards bodies in determining what additional research and/or testing 
may be necessary following completion of analysis and review of the 
results.\4\
---------------------------------------------------------------------------
    \3\ The ASTM requirements in development will ensure that bio-
derived fuels meet strict performance and compositional specifications 
to be compatible with existing petroleum-based fuels.
    \4\ The ASTM process for specification of commercial aviation fuels 
supports the operational approval as administered by the FAA. It is a 
well established process. As a member of ASTM, Boeing is working 
closely with that body to establish a robust standard of certification 
for bio-derived fuels.
---------------------------------------------------------------------------
    The three sustainable biofuels used for the flight and engine tests 
met all ASTM D 1655 performance specifications at a 50 percent blend 
with petroleum-based jet fuel.
    Fuel property tests took place at several locations including 
Boeing, Honeywell UOP, Air Force Research Lab, several independent 
outside laboratories and the participating engine companies. Additional 
property and performance tests, including material compatibility, were 
conducted on these fuels at Boeing labs, the Air Force Research Labs 
and the University of Dayton Research Institute. Engine tests occurred 
at General Electric as well as Pratt & Whitney facilities.
    Engine tests consisted of control, operability (engine start, 
flame-out and transient thrust characteristics) and performance, all of 
which tested within expected variation. No engine degradation was 
evident via control, operability and performance or hardware inspection 
at the conclusion of the test.
    Operability testing included measuring start times, lean-blow out 
margin, acceleration and deceleration times. Emissions testing 
consisted of tests for the currently regulated emissions species; 
nitrogen oxides (NOX), carbon monoxide (CO), hydrocarbons (HC), and 
smoke number.
    Our testing revealed some surprising results, for example:

        <bullet>  The process to make the bio-derived SPK is feedstock 
        agnostic;

        <bullet>  At a 50 percent blend ratio, a bio-derived SPK fuel 
        performed equal to, and in some cases better than, traditional 
        petroleum-based jet fuel in terms of performance and emissions;

        <bullet>  No change in aircraft systems, fueling infrastructure 
        or engines is required for implementing bio-derived SPK fuels 
        at up to a 50 percent ratio; and

        <bullet>  Large-scale production of a bio-derived SPK jet fuel 
        is possible from sustainable sources.

The Path Forward

    We believe the principal challenges facing widespread use of 
biofuels in aviation are in the areas of commercialization, growth and 
supply of viable feedstocks, establishing standard life cycle carbon 
and sustainability assessment methodologies and policies.
    Right now biofuels, whether for aviation or other forms of 
transportation, are not being produced in sufficient quantities. This 
is due largely to the typical early challenges of commercializing an 
emerging technology, when development costs are highest and production 
processes have not yet reached economies of scale.
    In addition, public policy investments and incentives often 
afforded existing technologies make it difficult for emerging 
technologies to be produced at competitive costs and offered at 
competitive prices. This is especially the case for emerging biofuels 
that must compete with decades of public and private infrastructure 
investments and extensive public policy incentives for fossil fuels. As 
a result, the sustained price of a barrel of oil needs to be at least 
$70 for biofuel producers to demonstrate competitive business cases 
that will generate the necessary investments in infrastructure (bio-
refineries, equipment, etc.) and generate fuels that can be sold at 
prices competitive with existing fossil fuels.
    Our current projections are that, with appropriate incentives, 
market viability could be achieved as early as 2015. Without such 
incentives, market viability will likely be delayed much later, 
possibly even a decade.
    Boeing is convinced sustainable biofuels can significantly reduce 
aviation's carbon footprint. We are focusing our efforts on 
accelerating viable commercial markets for advanced biofuels from plant 
sources that do not compete with food crops and require minimal land 
and water use. We are committed to ensuring that our research and 
development investments in environmental improvements deliver 
significant greenhouse gas reductions.
    While other forms of transportation have options to reduce their 
carbon footprint, for example by utilizing batteries and electric 
motors for propulsion systems, aviation must rely on three key 
strategies: continue to produce more fuel efficient aircraft; fly 
aircraft more efficiently by realizing the promise of NextGen and 
improved air traffic management systems; and use low carbon sustainable 
biofuels.
    Government can support the earliest commercialization and 
development of sustainable biofuels for aviation by:

        <bullet>  Creating incentives for sustainable energy crop 
        growers and producers of sustainable biofuels for aviation;

        <bullet>  Ensuring public policy addressing greenhouse gas 
        emissions does not discourage the development and production of 
        sustainable biofuels for aviation;

        <bullet>  Creating predictable demand incentives for aviation 
        use of sustainable biofuel blends, and assisting airlines to 
        invest in new fuel supply chains;

        <bullet>  Implementing a refund of the aviation domestic fuel 
        tax when sustainable biofuel blends are used; and

        <bullet>  Funding rapid development and implementation of 
        reasonable, pragmatic, and standard methodologies for measuring 
        total life cycle carbon emissions and determining the 
        sustainability of all liquid fuels.

    Boeing is fully committed to working with fuel producers, airlines 
and the government to ensure the earliest development of commercially 
viable markets for low carbon sustainable biofuels for current and 
future aircraft generations.
    Thank you again for the opportunity to testify today.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairwoman Giffords. Thank you, Mr. Glover. Mr. Shannon.

  STATEMENT OF MR. HOLDEN E. SHANNON, SENIOR VICE PRESIDENT, 
     GLOBAL REAL ESTATE AND SECURITY, CONTINENTAL AIRLINES

    Mr. Shannon. Good morning. My name is Holden Shannon, and I 
am Senior Vice President of Global Real Estate and Security 
which includes environmental affairs for Continental. 
Continental has a long-standing commitment to providing 
customers clean, safe, and reliable air service while 
maintaining a commitment to the environment. Continental is the 
world's fifth largest airline, serving 131 domestic 
destinations, 134 international destinations on four hubs, 
Houston, Cleveland, Newark, and Guam in the South Pacific, and 
along with Continental Express, we are able to carry our 69 
million passengers far more efficiently now than we were a 
decade ago.
    In fact, since 1997, we have reduced the fuel consumption 
and emissions required to transport a mainline passenger one 
mile by 35 percent, which has been largely due to our friends 
at Boeing, a $12 billion investment in new aircraft, and a 
whole host of electrification efforts on the ground in Houston, 
Newark, among other things.
    Today's airplanes are in fact technologically advanced. 
They are quieter, cleaner, and very importantly burn less fuel. 
That is why our industry represents just two percent of all 
greenhouse gas emissions in the United States despite 
continuous growth.
    To give you some perspective, today Continental uses 
approximately 18 gallons of fuel to carry a passenger 1,000 
miles, about the distance from Houston to Chicago. That same 
passenger would burn 45 gallons driving. It is a pretty 
significant difference.
    Between 1978 and 2007, say 30 years, the airline industry 
as a whole has improved fuel efficiency a whopping 110 percent 
resulting in 2.5 billion metric tonnes of greenhouse gases. To 
put it in layman's terms, that is approximately the equivalent 
of taking 19 million cars off the road each year.
    Airlines in fact have a strong economic incentive to reduce 
fuel consumption and resulting greenhouse gas emissions. Fuel, 
as Congressman Olson pointed out, has been a very unpredictable 
part of our cost. It is the most volatile aspect of our cost 
structure in an industry that really does have historically low 
returns, razor-thin margins. Fuel costs last year, and 
admittedly fuel goes up and down, but as a whole, it represents 
30 percent to 40 percent of our cost, greater than any of our 
employee costs, wages, benefits, pensions, any of our airplane 
costs, and any of our facilities worldwide, so by far, the 
largest cost.
    Unlike other sectors of the economy, airlines have no 
alternative but to consume jet fuel as one of my colleagues 
pointed out, but that could change. Because of our dependence 
on current fuel sources, as well as our commitment to the 
environment and our interest in using alternative energy, we 
decided over a year ago to partner with Boeing and GE Aviation 
among others to conduct a biofuels flight demonstration in 
Houston to help identify sustainable biofuel solutions for our 
industry.
    In our case, we used an algae and jatropha biofuel blend, 
and this in fact was a second-generation biofuel that produces 
more energy than earlier biofuels and does not compete with 
foodstocks. That is a very important point. As a result, we 
believe it will be more stable and commercially viable as a 
fuel source than first generation fuels such as ethanol which 
one of my colleagues referenced as well, the basic problem with 
ethanol being that it just doesn't have enough kick to be 
carried relative to the weight that we would need it to 
generate on an aircraft.
    The biofuel demonstration last January I believe was a huge 
success, and although as Mr. Glover has pointed out, we aren't 
completely finished with the results. We think that the results 
will be very, very positive. Our analysis of the digital flight 
data recorder and other data found on the aircraft showed us 
that it performed the same way that traditional jet fuel did 
except that during the life cycle, of course, when you are 
growing plants, we think we could achieve carbon neutrality.
    The test itself was highly successful, but much remains to 
be done to meet widespread use. With the help of government and 
continued coordination of users, manufacturers, fuel suppliers, 
we believe that as long as an alternative fuel is certified for 
aircraft use, meets the drop-in fuel requirement as Dr. Epstein 
explained, meaning that no engine modifications are necessary 
for it to be added at any ratio with traditional fuel sources, 
and can be made available at an economically competitive price, 
is not a small matter, particularly in the case of algae which 
of course is still at its embryonic stages of development, 
aircraft operators will have the confidence to start using 
biofuel in the next five to ten years.
    Continuing this process is a priority. Even though there 
has been a downturn in fuel prices, fuel efficiency remains a 
very huge concern for us and for our industry as well as for 
our nation. Further reducing carbon emissions and increasing 
fuel efficiency of course is something that all of us embrace.
    While there is still today considerable price difference 
between traditional jet fuel and plant fuels, we have great 
confidence that that spread will lessen as supplies of plant 
fuel become more plentiful. The fact that plant fuel can be 
mixed in with traditional fuel and can be dropped right into 
older engines again means acceptance of the biofuel sources 
will grow in line with supply.
    Biofuels represent an important tool for the airline 
industry to reduce their already-small greenhouse gas footprint 
of two to three percent worldwide. We would be remiss if we did 
not mention that more focus on the potential, the development, 
and the use of alternative fuels, as well as other available 
options which all of us have talked about such as the proposed 
NextGen efforts to modernize air traffic control system, which 
by itself would reduce fuel burned by 12 percent for our 
industry, a huge number, that they are collectively far more 
commercially productive than to consider imposition of some 
kind of cap-and-trade policy on the airlines which would 
further depress an already-beleaguered but necessary industry 
of air transportation as well as the economy.
    As you probably know, government actions which cap a 
company's existing carbon footprint can be unfair and certainly 
don't reward innovative companies like Continental Airlines. At 
a time when our nation and Congress are focused on financial 
stability, we ask you to consider that.
    Again, thank you for the opportunity to testify at this 
hearing. We very much appreciate your interest in this subject 
matter. We look forward to working with you, and we are 
available for questions.
    [The prepared statement of Mr. Shannon follows:]
                Prepared Statement of Holden E. Shannon

INTRODUCTION AND OVERVIEW

    Good Morning. Thank you for inviting me here to testify. My name is 
Holden Shannon and I am the Senior Vice President of Global Real Estate 
and Security for Continental Airlines. I am responsible for all real 
estate, security and environmental affairs throughout Continental's 
worldwide network. For starters today, I would like to point out that 
we have a long-standing commitment to environmental responsibility and 
providing our customers clean, safe, and reliable air service. 
Continental is the world's fifth largest airline operating 2,500 daily 
flights to 134 domestic destinations and 131 international destinations 
through hubs at Newark, Cleveland, Houston, and Guam, and together with 
Continental Express, we are able to carry our annual 69 million 
passengers far more efficiently than we did a decade ago.
    In fact, since 1997, we have reduced the fuel consumption and 
emissions required to transport a mainline passenger one mile by 35 
percent, largely due to our $12 billion investment in new fuel-
efficient Boeing aircraft and related equipment. Today's airplanes are 
not just technologically advanced--they are quieter, cleaner and use 
less fuel than ever before.
    That is why our industry represents just two percent of all 
greenhouse gas emissions in the United States. To give you some 
perspective, today Continental uses about 18 gallons of jet fuel to fly 
one revenue passenger 1,000 miles--about the distance between Houston 
and Chicago. By contrast, that same passenger driving his or her car 
between Houston and Chicago today would burn about 45 gallons of 
gasoline.
    In fact, between 1978 and 2007 the airline industry as a whole 
improved its fuel efficiency, as measured by revenue ton miles per 
gallon of fuel, by 110 percent, resulting in 2.5 billion metric tons of 
greenhouse gas (GHG) savings--roughly equivalent to taking more that 
18.7 million cars off the road in each of those years! And data from 
the Bureau of Transportation Statistics confirms that U.S. airlines 
burned almost three percent less fuel in 2007 than they did in 2000, 
resulting in absolute reductions in emissions, even though they carried 
20 percent more passengers and cargo. Recent data suggests further 
gains in fuel and GHG efficiencies in 2008.
    It is an often overlooked fact that airlines have a strong economic 
incentive to reduce fuel consumption and the resulting GHG emissions 
because fuel accounts for a significant--and volatile part of our 
operating budget. In fact, last year, fuel cost Continental more than 
all of its wages, salaries and benefits worldwide, and more than all of 
its airplanes worldwide, and more than all of its hubs and other 
facilities worldwide. And, unlike other sectors of the economy, 
airlines have no alternative but to consume jet fuel. Fortunately, with 
the industry's support, commercial aircraft and engine manufacturers 
have succeeded in creating significantly more aerodynamic planes and 
significantly more fuel efficient engines than those of prior 
generations, resulting in the tremendous decrease in GHG savings I have 
already described.
    Continental, because it has invested $12 billion in new Boeing 
aircraft and other related equipment, has one of the youngest and most 
environmentally friendly fleets in the world. While this investment has 
already reduced our CO<INF>2</INF> emissions significantly, we are not 
stopping there. We have plans to invest over $11 billion more in new 
Boeing aircraft over the next six years so we will further improve our 
fuel efficiency and reduce emissions. And, as other U.S. airlines also 
invest billions of dollars in new, more energy efficient aircraft, we 
will continue to see additional significant environmental benefits 
industry wide.
    However, any further major advances in aircraft fuel efficiency 
will be dependent on new engine and airframe technologies that are not 
yet available in the market place and are not likely to be a 
significant factor for much of the fleet for the intermediate-term.
    Therefore, any achievable short- to medium-term environmental gains 
depend on two factors. The first factor is that the government must 
make a significant investment in the decades-old and out of date 
government-run Air Traffic Control system which, if modernized, is 
projected to reduce greenhouse emissions from aircraft by 12 percent by 
2025. This action would be roughly equivalent to taking another 2.2 
million cars off the road each year.
    The second factor is that we need to stabilize energy supplies at 
stable prices which include safe and commercially viable alternatives 
to crude-oil based fuels.
    While we are here today to discuss this second goal, I am 
attaching, for the record, the testimony of James May, CEO of the Air 
Transport Association, who just last week testified before the House 
Aviation Subcommittee on the near-term achievable goals for NextGen, 
which is the modernized ATC system. For the record, we would like to 
thank this subcommittee and the Full Science and Technology Committee 
for their steady record of cooperation with the House Transportation 
and Infrastructure Committee in focusing on the development and funding 
of NextGen as discussed in last session's FAA Reauthorization Bill as 
well as H.R. 915, this year's FAA Reauthorization bill. We appreciate 
the fact that you all understand the role that NextGen can play in 
reducing GHG.

THE CO BIOFUELS TEST: RESULTS AND CHALLENGES AHEAD

    As regard to alternative fuels, because of our commitment to the 
environment and our leadership in this arena, we decided over a year 
ago to partner with The Boeing Company and GE Aviation/CFM 
International to conduct a biofuels flight demonstration to help 
identify sustainable biofuel solutions for the aviation industry. 
Together, we wanted to help continue the evolution toward fuel sources 
that absorb carbon before the fuel source is consumed, offsetting 
carbon that is emitted when the fuel is burned.
    As a result, Continental performed the first sustainable biofuel 
flight demonstration in North America on January 7th, 2009, using a 
two-engine Boeing 737-800 aircraft. That demonstration flight 
represented many industry firsts:

        <bullet>  The first commercial carrier biofuel flight in NORTH 
        AMERICA

        <bullet>  The first commercial carrier biofuel flight using 
        biofuel derived from ALGAE

        <bullet>  The first commercial carrier biofuel flight using a 
        TWO-ENGINE AIRCRAFT

    We worked closely with our partners at Boeing, GE Aviation/CFM 
International, Honeywell's UOP, and fuel providers Sapphire Energy and 
Terasol Energy to make the flight demonstration a success. 
Continental's primary role in the demonstration was to show that the 
biofuel blend would perform just like traditional jet fuel in our 
existing aircraft without modification of the engines or the aircraft. 
We call a fuel like this a ``drop-in'' fuel. This is important because, 
as I mentioned, the current engine and airframe technology is unlikely 
to change materially for many years, so it is crucial that alternative 
fuel be safe for use with the current aircraft technology.
    Although the flight demonstration was one small step of many toward 
the development of alternative energy solutions, we were able to help 
gather important data that is needed for the fuel certification process 
before the biofuel can be used by the airline industry.
    The algae and jatropha biofuel blend used in our demonstration 
flight is considered a second-generation fuel and represents a 
significant advancement over first-generation fuels like ethanol. 
Second generation feedstocks like algae and jatropha produce more 
energy per hectare than traditional, first-generation biofuels and, as 
a result will be more stable and commercially viable. Moreover, they do 
not compete with foodstocks, as for example corn-based ethanol does.
    To this end, Continental was pleased that the fuel property and 
performance tests showed that the biofuel blend we tested acted just 
like traditional jet fuel. The multitude of tests performed by Boeing, 
CFM, UOP, the Air Force Research Lab, as well as other third party labs 
on the biofuel prior to our flight, all show that the biofuel we used 
performs just like traditional jet fuel, with no difference in engine 
or system performance. Continental is working with Boeing and all of 
its other flight test partners to compile the results of the testing 
performed on the various biofuels used in other carriers' flight 
demonstrations. The results will be shared with the industry and used 
to help certify alternative fuel for use by the aviation industry.
    After we performed our biofuel demonstration flight, we analyzed 
the digital flight data recorder and other data from the flight to 
measure the engine performance. We found that the engine and aircraft 
successfully performed just as they would have using traditional jet 
fuel, so the test aircraft was returned to revenue service the next 
day. We do not anticipate any long-term negative impact on aircraft 
from biofuel use as long as it meets the American Society for Testing 
and Materials (ASTM) fuel certification standard and ``drop-in'' fuel 
criteria. Preliminary tests do show that the biofuels exhibit less 
smoke, so there may be some benefits that will require closer study, 
but we are not aware of a need to perform any additional 
demonstrations.
    While we were pleased with the test results we have obtained to 
date, we would like to see additional long-term materials compatibility 
testing for system components like o-rings and seals by the 
manufacturers and the wide dissemination of these results. The U.S. 
organization that certifies jet fuel specifications for use in 
commercial aircraft is the American Society for Testing and Materials 
(ASTM) International. They will engage in an extensive data review 
process before approving new fuel specifications and will decide 
whether any additional demonstrations are necessary.
    While the test itself was highly successful, significant challenges 
must still be overcome to meet our goal of widespread use of biofuels 
in aviation.

        <bullet>  A fuel specific standard must be developed which 
        meets key performance and compatibility criteria to ensure 
        safety.

        <bullet>  We will also need to develop a U.S. regulatory 
        requirement mandating the level of quality throughout the 
        supply chain; starting at the refinery all the way through to 
        the airport.

        <bullet>  Federal support will be needed to accelerate the 
        approval and deployment of several alternative aviation fuels 
        that have already been developed and tested.

        <bullet>  Increased funding will be needed for ongoing U.S. 
        military efforts to develop alternative fuels for military jet 
        fleets that will transition to commercial fleets.

        <bullet>  Because of the economic slowdown, investment dollars 
        for already conceived pilot plants and full-scale production 
        plants has dried up. Direct federal support for such 
        infrastructure investments and greater support in the area of 
        research and development, including the feasibility of pipeline 
        use for biofuel transport, may be needed to allow the 
        development plans to proceed.

        <bullet>  In the end, we not only need a stable supply of 
        energy which is independent from foreign oil, but any 
        alternative fuel sources need to be produced in large enough 
        volumes that they are available at an economically viable 
        price. It will take many years to make a robust supply of 
        alternative fuels and a network to deliver it to airports, so 
        continuing our work toward that goal is important now.

    With the help of the government and continued coordination of the 
industry, manufacturers and fuel suppliers, we believe that, as long as 
an alternative fuel is certified for aircraft use, meets the ``drop-
in'' fuel requirement and is available at an economically competitive 
price as compared to traditional jet fuel, aircraft operators will have 
the confidence to start using biofuel blends in revenue flights in the 
next five to ten years. As the supplies increase in a commercially 
viable way, we will be able to increase the blend percentage over the 
years. Continuing this process is a priority, even though there has 
been a downturn in fuel prices. Fuel efficiency remains an important 
concern for us and for our nation, and further reducing carbon 
emissions and increasing fuel efficiency remains our goal.

CONCLUSION

    One final message for today--as an airline which has invested 
billions and taken a leadership role in the efforts to increase fuel 
efficiency, we do want to raise our concerns over certain global 
climate change proposals which could act to disincentivize companies 
like Continental who have been proactive in their efforts to reduce 
their carbon footprint without government mandates.
    Any government action that has the effect of capping a company at 
its existing carbon footprint and then ``rewarding'' any improvement 
from that cap punishes companies like Continental, who have been doing 
the right thing for years by reducing our greenhouse gas emissions.
    Biofuels represents an important option for the airline industry to 
reduce their already small greenhouse gas footprint. And we know that 
this committee is well aware of the potential for the use of 
alternative fuels in the airline industry. We would be remiss if we did 
not mention that more focus on the potential, the development and the 
use of alternative fuels is far more productive than to consider the 
imposition of some kind of cap and trade policy on the airlines.
    If it is our goal to encourage investments in infrastructure and 
innovations which improve the environment, leaders must be careful to 
support and nurture the efforts of companies like Continental who are 
leaders in those efforts.
    We are confident that the measures that Continental, Boeing, and so 
many others are undertaking and supporting will continue to limit and 
even reduce aviation's emissions footprint. Commercial airlines can and 
will remain a very small source of greenhouse gas emissions while 
continuing to provide our communities, our states and our countries 
with a way to move people and goods around the globe. Job growth and 
the global marketplace are critically dependent upon a viable air 
transportation system and it is clear to us that more air 
transportation capacity will be necessary, not less.
    Again, my thanks to the Science and Technology Committee for 
holding today's hearing and inviting our participation. We appreciate 
your leadership in these matters and look forward to working with you 
to integrate sustainable alternative fuels into the aviation industry 
in the future.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    Biography for Holden E. Shannon
    Holden E. Shannon is Senior Vice President of Global Real Estate 
and Security, a position he has held since August 2004. In this role, 
he is responsible for developing the airlines' facilities worldwide, 
including its hubs in Houston, Newark and Cleveland and its 
headquarters in downtown Houston. Shannon also is responsible for the 
airline's corporate security and environmental affairs groups. Prior to 
this position, he was Vice President of Corporate Real Estate and 
Environmental Affairs for Continental from August 1997 to August 2004.
    Shannon joined Continental in January 1995 as Staff Vice President 
of Properties and Facilities, responsible for overseeing system-wide 
airport and property development.
    Prior to joining the company, Shannon held positions of increasing 
responsibility at Northwest Airlines, including Director of Corporate 
Real Estate and Manager of Finance. He also held positions in finance 
with American Airlines and The First Boston Corporation.
    Shannon received his Master of Business Administration from Harvard 
University. He also graduated from Rice University, cum laude with a 
Bachelor's degree in managerial studies. He serves on the Founding 
Board of Directors of The Rice Building Institute and on the board of 
Houston's Lawndale Art Center. Shannon lives in Houston with his wife 
and two children.

                               Discussion

       Quantifying Priority Levels for Biofuels in the Aviation 
                                Industry

    Chairwoman Giffords. Thank you so much. At this point, we 
are going to begin our first round of questions, and the Chair 
will begin with herself.
    Again, I want to thank all of you for being here and for 
the Members in attendance. I think you have made a compelling 
case of the importance of the use of aviation biofuels. Those 
of us who fly every week, we pay attention and those that don't 
fly every week but fly occasionally, we realize that getting 
this right in the future really has a significant impact to all 
of us, not just those of us in Congress or those of us who pay 
attention to these issues.
    But I guess I would really like to drill down a little bit 
harder in terms of how high a priority it is for your specific 
organizations. For example, Mr. Shannon, you said specifically 
that continuing with the investment of biofuels is a priority. 
But exactly when does Continental project that it is going to 
start using biofuels in its revenue operations? And if you 
could go into a little bit more detail in what type of biofuels 
you really imagine using.
    In terms of your competitors, can you talk about the sense 
of how biofuels fit into their plans as well. And so for Mr. 
Glover and Dr. Epstein, how important are biofuels to Boeing 
and Pratt & Whitney's plans, and what investments are your 
companies making to actually be able to deploy the technology 
so that we can, you know, in our generation, in our lifetime, 
really see this as a mainstream form of fuel. And Dr. Maurice, 
I know that the FAA is obviously participating in CAAFI, and I 
liked your graphic and slide. You didn't completely go into it, 
but it was impressive to see the diverse group of organizations 
involved. But in terms of specifically what is FAA doing to 
hasten the adoption of whatever biofuels to really make the 
most sense for the aviation industry? I mean, you talked about 
the importance of fuel certification. What specific plans and 
resource commitments has the FAA made to certify not just the 
drop-in fuels but also the full range of renewable biofuels 
that could meet the aviation sector needs?
    Also, how long are we talking about? And again, how high a 
priority is it on a list of everything that is on the FAA's 
plate?
    Finally, Dr. Shin, your testimony discusses the long-term 
R&D needs to address some of the important unknown-related 
biofuels. But in terms of the relation to NASA's aeronautics 
priorities, can you talk about that in terms of the other 
issues that are facing you and your organization? Why don't we 
start with Mr. Shannon.
    Mr. Shannon. Thank you. Thanks for the promotion, too. I 
think self-interest is the key to your question. In other 
words, if biofuels become an economical force, then I think we 
would embrace them. We feel very good about the preliminary 
data from our biofuel test. As someone pointed out, the more 
biofuel tests there are, the less scary the concept for the 
public. What is beautiful about this technology is that it has 
enough horsepower, unlike ethanol. It absolutely does not 
compete with land that would otherwise be used for crops. You 
can't eat algae. There is no competition in terms of other 
demands on the product, and I think as soon as it becomes less 
than two to three times as expensive as petroleum, I don't 
think there is going to be an issue because we can add it 
incrementally with traditional fuels, and we don't have to 
change our significant 30-, 40-year investment in engines and 
aircrafts. So I think it can be very soon, possibly as early as 
five to ten years.
    Mr. Glover. Thank you. About five years ago, we were 
complete skeptics. We said there is not enough energy content. 
We were familiar with ethanol and biodiesel and so on, and you 
can't produce enough of this and we would have to modify 
engines, the delivery systems. We were starting to see some 
changes and things that caught our attention. And when we were 
looking at the environmental strategy for the whole industry 
and said, well, we can keep producing more efficient aircraft, 
we can help improve the operations, the daily operations, but 
what else can we do? And we really took a critical look at the 
fuels. We helped get started the CAAFI organization to bring 
more attention to this and find out what can work, and we 
became complete converts.
    So we invested our intellectual capital and our convening 
power to work with airlines and engine companies and the FAA 
and others to bring this together, get the facts on the table 
and figure out the viability. We think we are largely through 
the first round of viability, and now we are helping airlines 
and fuel producers and agricultural interests, try to put 
together deals that could end up in a commercially offerable 
product. And we really see the need to accelerate that, and we 
are looking for assistance from the U.S. Government to find 
ways to help get over those initial capitalization humps, loan 
guarantees, and other forms of appropriate encouragement to 
enable commercialization.
    We think there are a few things that are ready now and 
things that need some more R&D that will come later.
    Dr. Epstein. Pratt & Whitney is committed to 
environmentally responsible propulsion which is our business, 
and I am speaking as a propulsion guy. Innovation has been the 
underpinning really of U.S. productivity in the last few 
decades, and this is an area, as Mr. Glover said, where just a 
few years ago, what is fuel? You know, it is what we pour in 
the tanks, what we get out of the tank truck, it has always 
been the same. And then we have learned with the DOD energy 
independence effort to certify new fuels how to do it. We 
worked with the FAA, NASA, and DOD researchers making our 
engines and test facilities available so they could come and 
make measurements. And now innovations as--we have done two 
things. We have reduced the amount of fuel we need to certify 
down to 250,000 gallons. Now that seems like a lot except a 747 
takes about 50,000 gallons to fill up. So it is not all that 
much, especially compared to the past where we need millions of 
gallons.
    The other is, we are getting very enthusiastic because 
these are really engineered fuels, and American ingenuity and 
engineering say they are better fuels. And if you can tell me 
that my engine will have those fuels in the future, I can make 
a better commercial and better military engine, one that will 
be lighter, burn less fuel. So we are very enthusiastic about 
it. Nevertheless, Pratt & Whitney and United Technologies 
doesn't intend to be in the fuel business, but we are 
responsive to our customers, Boeing and the airlines, and we 
are enthusiastic about it.
    Dr. Maurice. Thank you for your question, Madam Chair. 
Renewable fuels are very important to the FAA. Environmental 
stewardship is at the heart of NextGen. We view renewable jet 
fuels as the game changer that can really significantly reduce 
CO<INF>2</INF> emissions.
    As far as what we are doing to hasten the adoption, there 
are really two areas that we have the role on. First and 
foremost is certification and qualification because you could 
have the best equipment, the producers could be producing the 
fuels, but they will produce fuels for those people that can 
use them. So specifically, we have assigned my colleague, Mark 
Robinson, to lead the efforts to work with ASTM International, 
and he also leads CAAFI's efforts in this area. So we have 
assigned the necessary staff to steward the efforts and make 
sure that they are carried out well.
    As far as timing is concerned, as I noted, later on this 
year we hope to be able to have approval for a 50 percent 
generic alternative fuel by the F-T, Fisher-Tropsch process. 
That could be made from any number of feedstocks including 
biomass. So it would be a renewable fuel.
    Looking further into the future at the hydrotreated 
renewable jet which is the process that was used to make the 
fuels tested by my colleagues, we look to next year having the 
results in front of ASTM International to hopefully get that 
approved at the 50 percent plan and in looking to 2013 to 
having the 100 percent hydrotreated renewable jet fuel. So I 
would echo statements of my colleagues, about three to five 
years that we could see some significant use.
    Chairwoman Giffords. Dr. Maurice, is that effort fully 
funded at this point?
    Dr. Maurice. That effort with advent of the CLEEN program 
which funds is appropriated for, I believe it is fully funded. 
And then the second area which we can get the certification 
right but we have got to make sure that we know the life cycle 
of greenhouse gases so that we do the right thing. We are 
investing resources in working with the appropriate 
stakeholders to make sure that we can measure that right.
    Chairwoman Giffords. Okay. Thank you. I know I am running 
out of time, but I would like to hear from Dr. Shin, so please.
    Dr. Shin. I will try to be brief. As Madam Chair noted, the 
value that NASA Aeronautics brings to the Nation by conducting 
cutting-edge, long-term research, we believe that we will 
continue work with industry and academia in the whole community 
to bring these advanced technologies for vehicles and 
operations in certainly the safety area.
    So as biofuels is getting more economically viable and if 
it gets certification and becomes another source of aviation 
fuels, we will have to consider that in our future technology 
development. One of the highest priorities within NASA 
Aeronautics is to protect the environment from aviation and 
also make future vehicles more fuel efficient.
    So if and when biofuels again become commercially viable 
and also proves all the benefits, then we will consider this as 
part of the future technology development, not from the 
standpoint of production of biofuels but application of the 
biofuels.
    Chairwoman Giffords. Thank you, Dr. Shin. The Chair 
recognizes Mr. Olson.

                  Biofuels Carbon Emission Reductions

    Mr. Olson. Thank you, Madam Chairwoman, and my first 
question is for Dr. Shin, Dr. Maurice and Dr. Epstein. You 
touched on this Dr. Epstein in your opening statement, but 
understanding that the research in biofuel emissions is still 
in its early stages, do you have a sense yet of the potential 
reduction in carbon emissions that could be achieved by using 
biofuels, and if so, what are the biggest unknowns out there?
    Dr. Epstein. I think it is important to understand that the 
carbon that comes out of the tailpipe of the jet engine is 
exactly the same no matter what the fuel is, whether it is 
petroleum-based or coal-based or bio-based. The carbon that we 
save is the front end, whether the carbon is geological, mined 
out of the ground, or whether it has been recently extracted by 
plant action. And so in agriculture, we use fuel for planting, 
for harvesting, for processing the fuel. As Mr. Glover said, we 
need careful documentation as to how much carbon fuel is used 
in these processes. But think. These are the same things that 
society is working on to improve as you go from big, diesel 
trucks to more efficient trucks, as you can think of even 
electric powered trucks and tractors. The entire carbon 
footprint goes down.
    So I can see now where for the few fuels that have been 
studied carefully, the numbers are 40 to 60 percent net carbon 
savings. In the longer-term, a decade or two, as society moves 
more toward carbon-free transportation, the jet fuel can come 
down to very close to zero. We are just recycling solar energy 
that we collect on our farms.
    Mr. Olson. Thank you very much. Dr. Maurice.
    Dr. Maurice. Right. That is a very good question. Thank 
you. We have done a lot of work in looking at the life cycle, 
and I would say there is no single number. I think Dr. 
Epstein's 40 to 60 percent is probably right about in the 
middle, but I would hesitate to put a single number because it 
is still a very probability type of answer. And as far as what 
the largest uncertainty is land use. When we tried to allocate 
different numbers to different parts of the process, that is by 
far the biggest unknown. We are working hard to try to address 
that.
    I might also mention, don't forget the air quality 
emissions that we are looking at, and that is pretty 
straightforward because these alternative fuels are naturally 
lower sulfur so that intuitively leads to less particulates, 
and depending on the engine power setting, we have seen 
reductions from 10 to 70 to 80 percent, and that is very 
attractive. Thank you.
    Mr. Olson. Thank you very much for that answer. And Dr. 
Shin.
    Dr. Shin. Yes, as Dr. Maurice just mentioned about the low 
sulfur emission and particulates, we have conducted partnering 
with Air Force and FAA and a few other partners on DC-8 
aircraft that we have at Dryden Research Center. We didn't fly 
the airplane but on the ground we simulated engine power 
setting like the airplane flying, and some of the only findings 
from the test results support what Dr. Epstein and Dr. Maurice 
indicated. The full test results will be analyzed, and we are 
planning to have a workshop in the fall so it will be very 
interesting to find out what kind of benefit we will gain out 
of this.
    But this is a well-controlled test, and it is one data 
point. So I think nonetheless, it is going to provide a lot of 
good information.

                    Cap-and-Trade Is the Wrong Route

    Mr. Olson. Thank you for that answer, Dr. Shin, and Mr. 
Shannon, one question for you. Given that Continental has been 
very proactive regarding fuel efficiency and environmental 
protections, what is your airline's position on how the 
industry and government should move forward regarding the 
environment? I mean, do you see it as a cap-and-trade type 
system as Europe is proposing or something else?
    Mr. Shannon. We really don't see it as a cap-and-trade 
solution, and the reason why is because we feel that there are 
lots of opportunities to reduce greenhouse gases that are 
available to us today that we are not availing ourselves of, 
besides the hopefulness of alternative fuels. When you cap-and-
trade, you are capping something that is commercially 
important. The airline industry generates a huge amount of GNP, 
and of course, it is something that all of us love. If you cap 
flights, you are going to see higher prices, you are going to 
see more limited travel.
    One of the things we would suggest is encouraging airlines 
that have old aircraft to think about replacing those engines, 
replacing those aircraft. There probably isn't a need to have 
40-year airplanes flying around. We have really clean airplanes 
available.
    The second thing is that we could do things like 
modernizing air traffic control. That alone again is 12 percent 
lower fuel burn. It is not a small number.
    And then finally, we do see that there are lots of 
opportunities to promote fuels like what we have seen in the 
last year successfully piloted. So we are here because of our 
hope that this technology will provide a solution that does not 
force you and the economy to choose between aviation, commerce 
and greenhouse gases and the environment.
    Mr. Olson. Thank you very much, Mr. Shannon. I yield back 
my time.
    Chairwoman Giffords. Thank you, Mr. Olson. The Chair 
recognizes Ms. Edwards.

       Incentives to Encourage Alternative Fuels in the Aviation 
                                Industry

    Ms. Edwards. Thank you, Madam Chairwoman, and thank you to 
the panelists this morning. I live in the 4th Congressional 
District in Maryland which is just outside of the District of 
Columbia, and I happen to live along the Potomac River and you 
know, get to experience the planes flying over all the way up 
the river, coming back again, and dumping fuel and particulates 
all along our baseball fields, soccer fields, elementary 
schools. And so this is a really important issue for us in my 
Congressional district and our community and I think largely 
for the environment--you know, Mr. Shannon, I almost left and 
then I heard the end of your testimony and decided to stay 
because you said in your testimony, you talked about cap-and-
trade not being a way to go for the industry. There are 
alternatives, and I want to follow along the lines of Mr. 
Olson's questioning because I wonder, you are suggesting that 
there are sort of voluntary things that the industry could do 
that would move us along the way toward fuel efficiency and 
using alternative fuels, and yet we are not very far from peak 
carbon emissions around the world in what, 2015. And so I am 
wondering, you know, from a policy making perspective, what 
kinds of incentives can we encourage for the industry because 
if it is not something that says, you know, you got to get 
there and make the investment, I think that we are going to get 
to 2015 and we are not going to be frankly that much farther 
along than we are now. And so it is a little frustrating that 
although your airline may be doing the right things, we can't 
just depend on volunteerism alone to get us to lower our carbon 
emissions.
    Mr. Shannon. It seems like a really intelligent question, 
but I don't want to give you a glib answer. Continental really 
has made it sort of part of our value system to have a clean 
airline, but I am telling you, I personally feel that self-
interest is a huge motivator. And we didn't start off in the 
early '90s saying we want to be green. Our awareness was raised 
along with the population's awareness. We were motivated to 
reduce fuel consumption, pure and simple. That turned into a 
green philosophy, and we have embraced it. In lots of ways, it 
may not be economical in the short-term. I think helping us as 
an industry create affordable alternatives to petroleum is 
extremely important to traditional fossil fuels. That 
singularly will help us. We had a wake-up call this last year. 
I mean, we really did. We realized that cheap oil, traditional 
oil, will not last forever. That is a huge motivator. And that 
day, we don't know when that day will change again. Today fuel 
is relatively more affordable. That is a short-term thing, and 
we are very motivated to get out of this pinch.
    So I personally feel encouraging us as an industry to set 
fuel efficiency standards, again, we have done a lot as an 
industry, not just as an airline, but also supporting this 
effort is one of those things.
    Ms. Edwards. Do any of our other panelists have a comment?
    Dr. Epstein. One thing that is important is the airline 
industry is extremely capital-intensive. New airplanes cost 
$100 million or more, and a concern of the industry is that 
regulations, taxes, carbon trading end up removing money from 
the aviation system that the airlines need to upgrade their 
equipment. So how do you reduce the emissions in the short run? 
The answer is, just as Continental has said, you replace your 
existing older aircraft, and aircraft work for 30, 40, 50 
years. With new airplanes, you need new capital to do that. So 
Congress has to consider how do you capture any revenue that 
comes out of regulatory actions in a way that feeds back into 
the aviation system. Funding air traffic control upgrades, tax 
credits, investment tax credits for equipment, funding for NASA 
for advanced research, it really is a system that is starved 
for funding now. Of course, everybody in the United States is 
starved for funding now, but the point is, there shouldn't be 
extraction from the aviation system into other uses if we want 
to make progress in reducing our impact on local communities 
and the planet.
    Ms. Edwards. Thank you, Madam Chairwoman. And I would just 
say, I can appreciate the industry wanting to move forward 
without those kind of regulations. My real question is just how 
do we get there and for those who are not moving in a direction 
of a greener, more efficient airline, what do we do to 
incentivize and encourage that? Thank you, Madam Chairwoman.
    Chairwoman Giffords. Thank you, Ms. Edwards. Good 
discussion. Let me just remind the Committee Members and our 
panelists that this is a discussion today on biofuels and 
aviation. This is not a big discussion on cap-and-trade or 
issues that this subcommittee is not faced with. I mean, we 
have a unique opportunity to hear from five experts on what is 
happening in terms of biofuel development, and I just want to 
make sure we don't stray too far. We are going to have a lot of 
time to discuss other issues, but today if we could just focus 
on the hearing topic, I would appreciate that.
    Mr. Rohrabacher.

            Reducing Aviation Particulates to Curb Pollution

    Mr. Rohrabacher. You notice she said that right before I 
got up. First of all, let me commend the Chair. This has been a 
very valuable hearing, and I think you put together a good 
panel for us, and I have learned a lot. I would, however, on 
another issue which has been the undercurrent of all this 
testimony is that somehow carbon footprints are affecting our 
climate. Just for the record at the hearing, I have quotes from 
major prominent scientists from throughout the world suggesting 
that CO<INF>2</INF> has nothing to do with climate change, 
especially global warming, considering that now it used to be 
global warming and because it is no longer warming, now they 
call it climate change. So anyway, for the record, I would like 
to put that in at this point.[See Appendix 2: Additional 
Material for the Record.]
    Let me say you do not have to be someone concerned about 
what I consider to be a bogus issue which is global warming, 
now climate change, to be very concerned about the health-
related problems that come with the internal combustion engine 
and jet engines and also to be concerned about the fuel that 
would be available to our society to make sure that we can have 
a modern society and meet our needs.
    So with that, I am very concerned about what you have said, 
although I disagree with the carbon footprint talk. Let me ask 
this question. In terms of biofuels, you have made it clear 
about the carbon footprint. What about pollutants such as NOX? 
If we were going to with biofuels for jet airlines, would we 
then have more NOX and pollutants that hurt human health or 
would we have fewer of those pollutants entering the 
atmosphere? And particulates as well, right.
    Dr. Epstein. NASA researchers and DOD researchers spent a 
lot of time at Pratt & Whitney measuring the effects on 
engines. For current engines we expect no impact on NOX at all, 
that is, you get the same NOX out whether it is a biofuel or 
petroleum fuel. If the biofuel is more than 50 percent biofuel, 
then we expect a reduction--we don't expect, we have measured 
reductions, significant reductions, in regulated particulates 
coming out of the engines. So these are both local air quality 
improvements.
    In terms of advanced engines, if we knew we had biofuels, 
we could probably design them to reduce the NOX a little. The 
problem is that it is tough to do that and have the capability 
of pouring in any fuel that is available that is important for 
assuring the fuel supply for the country.
    I would also point out----
    Mr. Rohrabacher. Biofuel specifically. Does biofuel reduce 
NOX?
    Dr. Epstein. Biofuel has no effect. It doesn't make it 
better, it doesn't make it worse.
    Mr. Rohrabacher. Okay. Good. Is that what you found?
    Mr. Shannon. I am going to defer to more knowledgeable 
people on the panel. Our preliminary data suggests it might go 
down a little bit but not significantly.
    Mr. Rohrabacher. Okay. Let me just note. I do come from 
Southern California. We have these airplanes coming in all the 
time. We are very concerned about the pollutants that are 
coming out of the airplanes, and I think that what you have 
suggested today in terms of the efficiency of the engines that 
we have heard about today and the amount of pollutants that 
your airline has been able to take out, you should be commended 
for that. I am sorry that our colleague has left who wanted to 
know maybe how to encourage people to invest in new engines 
that would bring down the pollution level. Maybe we should--and 
here is the question. Are the depreciation schedules for the 
purchase of new engines, what are the depreciation schedules 
that we have? If we changed that, I am not sure what it is. 
That is why I am asking essentially Pratt & Whitney and 
Continental. Are we now encouraged to buy new engines and to 
invest in these things that would be more efficient and cleaner 
or could we change that depreciation schedule to give us more 
of an incentive to do that?
    Mr. Shannon. From a corporate side, I think it has more to 
do with cash investment. Cash is king in this economy, and I 
don't think it would materially change our profile. We are just 
very motivated to get our long-term cost down, not just P&L 
costs but our real cash-out costs.
    Mr. Rohrabacher. How long does it take you to write down 
the new engine or a new plane?
    Mr. Shannon. You know, I would have to get back to you. I 
am thinking that somewhere in the 10-, 15-year timeframe 
because a lot of that will depend upon the obsolescence of the 
technology, whereas an airplane itself might have a longer life 
cycle.
    Mr. Rohrabacher. I am just talking about the tax law now. 
Pratt & Whitney, how long is it going to take? If somebody is 
going to buy a new engine from you, how long--if we actually 
let them write it off the first day, you would have cleaner 
engines and companies may buy new engines.
    Dr. Epstein. A great idea but unfortunately, I am the tech 
guy, and to answer your question, we need the money men.
    Mr. Rohrabacher. All right.
    Dr. Epstein. I am the wrong person.
    Mr. Rohrabacher. Madam Chairman, let me just note that 
depreciation schedules, tax policy, does impact on these 
decisions, and if we can change the tax law through 
depreciation schedules in a way to get people to buy newer jets 
quicker, it is much better, much more effective as we have 
heard from Mr. Shannon than to have some other regulatory 
pressure being put on them. That is the profit incentive you 
were talking about. Thank you very much, Madam Chairman.
    Chairwoman Giffords. Thank you, Mr. Rohrabacher. I would 
like to welcome Mr. Bilbray to our subcommittee. Also, let me 
remind folks, we are going to have votes coming up pretty soon. 
Mr. Bilbray.

                     Reducing Real Carbon Emissions

    Mr. Bilbray. Madam Chair, I appreciate you having this 
hearing as being a sort of a hotbed of biofuel research. San 
Diego County, we are on top of a lot of stuff. I have to 
apologize to you, Madam Chair, though. As we talk about mobile 
sources, this is a very small portion of mobile sources. We 
need to remember where we are in the global atmosphere of 
stuff, that mobile sources, including aircraft, heavy trucks, 
and everything else, constitute 28 percent of total emissions 
in this country, 28 percent, while electric generation 
constitutes 35 percent. And of that electric generation, 22 
percent of electric generation is zero-emission generation, has 
no impact on the climate. So when we talk about these things, 
we got to remember, we are looking at research to reduce 28 
percent of the emissions, and with technology, we may be able 
to do that, when today as we sit here we have the technology to 
reduce 100 percent of that 35 percent of stationary sources for 
the generation of electricity. And I want to say that because 
as we sit in this room, the Federal Government is still buying 
dirty coal to generate electricity for this facility, and I 
hope we can work together to avoid that. So I want to say to 
those of you who are in aviation, we have a lot in Washington 
to do to set an example for you, rather than just mandate, set 
an example.
    Let me just throw one thing out. Somebody brought up 
ethanol. What would happen to you if we mandated 10 percent of 
your fuel has to be ethanol, like we have done to the auto 
industry?
    Mr. Glover. Ethanol would not work on any of the current 
airplanes without very significant modifications. It would not 
fit into the fuel distribution system, and you couldn't fly as 
far on the same amount of fuel.
    Mr. Bilbray. Because it doesn't constitute the BTUs per 
gallon that you have with the other.
    Mr. Glover. It doesn't have the energy----
    Mr. Bilbray. We always say about a gallon-and-a-half of 
ethanol to match a gallon of traditional gasoline, let alone 
the fuel you are having.
    Mr. Glover. It is the energy content as well as the 
compatibility. It is incompatible with some of the materials.

                      Subsizing Algae as a Biofuel

    Mr. Bilbray. And I appreciate that. It is incompatible with 
a lot of automobile operations, too. That is why we can't ship 
it through our pipelines, we can't use it for refinery, that is 
why California has determined that it has no environmental 
benefit, ARB. We are kind of experts in this.
    I bring that out because we got to go back to what we are 
doing with a lot of this. In fact, when we talk about 
emissions, Madam Chair, because ethanol, it takes a gallon and 
a half to match gasoline, the emissions are per gallon, not per 
BTU. And that dirty little secret is that we are mandating a 
use of a product that claims to be environmentally friendly, 
but in fact, because of its lack of power actually is a hidden 
pollutant problem. I know it is not popular here to bring up, 
but I want to bring this up. On the positive side of it, 
though--let me say the negative, too, we give ethanol a tax 
subsidy but we don't give algae fuel a tax subsidy. Does that 
sound logical to you guys? Go ahead.
    Mr. Glover. I think we need to--I appreciate if there were 
supportive policy in place for this different kind of fuel we 
are talking about here. It is not ethanol, it is this 
hydrotreated renewable jet. It is a different set of molecules. 
It has the higher energy content, it has the compatibility. 
Algae is one of the sources we are working on, very promising. 
We have a little more work to do, but there are some other 
things that are ready now, and with some supportive policy in 
place, I think we can make it affordable, make it available to 
Mr. Shannon.
    Mr. Bilbray. All right. Now, let me clarify. I totally 
understand why Members of Congress from corn-growing states 
have pushed this. I totally understand that. What I don't 
understand is why the rest of us who care about the big picture 
and the environment haven't pushed back to balance it out.
    I would have to ask Dr. Maurice is it, in your position 
with the FAA, have you met with representatives of the Defense 
Department regarding an initiative to test and certify 
synthetic fuels including biomass jet fuels?
    Dr. Maurice. Thank you for that question. Absolutely, 
within the Commercial Aviation Alternative Fuels Initiative, 
one of our collaborators is the Department of Defense, and we 
share data and collaborate on tests. I might also add that I 
started my career at the Air Force research lab and the fields 
lab so I also have personal relationships with those folks. So 
we are working very closely together.
    Mr. Bilbray. And does the other services besides the Air 
Force, are they working with things like algae or biomass 
fuels?
    Dr. Maurice. The others, we do work with some of the other 
services, but the Air Force is by far the biggest user. So they 
seem to be putting forth the most effort.
    Mr. Bilbray. I appreciate it. Madam Chair, I appreciate the 
chance. I think when we talk about these technologies, I just 
want to let you know that the bad news on this is the fact that 
industry is looking for places it can build the facility and 
get licensed, and the sad thing about it is where you have got 
San Diego County where we have all this research, this 
breakthrough, sadly they have got to go to New Mexico because 
in California, the government will not permit the construction 
of the facilities to make the fuel within the decade. And we 
really need to put pressure on our colleagues in government to 
help this move along.
    So I yield back and I appreciate the chance.

             Executive Branch Coordination of Biofuels R&D

    Chairwoman Giffords. Thank you, Mr. Bilbray. You are 
welcome to our subcommittee any time. Come back. We still have 
some time, so I would really like to kind of drill down again, 
and I would like to use the analogy of building a house. If you 
are the main contractor, you have got to figure out whether or 
not your electrician is moving in the right direction, you have 
got your plumber, of course, you have got the carpenters, you 
have got a schedule to meet. So in a way, you have got to make 
sure that everything is aligned. So just starting with Dr. 
Maurice, how does CAAFI determine whether alternative R&D 
initiatives by government entities and the private sector are 
properly lining up? And given that CAAFI has no budgetary or 
management authority, how is it that you are going to ensure 
that the various initiatives get aligned if they aren't?
    And for Dr. Maurice and Dr. Shin, who exactly in the 
executive branch do FAA, NASA DOD, DARPA, and DOE report to 
each as an agency to determine what efforts are under way right 
now or are being undertaken in the area of aviation biofuels? 
And is there an individual organization that has the 
responsibility for the Nation's aviation biofuels activities at 
this point? And if so, who? And if not, are there any plans to 
create such a leadership position?
    Dr. Maurice. Thank you, Madam Chair. I will start with the 
question on the building a house analogy which is actually a 
very good analogy for CAAFI because that is the approach that 
we have taken in looking at all of the various elements. As far 
as how CAAFI goes about ensuring that we are all moving in the 
right direction, there are two tools that we use. One is the 
set of roadmaps in each of the areas to make sure that we can 
figure out where we want to be and what all the activities need 
to be to get there. The second tool that we just recently 
developed in January is this fuel readiness level scale which 
was really patterned after the technology readiness level to 
really assess where various alternative fuels including biojet 
renewable fuels are within the scale so that we can figure out 
what it is that we need to do to move them forward.
    You are absolutely right about CAAFI not having the mandate 
and budgetary authority, but I would go back to what Mr. 
Shannon said, the term self-interest, and I think all of us 
within CAAFI are very, very motivated to make this happen. And 
it is within our self-interest to make sure that things move 
forward. For example, in the certification area, we need data, 
and our colleagues, Mr. Glover and Mr. Shannon, as they have 
moved forward planning their flight tests, have collaborated 
with us so we can define what is it that you really need so we 
can collect that data. So I believe we are following your 
analogy of building the house and making sure we have all of 
the subcontractors moving in the right direction.
    As far as your second question of coordination, in his 
testimony, Dr. Shin referred to the National Aeronautics R&D 
plan related to infrastructure. Within that plan, there is an 
energy and environment section which I happen to be one of the 
co-chairs for. And that again is led by OSTP, by the Office of 
Science and Technology Policy, and we have used that mechanism 
to look at the efforts at the broad level. As far as is there 
one particular entity that has charge of everything, I am not 
aware of such a thing.
    Dr. Shin. I think as important topic as this biofuel is for 
the implication or potential for the aviation sector, I would 
like to use another metaphor or analogy that we have been 
working within government for bringing this revolutionary air 
transportation system. Some of the witnesses even noted that 
Next Generation air transportation system effort. I use that as 
somewhat of an analogy for the magnitude and scope of this kind 
of emerging technology in involving not only government and 
private sector and also academia to create innovative research. 
I think we can use the committee that Dr. Maurice just 
mentioned under OSTP as a venue to facilitate that kind of 
government-wide coordination and collaboration. And that 
subcommittee has been in place for a good three years, and it 
has produced a first-ever aeronautics R&D policy and also a 
subsequent plan. In that plan, as Dr. Maurice noted, there is a 
whole section devoted to energy and environment. So I think 
that is a starting point, could be a starting point, to provide 
better government coordination.
    Chairwoman Giffords. Thank you, Dr. Shin. Mr. Olson.

        Possible Unintended Consequences of Biofuels Production

    Mr. Olson. Thank you again, Madam Chairwoman, and I will be 
brief as we hear the bells ringing. Just one more question for 
you, Dr. Maurice. I know you are popular today, but I know the 
FAA and the EPA are working to accurately measure the emissions 
data associated with the biofuels production use. And I am just 
curious if you have seen any downsides, start to see any 
downsides, some unanticipated results of the research that they 
might emit a greater form of one pollutant or an altogether new 
type of pollutant compared to conventional jet fuels?
    Dr. Maurice. Thank you, Mr. Olson, for that question. We 
certainly are looking at all potential contingencies. As far as 
the tailpipe emissions, we really do not see anything because 
the fuels are drop-in, other than that change in particulate 
matter. As far as life cycle emissions, pretty quickly we 
determined that any competition with food sources or anything 
that might lead to perhaps using rainforest land and such is 
not a path that we would pursue, and very quickly CAAFI 
together and all of us individually came up with this concept 
that we would go after inedible materials and materials that 
would not compete with food sources or encourage that sort of 
land use.
    So that has been the preliminary work, and we are 
continuing to look at all possibilities. Thank you so much.
    Mr. Olson. Thank you very much for that answer. Anybody 
else like to comment on the question? Mr. Glover.
    Mr. Glover. I would actually like to comment on something 
that hasn't come up, if you will indulge me.
    Mr. Olson. Fire away.
    Mr. Glover. This is a new industry. This is jobs. This is 
not only technology and environment but it is also jobs. It is 
an opportunity that I hope you recognize and can help us go 
down the path. We are trying to do our best, and we would sure 
like to work with everyone to get it done.
    Mr. Olson. Thank you very much for that answer. I yield 
back my time, Madam Chairwoman.

         Where Is the U.S. in Comparison to Europe on Biofuels?

    Chairwoman Giffords. Thank you, Mr. Olson. Following up on 
what Mr. Glover said, I agree it is jobs but it is also an 
ability for us to inspire that next generation. We spend a lot 
of time talking about space in this subcommittee and in this 
room, and kids are much more in tune with what is happening 
with the environment, what is happening with the planet. They 
want to do things in a new and innovative way. And so I think 
in terms of some of the work that we do to try to get more kids 
active in STEM education areas, this is a really key way.
    I just would like to close with one question which is a 
broad, international question. I know that the European 
community recently awarded a contract to ONERA which is a 
French aerospace research office to look at all aspects of 
alternative fuels for aviation. I also know that there is a 
plan by 2012 to be perhaps taxing our airlines as they fly into 
Europe, and I know that what we would do in the United States 
is one thing. Obviously, those that would have international 
businesses have another area that they have to focus on. So I 
am just curious if our witnesses would like to talk about the 
scope and comprehensiveness of the European community's 
research plan and particularly in relation to ours.
    Dr. Epstein. For the first 80 years or so of aviation, 
there was a partnership between government and industry, 
investing in research where the government and industry shared 
research investments and then industry took to investing in 
exciting new aerospace products.
    To a large degree, that has eroded in this country over the 
last decade or 15 years, and our products are so long that 
although we have a brand-new engine that we are just 
introducing, it is really the fruits of a NASA investment in 
the early '80s and early '90s. What I see now is that the 
preponderance of aerospace investment is moving from the United 
States to Europe. And so now aerospace is the largest 
manufactured export of the United States. It may not be in the 
future. We need the investment, we need the excitement to bring 
young people. I see as you pointed out inspiring young people--
I find it is very inspiring for our older people. It has been 
astonishing how people come up to me and say, you know, I am 
really glad to see the company is doing things to make the 
planet better and to help do the green. I think the Nation has 
to consider its balance of investments in terms of research and 
technology, and aerospace frankly has been languishing and we 
may have a problem going forward in the future.
    The one other thing I would add is for emissions and 
climate, the world and the industry has been very well-served 
by ICAO, the International Civil Aviation Organization, which 
sets standards for noise and for emissions. The FAA is the 
representative of the United States. For manufacturers, it 
tells us what is coming, it lets us plan our products, lets us 
invest in research so we can meet upcoming requirements. I 
think it is very important that we not let other countries 
impose standards but work together with these international 
bodies in a consortium to understand where we are going and 
continue to allow us to do this long-term planning. Thank you.
    Dr. Maurice. Thank you. If I could just specifically talk 
about where we are at with respect to Europe on the subject 
today, biofuels, I think that is an area that we had, and that 
particular consortium that you noted actually came to us to 
learn from how we had formed CAAFI. So I think that that is an 
area in which we do have leadership, and I fully agree with you 
on the inspiration as 25 years ago I came to work in this 
industry to work on alternative fuels for aviation and 
hopefully will get it right this time. Thank you so much.
    Chairwoman Giffords. Thank you. Before bringing this 
hearing to a close, I want to thank our witnesses for being 
here today. I want to thank our Members and for Mr. Olson. I 
think it was a good discussion. The record will remain open for 
two weeks for additional statements from the Members and for 
answers to any of the follow-up questions that Subcommittee 
Members may ask of the witnesses. The witnesses are excused, 
and this hearing is now adjourned. Thank you so much.
    [Whereupon, at 11:28 a.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Jaiwon Shin, Associate Administrator, Aeronautics Research 
        Mission Directorate, National Aeronautics and Space 
        Administration (NASA)

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  I understand that NASA primarily focuses on mid- to long-tern 
research in aeronautics. If biofuels can be ready for use in a few 
years, is there any role for NASA in this area? If so, what is it? How 
would you go about developing an appropriate R&D plan to address the 
issues you have highlighted in your testimony?

     If a usable quantity of biofuels becomes available for aviation 
use in a few years, for a near-term, NASA could participate in 
community's effort in assessing the safety and performance of their use 
in aircraft.

A1. The process used to develop an appropriate research and development 
(R&D) plan would be similar to the process currently in place to 
develop existing R&D plans. In brief, NASA begins by working with 
parties concerned with the technology being considered and our partners 
from other government agencies, industry and academia to define 
objectives, understand the key issues and challenges, develop estimates 
of the time and resources needed to address those challenges, identify 
the appropriate roles for NASA and its partners that make the best use 
of the capabilities possessed by each organization, and determine the 
expected outcome based on the resources and talents that will be 
employed. NASA has participated in Commercial Aviation Alternative 
Fuels Initiative (CAAFI) roadmapping exercises for fuel property 
testing and component and engine testing to begin this process for 
biofuels, and we will continue that involvement.

Q2.  In assessing federal efforts with regards to achieving the goal of 
enabling new aviation fuels to ensure a secure and stable supply, the 
Technical Appendix to the National Plan for Aeronautics R&D says:

         ``DOD efforts to develop new alternative aviation fuels are 
        making progress, but civil efforts, though making some 
        progress, are not adequate to meet both the near- and the 
        combined mid- and far-term objectives in a timely manner 
        without either reconsidering the objectives or the current 
        allocation of resources.''

     What more should the Federal Government be doing in this area?

A2. The chief impediments to large-scale production are economic and 
environmental, and these barriers are being addressed by the 
Departments of Defense (DOD) (Federal Aviation Administration (FAA) and 
Energy (DOE) as well as private energy sector R&D. NASA has supported 
this activity with laboratory studies of Fisher-Tropsch (F-T) chemistry 
to improve jet fuel yield.

Q3.  Has NASA's research on engine exhaust emissions using alternative 
fuels given you sufficient confidence that these fuels will enable 
significant reductions of harmful emissions such as sulfur and 
particulates? What additional research, if any, do you think is needed?

A3. NASA evaluations of alternative fuel emissions so far have been 
limited to F-T fuels produced from natural gas or coal. NASA has found 
that pure F-T fuels and F-T fuel blends (F-T blended with conventional 
JP-8 fuel) emit less sulfur oxides and significantly less particulates 
than conventional fuels because the F-T fuels contained no sulfur or 
aromatics (though sulfur and aromatics are present when pure F-T fuels 
are blended with conventional JP-8), and the hydrogen content was 
higher than conventional jet fuel. Nitrous oxides (NOX) and CO<INF>2</INF> 
emissions were very similar to conventional jet fuel, as expected. Some 
preliminary tests by DOD and FAA do show that biofuels have similar 
emissions characteristics as F-T fuels.
    Fundamental combustion research for these alternative fuels would 
help improve our basic understanding of the physical phenomena involved 
including fuel atomization, vaporization, and combustion chemistry. 
This could help enable development of combustion systems with reduced 
emissions that will use these fuels in the future. Additional research 
also could be conducted to ensure durability and reliability of engines 
when operated on drop-in alternative fuels and blends.

Q4.  The Technical Appendix to the National Plan for Aeronautics 
Research and Development and Related Infrastructure released last 
December identified two areas of increasing importance and high 
uncertainty relating to air quality. The first area is fine particulate 
matter, and the second is the potential for aviation to emit hazardous 
air pollutants. The document says that there are currently no 
standardized test procedures for particulate matter from aircraft 
engines. Why are these two areas so problematic and will NASA be 
involved in establishing standardized test procedures?

A4. The combustion process produces solid and volatile aerosol 
particulates which are emitted into the atmosphere through the engine 
exhaust. These particles are quite numerous and extremely small, with 
an average size of less than 100 nanometers. Sampling and measuring 
these is extremely difficult because effects of the sampling probe, 
sampling lines, operating conditions, different measurement 
instruments, etc., can have dramatic effects on the results. The SAE-E-
31 Aircraft Exhaust Emissions Measurement Committee is in the process 
of developing measurement standards for particulates which is very 
difficult due to these issues. They have published a document on 
measurement techniques for measuring non-volatile exhaust particulates. 
NASA (along with DOD, FAA and the Environmental Protection Agency (EPA) 
is an active member of this subcommittee and currently performing 
research to address some of these issues.

Q5.  As you know, the Air Force has set a goal of certifying all its 
aircraft to run on synthetic fuel by 2010, and having those flying 
domestically do so on 50 percent synthetic fuels by 2016. What has NASA 
learned from its collaboration with the Air Force on alternative fuel 
research? Is there an opportunity for the Air Force to benefit from 
civil aviation research into biofuels?

A5. NASA has benefited from collaborating with the Air Force on 
alternative fuel research. NASA has purchased two Fischer-Tropsch fuels 
in conjunction with the Air Force for our research activities. NASA has 
also collaborated with the Air Force in exchanging fuel property data 
for a number of alternative fuels. The Air Force has provided data to 
NASA on their engine emissions measurements using alternative fuels. 
NASA and the Air Force recently collaborated on emissions testing using 
a Pratt and Whitney 308 engine with F-T fuel and the Aviation 
Alternative Fuel Emissions Experiment using a NASA DC-8 aircraft with 
two F-T fuels. NASA also has teamed with the Air Force for combustion 
flame tube testing at the Air Force Research Laboratory (AFRL) using 
alternative fuels.
    NASA's fundamental combustion research can directly benefit the Air 
Force. As an example, NASA work on alternative fuel reaction kinetics 
was recently provided to the Air Force. NASA's work on developing 
future low emissions combustion concepts with biofuels could directly 
benefit the Air Force because some of their aircraft will have 
commercial engines or derivatives of commercial engines. The Air Force 
can also benefit from NASA research on biofuels. They are working with 
NASA to identify algae producers to provide algae oil for their 
research.

Questions submitted by Representative Pete Olson

Biofuels Feedstock

Q1.  What are the relative advantages and disadvantages of the 
feedstocks--jatropha, camelina, and algae discussed at the Subcommittee 
hearing, especially with regard to land use, water use, processing, and 
production rates?

A1. Camelina has recently become of interest because it is cold 
tolerant, grows on marginal land, and can produce approximately 100 
gallons per acre of feedstock oil. It can also be used as food crop. 
Jatropha grows in tropical or semitropical climates on marginal lands 
and can produce approximately 200 gallons per acre of feedstock oil. It 
is not a food crop and some papers discuss issues with toxicity. 
Jatropha is a bushy plant or small tree and the fruit is harvested by 
hand. Algae can be grown in brackish water and has the potential to 
produce much higher yields of 5,000 gallons per acre or more in wane 
water but has many issues associated with growth and harvesting. This 
is an active area of current research and new developments could have 
an impact on these issues. Limited quantities of jet fuel have been 
made using Jatropha, camelina, and algae oil.

Certification vs. Research

Q2.  Dr. Maurice stated that some forms of biofuels may be certified 
``as early as the end of 2010.'' Dr. Shin, you stated that NASA 
``believes long-term, foundational research on understanding of fuel 
processing, combustor and engine performance, durability of engine 
components and emission characteristics will be required for 
application of second generation biofuels in aviation.'' Are these two 
statements in conflict with each other? How should they be reconciled?

A2. Biojet fuel certification is a procedure to make sure fuel will 
meet stringent requirements for current engines, meaning no engine 
modification is required. The statements are not contradictory. 
Certification of biofuel blends (as stated by Dr. Maurice) by 2010 does 
not negate the need to perform long-term, foundational research on 
understanding of fuel processing, combustor and engine performance, 
durability of engine components and emission characteristics. It is 
unlikely that biofuels will be produced from a single feedstock source 
or processing technology, which may result in some variations in fuel 
properties. Changing fuel composition can have dramatic effects on fuel 
atomization, vaporization and combustion chemistry, which in turn will 
affect the emissions and performance of the combustion system. 
Fundamental combustion research is therefore required to fully 
understand the effects of additional evolving fuels on combustor 
performance and emissions. NASA is also performing research and working 
with engine companies and universities to develop fuel flexible 
combustors that reduce NOX, CO, unburned hydrocarbons, and particulate 
emissions for future aircraft engines that will be more fuel efficient 
than the current generation. This is not an easy task and will require 
the development of new combustor concepts in order to meet these goals. 
These future combustor concepts may be able to utilize some of the 
unique properties of these alternative fuels to reduce emissions beyond 
what can be achieved with current jet fuel.

Hydroprocessed Fuels

Q3.  How does hydroprocessing biofuels differ from Fischer-Tropsch, 
especially with regard to production efficiency, CO<INF>2</INF>, and 
technical maturity? Does one process have a distinct advantage over the 
other?

A3. Hydroprocessing bio oils to produce jet fuel requires less energy 
than does the Fischer-Tropsch process with natural gas, coal or biomass 
as the feedstock because the composition of the bio oil feedstock is 
much closer to the final desired product. Life cycle CO<INF>2</INF> 
emissions produced for jet fuel using the Fischer-Tropsch process are 
higher than conventional petroleum processing but can be reduced using 
carbon sequestration and including biomass as part of the feedstock, 
Life cycle CO<INF>2</INF> emissions using hydroprocessing of bio oils 
are reduced compared to petroleum. This is an active area of research 
and results are very dependent on the assumptions used in the 
assessment, particularly land use considerations. Fischer-Tropsch 
processing to produce jet fuel from coal or natural gas has been 
demonstrated on a large scale and is currently used by Sasol and Shell. 
Hydroprocessing has been used by the chemical industry for a number of 
years but has not been demonstrated on a large scale to convert bio 
oils into jet fuel.

Engine Performance

Q4.  What is the type and scale of research that would be required to 
fully understand the behavior and performance of biofuels in current-
generation turbine engines?

A4. To fully understand the behavior and performance of biofuels in 
current generation engines would require both engine and flight testing 
as a minimum. Complete testing of fuel specifications would be required 
and include separate testing of seal compatibility and fuel lubricity. 
If any issues are encountered, other component testing might be 
required such as combustor, fuel nozzle, fuel pump, or other 
components. Static engine testing on the ground would be required to 
evaluate emissions and performance issues associated with use of the 
biofuels. It would also provide an indication of any issues associated 
with the fuel system including seals or fuel pump wear issues. Assuming 
enough fuel was available, it could also provide an assessment of 
reliability and safety issues. Flight testing would probably also be 
required in order to assess aircraft system effects, transient 
operation, and altitude relight capability. The FAA-led Continuous Low 
Energy, Emissions and Noise (CLEEN) program, seeks to support these 
types of tests. NASA is providing support to the FAA in the planning 
and execution of the CLEEN program.

Cap-and-Trade

Q5.  In aviation markets where carbon emissions schemes may be imposed, 
is it your expectation that using biofuel blends would be recognized by 
governments as a carbon offset, thus permitting continued or perhaps 
increased operational tempos into these markets?

A5. NASA currently does not have any expectations related to offsets.
                   Answers to Post-Hearing Questions
Responses by Lourdes Q. Maurice, Chief Scientific and Technical 
        Advisor, Office of Environment and Energy, Federal Aviation 
        Administration

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  In assessing federal efforts with regards to achieving the goal of 
enabling new aviation fuels to ensure a secure and stable supply, the 
Technical Appendix to the National Plan for Aeronautics R&D says:

         ``DOD efforts to develop new alternative aviation fuels are 
        making progress, but civil efforts, though making some 
        progress, are not adequate to meet both the near- and the 
        combined mid- and far-term objectives in a timely manner 
        without either reconsidering the objectives or the current 
        allocation of resources.''

     What more should the Federal Government be doing in this area?

A1. The role of the Federal Government in enabling new aviation fuels 
for civil aviation involves three key areas: supporting activities to 
facilitate the approval of new fuels for use by commercial aircraft, 
assessing the overall environmental impacts of new fuels, and fostering 
development of alternative fuel production and infrastructure 
capability.
    The Department of Defense (DOD) efforts to advance alternative 
fuels were ahead of those of the commercial sector at the time the 
Technical Appendix to the National Plan for Aeronautics R&D was written 
and published (December 2008). However, more resources have since been 
focused on the civil sector including investment by private industry in 
flight demonstrations, the FY 2009 funding of the Continuous Low 
Energy, Emissions and Noise (CLEEN) program which will seek to advance 
and demonstrate alternative fuels for commercial aviation with a focus 
on renewable options, and additional funding by the Federal Aviation 
Administration (FAA), the National Aeronautics and Space Administration 
(NASA), and the DOD for emissions measurements and greenhouse gases 
life cycle analyses. We believe that sufficient federal resources are 
now in place to meet both the near- and the combined mid- and far-term 
alternative fuels objectives of the National Plan for Aeronautics R&D.

Q2.  Is the alignment of government and industry R&D initiatives you 
describe in your testimony equivalent to an integrated R&D plan for 
biofuels in aviation? Is it important to have an integrated plan? If 
there is an integrated plan, is it being used to determine the funding 
plans of each of the involved agencies in such R&D, and have all of the 
agencies formally committed to the implementation of the integrated 
plan?

A2. The member organizations of the Commercial Aviation Alternative 
Fuels Initiative (CAAFI) have jointly prepared roadmaps for alternative 
aviation fuels (including biofuels) research and development (R&D), 
certification, environmental assessment, and business development 
efforts. These roadmaps have led to increasing coordination among 
organizations and have served to guide funding plans of each of the 
agencies involved, as well as those of the private sector. The CAAFI 
member federal agencies have not made formal commitments beyond those 
outlined in the National Plan for Aeronautics R&D. However, although 
the CAAFI roadmaps are not equivalent to an integrated roadmap or 
represent funding commitments, they have proven very effective in 
aligning efforts and the need for a more formal integrated plan is not 
clear. To date, key tasks identified by CAAFI stakeholders are on or 
ahead of schedule, and we are confident that our mutual interests will 
provide the cohesiveness required for success.

Q3.  CAAFI lists, among its work to date, ``supporting R&D on low 
carbon fuels sourced from plant oils, algae, and biomass.'' What is the 
nature of CAAFI's support? Is it providing any funding or other 
resource commitments?

A3. CAAFI participants are devoting significant resources in support of 
low carbon biofuels, although CAAFI does not fund research per se. 
CAAFI is a coalition of stakeholders that individually sponsor and 
collectively coordinate research to meet CAAFI's goals. The Boeing. 
Continental, and CFM International flight test program completed in 
January 2009 is one example of industry investment in this area. The 
FAA has funded work in the form of an alternative jet fuel life cycle 
analysis framework and measurements of alternative fueled engine 
emissions, and is providing leadership in the development of a new fuel 
certification process via ASTM International. Another CAAFI sponsor, 
the Air Transport Association, has signaled its commitment to 
alternative fuels with the introduction of their alternative fuels 
principles to support deployment of fuels that meet safety, 
environmental and economic criteria. CAAFI has also encouraged its 
members who are interested to submit proposals under the Department of 
Agriculture program to develop biofuel capacity.

Q4.  The Air Transport Association says on its web site:

         ``In light of this regulatory arrangement and the fact that 
        the specification for Jet A and Jet A-1 fuel is identified in 
        the FAA approval certificate, no other type of fuel can be 
        utilized at this time in the United States. Much work needs to 
        be done before alternative fuels can safely be used in 
        commercial aircraft operation with approval from the FAA.''

     Do you agree with that statement? If so, what additional work 
needs to be done and when do you anticipate it will be completed?

A4. We agree, but with the following clarifications. ``No other type of 
fuel'' refers to a fuel that does not meet the specification properties 
of Jet A/A-1 fuel. However, it is possible to use ``other types of 
fuel,'' or alternative fuels shown to closely meet the specification 
properties of Jet A/A-1 after sufficient test and analysis work (in 
addition to the specification properties) show that these fuels are 
``fit for purpose,'' (i.e., can be safely used in commercial aircraft 
operations). We expect seamless integration of these alternative fuels, 
called ``drop-in'' fuels, into the distribution system and aircraft 
operations.
    Three classes of drop-in alternative aviation fuels are currently 
under consideration. Fischer-Tropsch (FT) fuels have completed the fit 
for purpose evaluation. An industry specification incorporating these 
fuels is under review, and the ASTM International Aviation Fuels 
Subcommittee should approve it this year. Hydroprocessed Renewable Jet 
(HRJ) fuels are currently being evaluated for fit for purpose, and we 
expect that they will be incorporated into the aviation fuels 
specification within the next one or two years. Bio-chemically derived 
fuels are currently in the R&D stage and will follow the HRJ fuels by 
one to two years.

Q5.  Why is a standardized development readiness scale, similar in 
concept to the Technology Readiness Level scale used by DOD and NASA, 
needed to track the fuel development, approval and commercialization 
process? How far away are we from the establishment and global 
acceptance of such a scale?

A5. CAAFI needed a way to classify and track progress on research, 
certification, and demonstration activities for alternative fuels. A 
variety of scales were in use by CAAFI member organizations including 
the TRL (Technology Readiness Level) used by industry, NASA, and the 
Air Force, and Manufacturing Readiness Level (MRL) used by the U.S. Air 
Force and others. Originally, an Airbus CAAFI representative developed 
a special TRL scale for fuel development, but it was a mixture of 
research achievements and production development. The CAAFI leadership 
team felt we needed a new fuel development scale that would allow for 
parallel fuel research activities and certification activities, as well 
as clearly show how to transition activities between the CAAFI R&D, 
certification, environment, and business and economics teams.
    The resulting Fuel Readiness Level (FRL) scale shown below includes 
descriptions customized to fuels research and certification events, and 
contains specific items of interest to CAAFI members such as required 
fuel quantities to achieve specific milestones. It also reflects the 
reality that fuels research, production development, and certification 
activities may occur at the same time, so a fuel may have different FRL 
numbers for R&D and certification.
    The CAAFI leadership team is currently coordinating the FRL scale 
with CAAFI member organizations in the U.S. and Europe. The roadmaps 
and milestone databases developed and maintained by CAAFI use FRL to 
help organize and track the research and development milestones and the 
process of developing, certifying, and supplying alternative fuels to 
commercial aviation.

Questions submitted by Representative Pete Olson

Biofuels Feedstock

Q1.  What are the relative advantages and disadvantages of the 
feedstocks--jatropha, camelina, and algae--discussed at the 
Subcommittee hearing, especially with regard to land use, water use, 
processing and production rates?

A1. Jatropha and camelina have an advantage in that they are ready for 
use now; they can grow in marginal or under-utilized land, do not 
compete with food sources, and do not require considerable water 
resources. Camelina is attractive because it can grow as a rotational 
crop, returning nutrients to the soil between wheat crops. In terms of 
disadvantages, both jatropha and camelina have relatively low oil 
yields per acre, and the biomass co-product of jatropha is toxic. 
Cultivating jatropha and camelina in large enough quantities to meet 
fuel demands will require vast amounts of acreage and careful land use 
planning to avoid increased carbon emissions from potential land use 
changes. There are also concerns about the unintended consequences of 
introducing a non-native, potentially invasive species to the North 
American ecosystem.
    Algae feedstocks have a number of advantages. It can realize the 
highest production rate of any known bio-based feedstock, could grow on 
marginal or desert lands (perhaps even in the ocean), and does not 
require fresh water. However, it does require sources of salt or brine 
water. To achieve commercial growth rates, the algae also need a supply 
of carbon dioxide (CO<INF>2</INF>) from an external source, such as a 
fossil fuel power plant. The largest challenge in terms of energy 
inputs and environmental impacts lies in separating the water from the 
algae to enable extracting enable extraction of the oil. There are a 
large number of research organizations and commercial ventures working 
to overcome this challenge, but algae is thus far not yet ready for 
large scale fuel production.
    It is important to note that a single feedstock will not provide a 
solution. We will need to pursue a variety of feedstocks and processes 
to enable an adequate supply of alternative fuels for aviation.

Certification vs. Research

Q2.  Dr. Maurice, you stated that some forms of biofuels may be 
certified ``as early as the end of 2010.'' Dr. Shin stated that NASA 
``believes long-term, foundational research on understanding of fuel 
processing, combustor and engine performance, durability of engine 
components and emission characteristics will be required for 
application of second generation biofuels in aviation.'' Are these two 
statements in conflict with each other? How should they be reconciled?

A2. I do not believe that there is conflict between these two 
statements. Dr. Shin's statement generally applies to biofuels at 
greater than 50 percent blends. At 50 percent or less, Fischer-Tropsch 
(FT) and hydroprocessed renewable jet HRJ biofuels are consistent with 
my statement. We forecast approval of FT fuels for use in 2009; these 
fuels will likely include biomass components. We also forecast approval 
for use by as early as the end of 2010 of HRJ--the fuel recently flown 
in the Boeing flight tests--at a 50 percent blend with conventional 
petroleum derived jet fuel. Industry and the Department of Defense 
(DOD) are currently collecting data on the properties and performance 
of these fuels in aircraft and engines that lead us to believe that 
certification is achievable in the near-term. Both HRJ and other next 
generation biofuel and processes will likely benefit from long-term 
research as outlined by Dr. Shin, particularly in the case of use of 
100 percent biofuels.

Hydroprocessed fuels

Q3.  How does hydroprocessing biofuels differ from Fischer-Tropsch, 
especially with regard to production efficiency, CO<INF>2</INF> and 
technical maturity? Does one process have a distinct advantage over the 
other?

A3. Hydroprocessed biofuels require a renewable oil source (such as 
that extracted from jatropha, camelina, or algae), while Fischer-
Tropsch (FT) synthesis uses natural gas, coal or solid biomass from an 
energy crop such as miscanthus (a grass) or agriculture or forestry 
residues/waste. The carbon dioxide (CO<INF>2</INF>) emissions and 
process efficiency of both depend heavily on the choice of feedstock, 
including approaches to growth and collection. It is possible to 
capture a large fraction of the emissions from an FT plant with the use 
of a carbon capture and storage system. FT facilities that do not use 
carbon capture may need to use a much higher quantity of biomass in 
order to be environmentally beneficial. Without specific knowledge of 
the plant configuration and the feedstock, we cannot readily or 
generically compare the CO<INF>2</INF> emissions and production 
efficiency of hydroprocessing and FT synthesis. However, our initial 
computations do show that hydroprocessed fuels generally have lower 
life cycle emissions than FT fuels.
    The technology for FT fuels synthesis is mature and in commercial 
use. The technology for hydroprocessed biofuels is also technically 
mature, although not as mature as that of FT processes. Neste Oil is 
currently constructing several facilities to produce hydroprocessed 
fuels for the diesel market. In addition, UOP Honeywell and Syntroleum 
have demonstrated the technology to create hydroprocessed jet fuels.

Engine Performance

Q4.  What is the type and scale of research that would be required to 
fully understand the behavior and performance of biofuels in current-
generation turbine engines?

A4. The type and scale of research required to fully understand the 
performance and behavior of biofuels in current-generation turbine 
engines will vary depending on the characteristics of the candidate 
fuel and its similarity to other approved fuels. A complete research 
program would most likely not go beyond the following elements:

        <bullet>  Initial laboratory evaluation for compliance with the 
        Jet A/A-1 specification properties. This requires about one 
        gallon of the fuel.

        <bullet>  A more in-depth laboratory evaluation of the fuel to 
        determine if it meets the fit for purpose properties of 
        conventionally derived and produced Jet A/A-1 fuel. This would 
        involve about 80 gallons of fuel. We could complete these first 
        two steps in two to four months.

        <bullet>  Materials compatibility testing of the fuel with a 
        defined set of aircraft materials. This would take a small 
        amount of fuel (less than 10 gallons) and take two to four 
        months to complete.

        <bullet>  Engine fuel component testing, engine combustor rig 
        testing, and Auxiliary Power Unit (APU) testing with the 
        candidate fuel. This will require approximately 4000 gallons of 
        the candidate fuel and could take six to eight months to 
        complete.

        <bullet>  Engine ground testing. This will require 
        approximately 200,000 gallons of the fuel and could take up to 
        a year complete.

    Note that an alternative fuel may not necessarily have to go 
through all five of these steps. Industry experts (aircraft, engine and 
fuel manufacturers) and the Federal Aviation Administration (FAA) may 
agree that the fuel's characteristics are so similar to petroleum based 
Jet-A fuel that no further testing is required.

Cap-and-Trade

Q5.  In aviation markets where carbon emissions schemes may be imposed, 
is it your expectation that using biofuel blends would be recognized by 
governments as carbon offset, thus permitting continued or perhaps 
increased operational tempos into these markets.

A5. Assuming we can establish a standardized framework for a validated 
life cycle analysis (LCA), including any land use changes, we expect to 
document that biofuel blends will have lower life cycle carbon 
emissions. They could be eligible for prorated carbon offsets based on 
their audited LCA results. If we can determine that a particular fuel 
or fuel blend has lower life cycle carbon emissions than those of 
conventional petroleum derived fuels, it seems prudent to offer credits 
for the use of such fuels within systems regulating carbon, such as 
cap-and-trade. The targeting of any credit will depend upon how a 
scheme is set up and the point of regulation (e.g., fuel producer or 
user). It is possible that offering such credits would permit continued 
or increased aviation operations without the need for offsets. Current 
work by the International Civil Aviation Organization's Group on 
International Aviation and Climate Change is looking at develop this 
type of metric for aviation that would adjust for life cycle carbon 
content of fuels.

Alternative Fuels Research

Q6.  Are you aware if the U.S. has previously researched alternative 
aviation fuel sources, perhaps arising out of past oil embargoes? If 
so, how would you contrast today's research with previous efforts?

A6. Yes, I am aware that the U.S. had a large government sponsored 
program in the late 1970s and early 1980s to produce alternative 
aviation fuels. I started my professional career working on this 
program. The focus at that time was to develop synthetic fuels from 
fossil resources, such as shale oil, tar sands and coal, to ensure 
energy availability and security after the energy crisis of the 1970s. 
This effort faded, with the dramatic oil glut of the 1980s. I think it 
instructive with world economic growth showing the largest slowing in 
nearly 60 years, oil prices still remain twice the levels they were 
earlier this decade. The return of economic growth will likely reignite 
pressures on oil prices quickly. In addition, today's alternative fuels 
research is different in that there are a new set of environmental 
drivers not present in the previous effort. Air quality and greenhouse 
gas emissions are now major concerns for aviation, in addition to a 
secure energy supply and cost. There appears to be fundamental 
increased need and emphasis that contribute to the relevance and 
prospects for successful achievement of our current efforts.
                   Answers to Post-Hearing Questions
Responses by Alan H. Epstein, Vice President, Technology and 
        Environment, Pratt & Whitney, United Technologies Corporation

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  Your testimony states that we don't need to do any more research 
before introducing biofuels into civil aviation--that ``there are no 
unanswered scientific questions.'' Yet, it seems that we need to make 
sure that we don't wind up starting down the path of planning for the 
widespread use of a particular aviation `biofuel' before we understand 
(1) its impact on emissions, (2) the constraints it may impose on 
future aircraft technology options, and (3) the impact its production 
would have on the environment, especially on land use and water 
requirements. How should we, as a nation, go about picking the best 
aviation biofuel or biofuels to promote?

A1. My answer, ``. . . from the propulsion provider's point of view . . 
. there are no unanswered scientific questions,'' was meant to 
encompass a very narrow set of technical issues concerning the use of 
specific class of biofuels (synthetic paraffinic kerosene, SPK) in 
current engines. The message is that there is a near-term, technically 
viable path to biofuels for commercial aviation.
    From the wider points of view of the national endeavor and policy-
making perspectives, there is much still to be done to establish the 
best paths forward--best in the economic, ecological, and technical 
realms. As suggested in the question, this wider research agenda should 
include:

        <bullet>  the ecology of biofuels--their impact on land, water, 
        population patterns, wealth generation, and such;

        <bullet>  agricultural/bioengineering approaches to sustainably 
        improving fuel yield per acre;

        <bullet>  establishing a broader technology base for the 
        conversion of biomass into fuels suitable for aviation, 
        technology that can reduce the environmental footprint of the 
        conversion, widen the types of biomass that can be used, and 
        improve the overall economics;

        <bullet>  engine research focused on exploring how the new 
        properties of biofuels and biofuel-conventional fuel mixes can 
        best be exploited in new engine designs to further reduce 
        environmental impact--for example through reduce fuel burn and 
        reductions of particulates and NOX--and to reduce cost.

Q2.  What data is Pratt & Whitney gathering to demonstrate that using 
biofuels over the long-term will not impact the reliability and 
maintainability the aircraft engines it produces?

     What are the challenges associated with designing an aircraft 
engine that runs optimally on biofuels? How far are we from seeing such 
an engine on an airliner?

A2. While we have established that current engines can operate for 
short periods of time (hours) on the drop-in biofuels tested to date 
with no apparent deleterious effects, we have no direct engine data to 
establish the effects of sustained biofuel use on engine reliability 
and maintainability. This data would come from engine endurance testing 
which will require several hundred thousand gallons or more of biofuel 
(about 5-10 million gallons of fuel are burned in a jet engine between 
overhauls). Such testing is not funded at this time.
    Our engines are now optimized to operate on conventional fuel. 
While preliminary analysis suggests that an engine optimized for 
biofuel can have fuel economy and emissions superior to that of current 
engines, little research work has been done to substantiate and exploit 
the potential advantages of biofuels. Also, research is needed to 
identify paths toward a dual fuel-optimized engine, one that could 
realize the best performance with either conventional or biofuels, 
depending on fuel availability. Without such an investment in engine 
research, a biofuel-only optimized engine could not go into service 
until operators could be guaranteed that a significant portion (say 50 
percent) of the fuel they purchased was biofuel. This would require 
biofuel production levels of tens of billions of gallons a year, a 
level which may be several decades away.

Q3.  You indicate in your prepared statement that once biojet fuels are 
deployed into commercial service, it would be prudent to institute 
periodic evaluations as engines age. You further state that this is 
typically done when designs are changed or new materials are 
identified. What are some examples of new designs or new materials that 
have resulted in periodic evaluations? Who funded these tests and 
evaluations?

     What should be the Federal Government's role helping assess the 
viability of biofuels for aviation and facilitating their widespread 
use? Does more need to be done than is currently being done?

A3. When it is clear that a new material or design change is safe but 
that there may be uncertainty with the economic life, a ``controlled 
service release'' can be a useful tool for reducing this uncertainty. 
In commercial service, the airline and/or original equipment 
manufacturer (OEM) will inspect the parts in question at relatively 
frequent intervals to monitor deterioration. One example was a new 
turbine blade coating that promised longer life and reduced costs to 
operators. This was first deployed on a single airline with unusually 
harsh operating conditions. The coated blades were frequently inspected 
on the wing for several years. Historically, the beneficiaries of such 
testing pay for it. In commercial service, this would typically be the 
OEM and/or airline. Since there is no established aviation biofuel 
industry at this time to provide such funding, government support would 
help stimulate the aviation biofuel industry by instilling the 
confidence with biofuels among regulatory authorities, equipment 
suppliers, airlines.

Q4.  Your prepared statement indicates that the growth of the civil 
aviation biofuel market is dependent on, among other things, 
authoritative, peer-reviewed quantitative research to establish the 
carbon footprint of various biofuels and document their sustainable 
nature. You also say that this will be an ongoing process which should 
be supported by governments and universities. Can you elaborate on how 
a consensus on the carbon footprints will be achieved and how long this 
may take?

A4. Scientific research cycles are several years long--proposals are 
solicited prepared and evaluated; research performed and documented; 
papers reviewed and dissimulated at conferences and in journals. A 
quantitative, scientific consensus on all aspects of aviation biofuels 
may take several such cycles, depending upon such things as the 
difficulty and complexity of the topic. Detailed understanding of the 
carbon footprint and sustainability of specific biofuels has barely 
started. This is a complex multi-disciplinary topic and relatively few 
studies have been completed. Some have been influential, for example 
vectoring the community away from palm oil and pointing out the 
importance of avoiding deforestation. Some feed stocks are already 
under study, such as jatrophia and camelina, and initial qualitative 
work suggests that these can be sustainable when properly managed. 
Quantitative consensus may reached in as little as three to five years, 
depending upon the scope of the studies. Expeditious funding of a 
diverse research community can help both in accelerating such research 
and in promoting wide dissemination and discussion.

Questions submitted by Representative Pete Olson

Engine Performance

Q1.  What is the type and scale of research that would be required to 
fully understand the behavior and performance of biofuels in current-
generation turbine engines?

A1. In the case of a mix of synthetic paraffinic kerosene, SPK, and 
conventional jet fuel as used in the JAL-P&W-Boeing flight tests, it 
would be wise to carry out several so-called endurance tests. These 
serve in the engine development process as accelerated life tests to 
prove to commercial or military customers that the engine has the 
durability and life claimed. Assuming availability of the biofuel, such 
testing could be competed in 12-14 months for $10-20M.

Cap-and-Trade

Q2.  In aviation markets where carbon emissions schemes may be imposed, 
is it your expectation that using biofuel blends would be recognized by 
governments as a carbon offset, thus permitting continued or perhaps 
increased operational tempos into these markets?

A2. Short answer: yes.
    Longer answer: We would expect that in a carbon regulated world, 
the regulatory measures put in place by governments would be such as to 
motivate behaviors that reduced the total carbon released into the 
atmosphere. So for example, if a biofuel's total carbon footprint was 
only 50 percent that of a conventional petroleum-derived fuel, the 
operator using biofuel would need to purchase no more than 50 percent 
of the carbon credits they would when using conventional fuel. 
Alternatively, an operator's operations could double without enlarging 
its carbon footprint. Such market-based flexibility would increase the 
value of biofuel to airline operators--incentivizing their adoption.
                   Answers to Post-Hearing Questions
Responses by Billy M. Glover, Managing Director of Environment 
        Strategy, Boeing Commercial Airplanes

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  What data is Boeing gathering to demonstrate that using biofuels 
over the long-term will not impact on the reliability and 
maintainability of the aircraft it produces?

A1. The data already collected indicates that the chemistry of the 
synthetic paraffinic kerosene (SPK) fuels pose no long-term reliability 
or maintenance concerns. Engine companies will be evaluating the 
compiled data over the next few months to determine if any additional 
testing specifically for the SPKs known as hydrotreated renewable jet 
fuels (HRJ) must be completed prior to fuel specification approval.

Q2.  What should be the Federal Government's role in helping assess the 
viability of biofuels for aviation and facilitating their widespread 
use? Does more need to be done than is currently being done?

A2. Federal policy mechanisms should be utilized to assist accelerate 
research and development that can increase yield of plant oil sources 
and improve supply chain economics; encourage increased agricultural 
output of suitable plant oils; help entrepreneurs to scale up and 
capitalize new production capability; and designate use of sustainable 
biofuel for use in aviation fuel. As mentioned in my testimony, 
aviation does not have the range of alternative clean energy sources 
that other fuel users have, so the opportunity to reduce aviation 
greenhouse gases by use of sustainable biofuels is a very significant 
and valuable.

Q3.  Boeing has been quoted as having said that it had a hard time 
finding biofuel suppliers who can produce testable quantities of their 
product. Do you see this as a temporary annoyance or a growing problem?

A3. This is a temporary situation due to the fact that the technology 
has evolved at faster pace than the production capacity. Federal policy 
(see above and written testimony) can help assure that the market 
development matures.

Q4.  Have biofuel producers shown greater interest following recent 
flight demonstrations? Are there infrastructure and distribution issues 
that need to be addressed before widespread aviation biofuel use is 
considered? If so, what are they?

A4. Considerable interest from potential biofuel producers has followed 
the recent flight demonstrations. A number of scale up and potential 
commercialization projects are under discussion. Federal support in 
terms of research grants aimed at scale up, permit streamlining, 
agricultural education, and loan guarantee programs would be helpful. 
In addition, a ``sense of the Congress'' statement indicating the value 
of directing advanced biofuels towards aviation would be supportive.

Q5.  Is additional R&D needed to secure government, airline, and public 
confidence that biofuels are safe and economically-viable supplements 
or replacements for jet fuel? Who should conduct this additional R&D?

A5. Additional research and development is needed to improve yield and 
increase the variety of plants that are/could be suitable for 
sustainable biofuel for aviation. R&D that can improve harvesting and 
processing methods is also needed. We are at the beginning of a 
learning curve and additional research will help to accelerate long-
term viability and enable larger scale availability.

Q6.  What major challenges do biofuels face in trying to secure 
modifications to fuel specifications and FAA aircraft certifications? 
What modifications to the specification of biofuels and aircraft 
certifications are needed before biofuels can be used in civil 
aviation?

A6. A new fuel specification for SPK fuels is in development in ASTM. 
When complete, the new specification will define criteria for fuels 
from biomass (and other sources) that, from a user point of view, can 
be treated as ``equivalent'' to traditional jet fuel from petroleum 
sources. Once the specification is in place, FAA approval of operation 
with new SPK fuels will be straight forward. The FAA has played a 
leadership role to oversee and assure proper development of new 
specifications, and has strongly supported the work across the industry 
as embodied in the Commercial Aviation Fuels Initiative and similar 
efforts. Continued FAA involvement is required to enable further 
developments and approval of alternative fuels.

Questions submitted by Representative Pete Olson

Engine Performance

Q1.  What is the type and scale of research that would be required to 
fully understand the behavior and performance of biofuels in current-
generation turbine engines?

A1. The validation research for the new Synthetic Paraffinic Kerosene 
(SPK) fuels has been largely completed. Some additional endurance 
testing may be needed to build full confidence. Engine companies will 
be assessing that situation later this year.

Cap-and-Trade

Q2.  In aviation markets where carbon emissions schemes may be imposed, 
is it your expectation that using biofuel blends would be recognized by 
governments as a carbon offset, thus permitting continued or perhaps 
increased operational tempos into these markets?

A2. It is my expectation that biofuel blends should and will be 
recognized as a carbon offset in such schemes. That is one method of 
ensuring the value is recognized; however a careful construct is 
required to avoid unintended consequences. For instance, if the means 
of qualification is ambiguous or overly complex, it could actually 
deter adoption of low carbon life cycle solutions.

Sustainable Biofuels

Q3.  You define `sustainable biofuels' as having several 
characteristics, such as using feedstocks that don't compete with food 
and that don't displace native eco-systems. What regions of the world 
would be ideal sources of feedstock that would go into the production 
of biofuels? How do you address the challenge of transporting raw 
feedstocks to a processing facility, especially for crops grown in 
lesser developed areas of the world?

A3. Given the variety of potential feedstocks, there is also a wide 
range of regions where sustainable feedstock might prove viable. Some 
of those regions are hampered by lack of infrastructure, including 
transport to market. Also, the agricultural work force may require 
training to enable economic productivity and yield. I anticipate that 
business interests and local communities will develop a wide portfolio 
of solutions. Certainly, government actions to direct appropriate 
economic, technology and educational attention could help to accelerate 
beneficial results. Africa and Latin America are two areas where the 
potential for sustainable biofuels is large, given proper attention.
                   Answers to Post-Hearing Questions
Responses by Holden E. Shannon, Senior Vice President, Global Real 
        Estate and Security, Continental Airlines

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  Your prepared statement indicates that Continental would like to 
see additional long-term materials compatibility testing for system 
components like o-rings and seals by the manufacturers and the wide 
dissemination of these results. Who should perform these tests and how 
would they be funded? Based on your statement, are you concerned that 
results would not be disseminated widely?

A1. While we were pleased with the test results we have obtained to 
date, we believe additional long-term materials compatibility testing 
for system components like o-rings and seals by the aircraft and engine 
manufacturers would be useful. It is important for manufacturers to 
disseminate their results through the fuel certification process as 
well as their normal customer information transfer processes.
    WHAT WE SAID IN OUR WRITTEN TESTIMONY: While we were pleased with 
the test results we have obtained to date, we would like to see 
additional long-term materials compatibility testing for system 
components like o-rings and seals by the manufacturers and the wide 
dissemination of these results. The U.S. organization that certifies 
jet fuel specifications for use in commercial aircraft is the American 
Society for Testing and Materials (ASTM) International. They will 
engage in an extensive data review process before approving new fuel 
specifications and will decide whether any additional demonstrations 
are necessary.

Q2.  What should be the Federal Government's role in helping assess the 
viability of biofuels for aviation and facilitating their widespread 
use? Does more need to be done than is currently being done?

A2. The Federal Government should establish applicable government 
policies to encourage widespread use of aviation biofuel use through 
fiscal policy, tax policy, and energy policy. The Federal Government 
needs to do more to establish polices that will help direct government 
assistance to the develop biofuels, create infrastructure and 
distribution systems to airports, and encourage widespread use by 
airlines.
    WHAT WE SAID IN OUR WRITTEN TESTIMONY: While the test itself was 
highly successful, significant challenges must still be overcome to 
meet our goal of widespread use of biofuels in aviation.

        <bullet>  A fuel specific standard must be developed which 
        meets key performance and compatibility criteria to ensure 
        safety.

        <bullet>  We will also need to develop a U.S. regulatory 
        requirement mandating the level of quality throughout the 
        supply chain; starting at the refinery all the way through to 
        the airport.

        <bullet>  Federal support will be needed to accelerate the 
        approval and deployment of several alternative aviation fuels 
        that have already been developed and tested.

        <bullet>  Increased funding will be needed for ongoing U.S. 
        military efforts to develop alternative fuels for military jet 
        fleets that will transition to commercial fleets.

        <bullet>  Because of the economic slowdown, investment dollars 
        for already conceived pilot plants and full-scale production 
        plants has dried up. Direct federal support for such 
        infrastructure investments and greater support in the area of 
        research and development, including the feasibility of pipeline 
        use for biofuel transport, may be needed to allow the 
        development plans to proceed.

        <bullet>  In the end, we not only need a stable supply of 
        energy which is independent from foreign oil, but any 
        alternative fuel sources need to be produced in large enough 
        volumes that they are available at an economically viable 
        price. It will take many years to make a robust supply of 
        alternative fuels and a network to deliver it to airports, so 
        continuing our work toward that goal is important now.

Q3.  In your opinion, what are the most realistic aviation biofuel 
options for the near-term? How about for the long-term?

A3. The most optimistic biofuel options will depend on the government 
and industry support for larger supplies of feedstocks and refiners to 
spur a cost competitive biofuel. A variety of non-food based plant 
sources such as camelina, halophytes, or jatropha maybe possible in the 
near-term, while algae is seen more as a long-term option due to the 
emerging technology needed to extract the algae oil. Biofuel providers 
such as UOP will have more information on this topic.
    WHAT WE SAID IN OUR WRITTEN TESTIMONY: With the help of the 
government and continued coordination of the industry, manufacturers 
and fuel suppliers, we believe that, as long as an alternative fuel is 
certified for aircraft use, meets the ``drop-in'' fuel requirement and 
is available at an economically competitive price as compared to 
traditional jet fuel, aircraft operators will have the confidence to 
start using biofuel blends in revenue flights in the next five to 10 
years. As the supplies increase in a commercially viable way, we will 
be able to increase the blend percentage over the years.

Q4.  Have biofuel producers shown greater interest following recent 
flight demonstrations? Are there infrastructure and distribution issues 
that need to be addressed before widespread biofuel use is considered? 
If so, what are they?

A4. Yes, biofuel producers have shown increasing interest. Please refer 
to answer to question #2. Biofuel providers, such as UOP, may have more 
insight on the infrastructure needs.
    WHAT WE SAID IN OUR ORAL TESTIMONY: See #2. While the test itself 
was highly successful, significant challenges must still be overcome to 
meet our goal of widespread use of biofuels in aviation.

        <bullet>  A fuel specific standard must be developed which 
        meets key performance and compatibility criteria to ensure 
        safety.

        <bullet>  We need to develop a U.S. regulatory requirement 
        mandating the level of quality throughout the supply chain; 
        starting at the refinery all the way through to the airport.

        <bullet>  Federal support will be needed to accelerate the 
        approval and deployment of several alternative aviation fuels 
        that have already been developed and tested.

        <bullet>  Because of the economic slowdown, investment dollars 
        for already conceived pilot plants and full-scale production 
        plants has dried up. Direct federal support for such 
        infrastructure investments and greater support in the area of 
        research and development, including the feasibility of pipeline 
        use for biofuel transport, may be needed to allow the 
        development plans to proceed.

        <bullet>  In the end, we not only need a stable supply of 
        energy which is independent from foreign oil, but any 
        alternative fuel sources need to be produced in large enough 
        volumes that they are available at an economically viable 
        price. It will take many years to make a robust supply of 
        alternative fuels and a network to deliver it to airports, so 
        continuing our work toward that goal is important now.

    With the help of the government and continued coordination of the 
industry, manufacturers and fuel suppliers, we believe that, as long as 
an alternative fuel is certified for aircraft use, meets the ``drop-
in'' fuel requirement and is available at an economically competitive 
price as compared to traditional jet fuel, aircraft operators will have 
the confidence to start using biofuel blends in revenue flights in the 
next five to 10 years.

Q5.  Some critics minimize the importance of recent flight 
demonstrations. What is your response to such criticism?

A5. The flight demonstration was a small, but significant step of many 
toward the development of alternative energy solutions. It was a 
visible milestone in getting public acceptance of biofuel as a viable 
fuel for aviation. Our goal in this test was to work with Boeing and 
CFM to demonstrate that biofuels are safe and we will continue to work 
with our partners to make sure that safety is our priority.
    WHAT WE SAID IN OUR WRITTEN TESTIMONY: Although the flight 
demonstration was one small step of many toward the development of 
alternative energy solutions, we were able to help gather important 
data that is needed for the fuel certification process before the 
biofuel can be used by the airline industry.

Questions submitted by Representative Pete Olson

Engine Performance

Q1.  What is the type and scale of research that would be required to 
fully understand the behavior and performance of biofuels in current-
generation turbine engines?

A1. Continental and the airlines will work together with the aircraft 
and engine manufacturers to fully understand the performance of 
biofuels in engines, particularly during the biofuel certification 
process. To fully understand the scale of the research needed for the 
engines, we would need to defer to engine manufacturers such as CFM or 
Pratt & Whitney.
    WHAT WE SAID IN OUR WRITTEN TESTIMONY: To this end, Continental was 
pleased that the fuel property and performance tests showed that the 
biofuel blend we tested acted just like traditional jet fuel. The 
multitude of tests performed by Boeing, CFM, UOP, the Air Force 
Research Lab, as well as other third party labs on the biofuel prior to 
our flight, all show that the biofuel we used performs just like 
traditional jet fuel, with no difference in engine or system 
performance. Continental is working with Boeing and all of its other 
flight test partners to compile the results of the testing performed on 
the various biofuels used in other carriers' flight demonstrations.

Cap-and-Trade

Q2.  In aviation markets where carbon emissions schemes may be imposed, 
is it your expectation that using biofuel blends would be recognized by 
governments as a carbon offset, thus permitting continued or perhaps 
increased operational tempos into these markets?

A2. The availability of biofuels at economically viable prices would 
allow our industry to meet increasing strict pollution standards 
without limiting the transportation industry's growth.
    WHAT WE SAID IN OUR ORAL TESTIMONY: Biofuels represents an 
important option for the airline industry to reduce their already small 
greenhouse gas footprint. We would be remiss if we did not mention that 
more focus on the potential, the development and the use of alternative 
fuels is far more productive than to consider the imposition of some 
kind of cap and trade policy on the airlines.
    As you probably know, government actions which ``cap'' a company's 
existing carbon footprint and then ``reward'' future improvement could 
have the perverse effect of punishing those who are already diligently 
reducing our greenhouse gas emissions voluntarily through the purchase 
of new aircraft. Instead of creating benefits for those who have been 
unwilling to invest in a clean environment until the government told 
them to do so, we ought to provide standards which reward excellence 
and are required to be met by all. Developing a safe and reliable 
biofuels alternative is an important means of meeting that goal.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
